AUDIT OF THE DRUG ENFORCEMENT 

 ADMINISTRATION’S PERSONNEL 

  RESOURCE MANAGEMENT AND 

           CASEWORK

       U.S. Department of Justice 

     Office of the Inspector General 

              Audit Division 


           Audit Report 12-02 

            December 2011

 AUDIT OF THE DRUG ENFORCEMENT ADMINISTRATION’S 

  PERSONNEL RESOURCE MANAGEMENT AND CASEWORK


                             EXECUTIVE SUMMARY


       The Drug Enforcement Administration (DEA) is the primary federal law
enforcement agency charged with enforcing the controlled substances laws
and regulations of the United States. The DEA focuses on disrupting and
dismantling Priority Target Organizations (PTO), which are the major drug
supply and money laundering organizations that have a significant impact
upon drug availability in the United States. In addition to combating the
trafficking of illegal narcotics, the DEA also investigates the diversion and
abuse of legally controlled substance pharmaceuticals.1

       The DEA, headquartered in Arlington, Virginia, has 227 domestic
offices in 21 field divisions throughout the United States and 87 foreign
offices in 63 countries. Of the DEA’s 10,908 permanent positions in fiscal
year (FY) 2010, 10,147 or 93 percent were located in DEA headquarters and
domestic field divisions. The remaining 761 positions were stationed in the
DEA’s foreign offices. This audit examines the DEA’s efforts to manage its
allocation and utilization of domestic personnel resources and its
investigative caseload.

      DEA characterizes its special agents, intelligence research specialists,
diversion investigators, and chemists as “core personnel.”2 The DEA also
manages state and local task force officers that it deputizes to perform the
same functions as DEA special agents. The DEA’s non-core personnel
consist of attorneys, professional/administrative staff, technical/clerical staff,
and investigative technology staff. Personnel resources used for the DEA’s
Diversion Control Program are funded through the Diversion Control Fee
Account (DCFA).3 Exhibit A shows the breakdown of the DEA’s total
permanent positions.



       1
          Diversion is the redirection of controlled pharmaceuticals and chemicals from
legitimate channels to illicit channels.
       2
          For the purpose of this audit, the OIG focused on the DEA’s investigative and
intelligence core personnel, which excluded chemists.

       3
        The DCFA funds the DEA’s efforts to enforce the provisions of the Controlled
Substances Act, 21 U.S.C. § 801 (2010), that pertain to the diversion of controlled
pharmaceuticals. The DCFA is funded by annual registration fees of entities that
manufacture, distribute, or dispense any controlled substance and listed chemicals.
                             EXHIBIT A

          FY 2010 COMPOSITION OF DEA PERSONNEL POSITIONS4





                Source: OIG analysis of DEA personnel documentation

OIG Audit Approach

       The OIG performed this audit to determine: (1) how the DEA allocates
and assesses the use of personnel resources in line with its established
priorities, (2) the number of DEA personnel allocated and utilized on various
types of narcotics-related investigations, and (3) the number and types of
cases investigated by the DEA. This audit focused on the DEA’s
management of its domestic field divisions’ and headquarters’ personnel
resources.

       To accomplish these audit objectives, we examined DEA allocation
data for special agent, intelligence research specialist, and diversion
investigator positions within headquarters and domestic field divisions. We
also examined DEA data related to the utilization of special agents, task
force officers, intelligence research specialists, and diversion investigators,
as well as investigative casework. All data reviewed encompassed FY 2005
through FY 2010. In addition, we interviewed DEA headquarters officials,
including senior management from the Operations, Intelligence, Inspections,
and Financial Management Divisions. We also gathered and reviewed
guidance and other documentation used to guide the DEA’s resource
management processes. Moreover, we visited the DEA’s Chicago Field
Division to discuss the DEA’s resource management processes with field
division personnel. Appendix I contains a more detailed description of our
audit objectives, scope, and methodology.

      4
          The percentages in this chart add up to 101 percent due to rounding.


                                           - ii -
Results in Brief

      We found that during the period encompassed by our review, the DEA
employed a flexible, subjective process for allocating its resources. Although
the DEA began a “rightsizing” initiative in 2008, the information gathered
through this initiative does not provide the DEA with comprehensive
information to examine whether resources are allocated appropriately
among the field divisions.

       In addition, the DEA tracks resources using a method that does not
provide detailed information about the level of effort expended to investigate
different categories of Priority Target Organizations (PTO). We believe that
DEA management should use more detailed information to evaluate whether
field division performance is in line with operational strategies and initiatives
and to refocus the use of resources as needed. Overall, we determined that
the DEA significantly increased its use of special agents, task force officers,
and intelligence research specialists on regional and local PTO investigations
from FY 2005 to FY 2010. However, the DEA reduced its use of these
resources on investigations of PTOs categorized as having an international
connection, including Mexican and Central American PTOs. The DEA does
not regularly perform this type of analysis that reviews resource utilization
within the sector of its workforce that is dedicated to PTOs. We believe that
more detailed data can provide the DEA, the Department of Justice (DOJ),
Congress, and the general public with a more complete, strategic, and
constructive view of the DEA’s efforts to combat drug trafficking
organizations.

       The DEA requires its field divisions to identify the illicit and
pharmaceutical drug threats within their jurisdictions. We found that the
majority of the DEA’s domestic field divisions identified cocaine and
methamphetamine as the most significant illicit drug trafficking threats in
their jurisdictions. In FY 2010, the DEA used 65 percent of its non-diversion
personnel resources on cocaine and methamphetamine cases. In addition,
the DEA’s field divisions identified oxycodone and hydrocodone
pharmaceutical narcotics as top diverted drug threats. We determined that
in FY 2010 the DEA used 51 percent of its Diversion Control Program
personnel resources on oxycodone and hydrocodone cases. The DEA does
not routinely analyze its data to determine the level of effort expended on
specific drug threat areas. DEA officials stated that the agency’s focus is on
drug trafficking organizations. However, we believe that this over-
generalizes DEA’s operations. The emphasis DEA places on field divisions
identifying drug threats should include a corresponding responsibility to
monitor field divisions’ performance in combating the identified drug threats.



                                      - iii -
This approach would enable the DEA to evaluate its operational performance
in line with identified drug threats nationally and locally.

       DEA Operations and Intelligence Division managers stated that the
OIG’s detailed analysis of PTO and drug threat data was very informative
and could be used to identify investigative trends and better assess resource
utilization.

      In our report, we make six recommendations to assist the DEA in
assessing and overseeing the allocation and management of personnel
resources. Our report contains detailed information on the full results of our
review of the DEA’s personnel resource management. The remaining
sections of this Executive Summary summarize in more detail our audit
findings.

DEA Personnel Resource Allocation and Oversight

       Similar to other federal agencies, the DEA requests and receives
funding for its personnel resources annually from Congress. The DEA
categorizes personnel resources it receives from Congress as specific,
general, or agency-at-large. Congress funds specific positions with explicit
guidance to the DEA on how the DEA must use them.5 Congress funds
general positions for certain initiatives and purposes but does not limit them
to a specific entity within the DEA.6 Agency-at-large positions allow the DEA
to allocate positions as it sees fit without any restrictions. The DEA’s
Financial Management, Operations, and Intelligence Divisions perform
analyses and provide input to the personnel allocation process, and the
Administrator is ultimately responsible for decisions related to allocating
personnel resources.

       For general and agency-at-large positions, the DEA utilizes an
allocation methodology that is not driven by an established policy or
documented process. Instead, DEA officials described the allocation process
as “flexible” and stated that DEA executive management gathers objective
performance and personnel data and bases staffing decisions on its


       5
          As an example of congressionally appropriated specific positions, Congress
provided $30.6 million in FY 2009 to the DEA for its Mobile Enforcement Team (MET)
program and directed the DEA to bolster the MET program, both through the establishment
of additional teams and by increasing the funds available for existing teams.
       6
          As an example of congressionally appropriated general positions, Congress
provided the DEA with $33.7 million for additional special agent positions to combat drug
trafficking along the Southwest Border, and the DEA decided which field divisions would
receive those positions.


                                           - iv -
 subjective analysis of this data, as well as priorities and strategic goals, field
 division needs, and personal knowledge.

        Exhibit B depicts the DEA’s allocation process for special agent and
 intelligence research specialist positions.

                           EXHIBIT B 

               RESOURCE ALLOCATION PROCESS FOR 

     SPECIAL AGENTS AND INTELLIGENCE RESEARCH SPECIALISTS7





Source: OIG depiction based upon interviews with DEA officials and review of DEA documents

        The DEA’s Diversion Control Program, including diversion-related
 positions, is funded through the Diversion Control Fee Account (DCFA). DEA
 officials informed us that its diversion personnel allocation framework is a
 four-step process, which is separate from the process used to allocate non-
 diversion special agent and intelligence research specialist positions. The

        7
            The DEA uses its Table of Organization database to track authorized and allocated
 staffing levels in its headquarters, domestic field divisions, and foreign offices.


                                            -v-
first step in the diversion personnel allocation framework is identifying and
defining the need for resources. The second step is conducting an analysis
to determine if the resource need falls within the scope of the DEA’s and the
Diversion Control Program’s missions. The third step involves the placement
of new positions and the realignment of existing positions among field
divisions. The fourth and final step in the personnel allocation framework is
performing reviews, which include verifying payroll information of personnel
handling diversion-related activities and conducting resource utilization
analysis to identify investigative gaps and future personnel resource needs.

Rightsizing Initiative

       The DEA performed an overall assessment of its resources in FY 2002.
This resulted in a proposal to reallocate 143 DEA personnel from various
international and domestic posts. Moreover, since FY 2003, the DEA has
conducted annual rightsizing assessments for its foreign offices to determine
the number of personnel needed to fulfill the objectives and needs of each
office and to ensure that personnel resources were allocated in a way that
maximizes their impact on the illicit narcotics trade. These foreign
rightsizing assessments include analyses of workload, security concerns,
missions, and cost of operations. As a result of these rightsizing reviews,
the DEA proposed enhancements and reductions of staffing levels
throughout its foreign offices.

        In June 2008 the DEA began what it titled a “domestic rightsizing
initiative.” The primary purpose of this initiative was to “help the
Administrator navigate the uncertain budget years facing the DEA.” The
DEA obtained subjective information from field division Special Agents in
Charge (SAC) about optimal staffing levels and organizational structures.
DEA officials stated that this information provides the Administrator with
options and scenarios to review when making resource allocation decisions.
Unlike its foreign rightsizing assessments, this initiative was an information
gathering effort and was not initiated with the intent to actually “rightsize”
its domestic field divisions.

      Aside from the DEA’s annual foreign office rightsizing efforts and its
information gathering initiative described above, the DEA has not conducted
an organization-wide human resource assessment since its 2002 initiative
and has not strategically looked at the alignment of resources throughout its
operations, particularly its domestic field divisions. DEA officials explained
that the organization evaluates resource needs when making determinations
about filling vacant positions. Although we agree that these efforts are
useful and represent an assessment of resource needs, we believe that the
DEA should consider conducting an organization-wide, comprehensive,


                                     - vi -
strategic look at the universe of its resources and evaluate domestic field
division resource needs to ensure that positions are adequately aligned to
address ongoing and emerging drug threats.

      We have conducted resource management audits at other DOJ
components, including the Federal Bureau of Investigation (FBI) and the
United States Attorneys’ Offices (USAO). During our most recent review of
the FBI, we were informed that the FBI had begun a new process for
assessing and allocating resources, which was the most comprehensive and
sophisticated approach we identified among DOJ components. Specifically,
in FY 2010 the FBI initiated a risk-based management approach that allowed
the FBI to identify risk indicators associated with each of its investigative
programs to highlight the potential for an adverse outcome of threats,
vulnerabilities, and consequences associated with certain events. The FBI
used these indicators to assess which field divisions had the greatest risk in
each of their investigative program areas. The FBI reviewed this information
to assist in allocating personnel resources to those field divisions that had
the greatest risk and limited resources. We believe that the DEA should
consider contacting the FBI to learn about the initiative and determine if
such a structured, risk-based approach would be beneficial to the DEA.

DEA’s Priority Target Organization (PTO) Program

      The goal of the DEA’s domestic enforcement strategy is to disrupt and
dismantle PTOs having the most significant impact on illegal drug availability
within the United States. The centerpiece of the DEA’s Strategic Plan for
FY 2009 through FY 2014 is the PTO program, in which the DEA assesses
targets and links to the most significant illegal drug, money laundering, and
narco-terrorism related organizations.

PTO Resource Utilization and Casework Analyses

       The DEA created its Work Hour Reporting System (WRS) to track work
hour data reported by its special agents, intelligence research specialists,
and diversion investigators, as well as task force officers and non-DEA
intelligence personnel working for the DEA. In addition, the DEA uses its
Case Status System (CAST) to maintain information on general files,
criminal case files, and diversion case files. Both of these systems use the
DEA’s Geographic-Drug Enforcement Program (G-DEP) code. The G-DEP
code is a five digit code used to track information associated with its criminal
cases, such as the principal investigative target, the investigative
involvement of other agencies, the principal controlled substance involved in
the investigation, and the geographic scope of the criminal activity being
investigated.


                                     - vii -
       The DEA Administrator and headquarters and field division
management rely on work hour reports from WRS to assess the percentage
of resources expended on the most significant cases, such as PTO and
Organized Crime and Drug Enforcement Task Force (OCDETF) cases.
Specifically, for internal reporting and assessment purposes, DEA field
divisions and headquarters often cite the percentage of investigative work
hours dedicated to PTOs. The DEA’s Office of Operations Management
generates quarterly statistical reports for headquarters and field division
personnel that provide data, such as case initiations and investigative work
hours. These reports and other information are used to assess field division
performance. We analyzed the DEA’s WRS and CAST data using the G-DEP
investigative target alpha-numeric character to identify the number of
special agent, task force officer, and intelligence research specialist
resources utilized on PTO and non-PTO cases and the number of PTO and
non-PTO cases worked. The following sections summarize our PTO analyses
for special agent utilization and cases worked.8

       Special Agent PTO Utilization

      Although the total number of DEA special agent full-time
equivalents (FTE) used did not change significantly from FY 2005 to FY 2010,
we determined that the percentage of those special agents working on PTO
investigations substantially increased from 2,186 FTEs (or 52 percent) in
FY 2005 to 3,326 FTEs (or 79 percent) in FY 2010, as shown in Exhibit C.9
One of DEA’s senior officials said this substantial increase resulted from an
improvement in the DEA’s intelligence capabilities, specifically, support from
the OCDETF Fusion Center.10 This official also stated that the increase in the
number of special agents working on PTO investigations may be a result of

       8
           For purposes of the Executive Summary, we only present PTO resource utilization
analysis in association with the DEA’s special agents because special agents account for the
largest percentage of DEA personnel. The body of the report contains our analyses on task
force officer and intelligence research specialist PTO utilization. Moreover, Appendix I
contains a detailed methodology of our data analyses.
       9
         A full-time equivalent (FTE) is the number of total hours worked divided by the
maximum number of compensable hours in a work year. The DEA defines 1 full-time work
year as 2,080 hours for non law-enforcement personnel or 2,600 hours for special agents
and task force officers conducting criminal investigations (due to the requirement of law
enforcement officers to work, or be available to work, substantial amounts of "unscheduled
duty", which adds 10 hours to every work week).
       10
           The OCDETF Fusion Center began operating in FY 2006. This center gathers,
stores, and analyzes all-source drug and related financial investigative information and
intelligence to support coordinated, multi-jurisdictional investigations focused on the
disruption and dismantlement of the most significant drug trafficking and money laundering
enterprises.


                                          - viii -
DEA headquarters monitoring PTO work hour and casework data and using
this information to evaluate field divisions’ performance.

                               EXHIBIT C

            SPECIAL AGENT PTO AND NON-PTO FTE UTILIZATION 

                          FY 2005 – FY 201011





        Source: OIG analysis of WRS data based on the G-DEP-Target

       Although the DEA’s work hour information illustrates that in FY 2010
its investigative personnel spent 79 percent of their time addressing PTOs, it
does not allow the DEA to drill down into that 79 percent and identify the
different categories of PTOs it is investigating with what level of effort. For
example, the DEA cannot identify what percentage of its PTO agent work
hours were spent on specific categories of major drug trafficking
organizations, such as Mexican drug trafficking organizations, which are the
DEA’s top threat.

      DEA officials stated that they use the Priority Target Activity Resource
and Reporting System (PTARRS) to track PTO investigations and that
descriptive information regarding PTOs is contained in this system.
However, the DEA does not use this system to track personnel work hours

       11
          The sum of the individual numbers for each fiscal year (FY) may be greater or less
than the totals shown due to rounding.


                                           - ix -
on PTO investigations because WRS is DEA’s official work hour system and
all time activity is recorded there. DEA officials informed us that if
necessary, data from the WRS and PTARRS can be merged to identify the
number of work hours expended on specific PTOs and initiatives. These
officials stated that the DEA does not normally use this type of specific data,
but we perceived an interest and value in this type of information. For
example, we believe that it would be prudent for the DEA to be able to
report to Congress how it used the resources it was provided for the
Southwest Border Initiative. However, DEA officials informed us that it
would take a significant amount of time and effort to extract work hour data
specific to the Southwest Border Initiative. In light of this, we requested
and received work hour data for investigative and intelligence personnel on
PTO cases, sorted by the DEA’s regional operational headquarters sections.12
During the close-out meeting for this audit, DEA officials informed us that in
FY 2011 they began gathering Southwest Border statistics, including
casework and resource utilization data, because DOJ requested this
information.

      Exhibit D depicts our analysis of DEA special agent utilization on PTOs
sorted by regional section. This analysis provides a look at the DEA’s effort
devoted to PTO investigations categorized by PTOs connected with Mexico
and Central America; Latin America and the Caribbean; Europe, Asia, Africa,
and Canada; Regional and Local Impact; and the Office of Diversion.




       12
           The DEA’s regional operational headquarters sections include: (1) Europe, Asia,
Africa, and Canada; (2) Mexico and Central America; (3) Latin America and the Caribbean;
(4) the Regional and Local Impact; and (5) the Office of Diversion. These sections
coordinate domestic and foreign investigations initiated within their respective areas and
provide operational support to domestic field divisions’ PTO investigations that have a nexus
to their areas of responsibility.


                                            -x-
                               EXHIBIT D

                 SPECIAL AGENT FTE UTILIZATION ON PTOs 

                      SORTED BY REGIONAL SECTION

                           FY 2005 – FY 201013





   Source: OIG analysis of the DEA’s PTARRS and WRS data connection

       We found that the increase in DEA’s use of special agents in PTO
investigations was focused on PTOs associated with the DEA’s Regional and
Local Impact Section, which is responsible for overseeing domestic
investigations that do not have a link to foreign sources of supply. In fact,
during our review period the DEA reduced the number of special agent FTEs
utilized on PTO investigations related to all other headquarters sections. A
senior DEA official attributed the increase to the prevalence of
methamphetamine, gang violence, and increased domestic trafficking in the
United States. This official stated that this increase likely caused field
divisions to redirect resources from work associated with the other sections,
which resulted in the decline of special agent FTEs utilized on other PTO cases.
DEA officials also stated that when PTO cases are multi-jurisdictional in nature
they are assigned to the Regional and Local Impact Section, which the DEA
terms the “catch all” section. As the investigation evolves and links to foreign
sources of supply are developed, the PTO case can be moved to a different
headquarters section for oversight. However, one DEA headquarters official

      13
           FY 2010 percentages add up to 101 percent due to rounding.


                                          - xi -
was surprised to see the FY 2005 to FY 2009 decline in special agent
resources devoted to PTOs falling under the Mexico and Central America
Section because this section’s PTOs are predominantly associated with the
drug trafficking problems along the Southwest Border, which is one of the
DEA’s priority initiatives.

       We believe that although the DEA does not regularly perform this type
of analysis, these statistics provide the DEA, DOJ, Congress, and the general
public with a more detailed view of the DEA’s efforts to investigate various
types of PTOs. This information identifies trends and changes in the number
of special agents utilized on specific types of PTOs, such as those related to
Mexico and Central America. Moreover, this analysis is more revealing than
the DEA’s method of identifying total PTO work hours without a breakdown
or differentiation of the level of effort spent on specific categories of PTOs. In
fact, DEA’s Operations and Intelligence Divisions’ managers stated that they
had not previously seen analysis of personnel resource utilization and
casework sorted by the DEA’s regional headquarters sections. These
managers stated that the PTO data we presented was very informative and
could be used to identify investigative trends and assess resource utilization.

       Our analyses of DEA data that we provide in this report do not present
a definitive view of the DEA’s level of effort expended to investigate PTOs,
primarily because this was the only data with a greater level of specificity
that the DEA could provide without requiring the use of extensive time and
manpower. However, we believe our analyses provide more detail and value
to evaluating the use of DEA resources than the DEA simply stating that it
used 79 percent of its special agents on PTOs in FY 2010. We believe that
there is value in knowing that the DEA focused 31 percent of those resources
on Mexican and Central American PTOs and 6 percent on PTOs associated
with Europe, Asia, Africa, and Canada. In addition, we believe that the
DOJ’s recent interest in receiving Southwest Border statistics supports our
position that the DEA should seek to analyze its workforce data in a more in-
depth and specific manner. In our judgment, DEA officials are best
positioned to establish categories for such a strategic analysis of its PTO
workforce. Therefore, we recommend that the DEA develop a more detailed
method for analyzing its PTO workforce statistics and include that data in its
quarterly reports.

PTO Data Limitations

      We found inconsistencies when comparing the DEA’s PTO data based
on the investigative target identified in the G-DEP code from the CAST and
WRS systems to the PTO data from the PTARRS system. According to WRS
data (Exhibit C), the DEA used 2,186 agent FTEs on PTO cases in FY 2005;


                                      - xii -
while according to PTARRS data (Exhibit D), 2,787 agent FTEs worked on
PTO cases in FY 2005. DEA officials explained that the data inconsistencies
occurred because PTO cases in CAST and WRS are tracked from case
initiation to case closure, while PTO cases in PTARRS are tracked only from
the time a case is approved as a PTO until the DEA disrupts or dismantles
the PTO being investigated.14 DEA officials stated that the Office of
Operations Management performs a manual reconciliation of the data in
WRS and PTARRS to minimize the differences. In FY 2010 the DEA
significantly reduced these inconsistencies to a difference of 20 special agent
FTEs.

       As previously mentioned, DEA officials informed us that it uses PTARRS
data to convey PTO case statistics in various internal and external reports.
In turn, these officials explained that they use WRS data associated with the
investigative target of the G-DEP code to report how personnel resources are
used on PTO cases because field divisions want credit for working PTO cases
from case initiation to when all administrative and judicial aspects of a case
have been disposed of and the case is closed. The DEA’s PTARRS guidance,
however, states that DEA headquarters does not want field divisions to carry
priority targets in PTARRS past the dismantled or disrupted stage because
although such investigations may remain open, they no longer require a
significant commitment of resources.

       As acknowledged in the DEA’s FY 2010 Performance Budget, the DEA’s
statistics are limited by a lack of a relational interface between its
information systems that maintain case and work hour data. In addition,
DEA officials stated that the DEA’s data systems were developed
independently, for distinct purposes. This makes it difficult for the DEA to
analyze PTO work hour and case data because the data are maintained in
more than one system.

      DEA officials explained that the DEA is establishing a new information
system that will collect and store all of this information on one platform.
DEA officials estimated that the system will be operational in FY 2012. The
DEA should continue these efforts and ensure that it uses comprehensive
and linked data to report PTO resource utilization.



       14
           The DEA tracks work hour and case information in WRS and CAST, respectively,
as soon as an investigation is opened. However, that investigation may not become a PTO
case until much later, at which time it would be captured in PTARRS. Similarly, as soon as
the PTO has been disrupted or dismantled, the DEA closes the case in PTARRS. However,
work hour and case information on that PTO continue to be recorded in WRS and CAST
while the case moves into the prosecution and adjudication stages.


                                          - xiii -
       PTO Cases Worked

      We analyzed the DEA’s CAST data to determine the changes in
domestic PTO cases worked between FY 2005 and FY 2010. Using the
G-DEP target code, we identified the cases the DEA categorized as PTO
cases and then combined all of the other categories into non-PTO cases.15
According to the DEA’s CAST data, the DEA worked 3,786 more PTO cases in
FY 2010 than it did in FY 2005, a 139-percent increase. However, non-PTO
cases accounted for approximately 80 percent of the cases DEA worked
during FY 2010. Exhibit E shows our analysis of the changes in PTO and
non-PTO cases worked during our review period.

                                 EXHIBIT E

                      PTO AND NON-PTO CASES WORKED 

                             FY 2005 – FY 2010 





    Source: OIG analysis of CAST data based on cases worked by G-DEP Target




       15
           Non-PTO cases include the following categories: division priority target/regional
or local impact/violent organization, gang investigation, registrant, clandestine
manufacturer/producer, listed chemical/equipment supplier, money laundering,
forfeiture/seizure investigation, transportation/smuggling, independent traffickers,
structured criminal organization, and general files.


                                           - xiv ­
      We also analyzed the DEA’s PTARRS data to determine the types of
PTO cases investigated by the DEA during our review period. As with our
resource utilization analysis, we identified inconsistencies between the DEA’s
CAST and PTARRS case data. For example, CAST data (Exhibit E) shows
2,727 PTO cases worked in FY 2005, while PTAARS data (Exhibit F), which
sorts the number of PTO cases by regional section, shows 3,590 PTO cases
worked in FY 2005. The DEA significantly reduced these inconsistencies by
FY 2010 – identifying 6,513 PTO cases worked in CAST (Exhibit E) and
6,487 PTO cases worked in PTARRS (Exhibit F).

       We found that between FY 2005 and FY 2010, the percentage of PTO
cases worked that were associated with the Regional and Local Impact
Section increased by 12 percent, while the percentage of PTO cases worked
associated with the DEA’s other sections decreased. In FY 2010, 44 percent
of the PTO cases DEA worked were associated with a Regional and Local
Impact Section PTO. DEA officials provided the same explanation for this
increase as they did for the increase in special agents working on regional
and local PTO investigations. Specifically, the Regional and Local Impact
Section is a “catch all” section for initially categorizing new PTO investigations
until a link to foreign sources of supply is developed.

                           EXHIBIT F

         PTO CASES WORKED SORTED BY REGIONAL SECTION 

                       FY 2005 – FY 2010 





    Source: OIG analysis of PTARRS, CAST, and WRS data



                                      - xv ­
Illicit Drug Threats

         DEA domestic field divisions provide drug threat assessments to
headquarters through Field Management Plans (FMP) every 3 years. Our
analysis of FMPs showed that the majority of the DEA’s domestic field
divisions identified cocaine and methamphetamine as the most significant
illicit drug trafficking threats in their jurisdictions followed by heroin,
marijuana, and hallucinogens, as shown in Exhibit G. For example, 11 field
divisions listed cocaine as their top drug trafficking threat, while 7 other field
divisions identified cocaine as their second highest drug trafficking threat.

                          EXHIBIT G

 DEA FIELD DIVISIONS’ DRUG TRAFFICKING THREAT RANKINGS16

                     No. 1    No. 2  No. 3  No. 4  No. 5
    DRUG TYPE
                    Threat Threat Threat Threat Threat
       Cocaine         11       7     2       0      1
  Methamphetamine      5        5     5       4      0
        Heroin         3        5     5       7      1
      Marijuana        2        4     5       8      2
    Hallucinogens      0        0     1       2      9
Source: OIG analysis of the DEA’s FY 2007 Domestic Field Division FMPs

       However, DEA officials informed us that many cases involve multiple
drugs because of the presence of poly-drug organizations.17 Nevertheless,
the DEA does not have a mechanism to identify more than one drug per
investigation because it uses G-DEP data from CAST, which identifies only
the principal drug in the investigation to categorize cases by individual drug
types. Therefore, the DEA’s data only provides the principal drug of each
investigation as identified by the DEA’s special agents. Appendix IV provides
a listing of the DEA’s G-DEP drug codes and all corresponding principal drug
types.

      Our analysis further showed that 93 percent of all FY 2010 DEA illicit
drug cases worked involved a principal drug that was identified as a priority
drug trafficking threat, as depicted in Exhibit H. Moreover, 91 percent of the

       16
           Three field divisions identified pharmaceuticals as the third illicit drug threat and
two field divisions identified pharmaceuticals as the fifth threat. However, we did not
include pharmaceuticals in our illicit drug analysis because we incorporated all
pharmaceuticals in our diversion program analysis. In addition, six field divisions did not
identify a fifth illicit drug threat. Therefore, not all columns in the table represent all of the
DEA’s 21 field divisions.
       17
          Poly-drug organizations traffic multiple illegal drugs into the United States and do
not focus on trafficking one drug type.


                                             - xvi ­
  DEA’s non-diversion personnel resources were working on cases focused on 

  those drug threats. In general, the percentage of cases worked in FY 2010 

  matches the percentage of resources utilized on those investigations. The 

  DEA used 50 percent of its non-diversion core personnel on cocaine-related 

  cases, which the DEA explained illustrates its significant level of effort to 

  combat the cocaine threat. 


                             EXHIBIT H
 FY 2010 DEA ILLICIT DRUG CASES WORKED AND RESOURCES UTILIZED
   Total Cases Worked: 23,55318     Personnel Utilized: 6,436 FTEs19




Source: OIG analysis of DEA non-diversion CAST and WRS data

        Using the DEA’s CAST and WRS data, we analyzed the number of
  cases worked and personnel utilized in each of these drug categories. The
  following sections summarize our analysis for illicit drug cases worked and
  resources spent on cocaine and methamphetamine threats.20

  Cocaine

       According to the DEA’s strategic plan, after marijuana, cocaine is the
  most widely used illicit drug among all age categories. Cocaine-related

         18
           The All Other category includes unidentified drug areas, general files,

  methcathinone, other stimulant (clandestine), depressant (clandestine), unspecified 

  analogues, steroid (clandestine), and no specific drug. 

         19
             This pie chart represents utilization figures for DEA special agents, task force
  officers, and intelligence research specialists.
         20
            For purposes of the Executive Summary, we only present casework and utilization
  analysis of the DEA’s investigative efforts on cocaine and methamphetamine. The body of
  the report contains our analysis of the other illicit drug threats.


                                              - xvii ­
  cases accounted for the largest percentage of DEA cases worked during our
  review period. DEA officials explained that cocaine is the drug of choice of
  traffickers because its high demand generates a high profit margin.
  Moreover, these officials stated that when DEA special agents open
  poly-drug cases that involve cocaine, they often identify cocaine as the
  predominant drug involved in the investigation because of U.S. Attorney
  interest in this area.

         Despite these explanations, we found that the number of cocaine
  cases DEA worked decreased between FY 2005 and FY 2010, as displayed in
  Exhibit I. One possible explanation provided by a senior DEA official was
  that around FY 2007, the Mexican government heightened its enforcement
  efforts against drug traffickers, which reduced the supply of cocaine to the
  United States. In addition, DEA officials stated that the decrease in the
  number of cases worked is the result of the DEA’s focus on disrupting and
  dismantling entire drug trafficking organizations and the associated increase
  in case complexity.

        We also analyzed the number of DEA special agents used on cocaine-
  related cases and found that the number of special agents investigating
  these cases slightly decreased between FY 2005 and FY 2010, as shown in
  Exhibit I. In contrast, the number of task force officers and intelligence
  research specialists used on cocaine-related cases increased during this
  same period of time. DEA officials stated that these variations are minor
  and the overall information depicts the DEA’s significant level of effort
  against cocaine trafficking.

                           EXHIBIT I

       DEA CASEWORK AND RESOURCE UTILIZATION ON COCAINE 

                       FY 2005 – FY 2010

             CASES WORKED                           PERSONNEL RESOURCE UTILIZATION




Source: OIG analysis of DEA CAST and WRS data




                                        - xviii ­
Methamphetamine

       Methamphetamine is a highly addictive stimulant that affects the
central nervous system. Methamphetamine remains the most frequently
and clandestinely produced synthetic drug in the United States. According
to the DEA’s Strategic Plan for FY 2009 through FY 2014, the DEA increased
its investigations and operations targeting methamphetamine producers and
organizations and partnered with Mexico to combat the increasing production
of methamphetamine.

      We found that the number of methamphetamine cases worked
decreased between FY 2005 and FY 2010, as illustrated in Exhibit J.
According to DEA officials the passage of the Combat Methamphetamine
Epidemic Act of 2005 enhanced law enforcement efforts against the
production and distribution of methamphetamine domestically.21 DEA
reported to the OIG that this law, combined with previous legislation passed
at the state level, caused a decrease in reported small generator
methamphetamine lab incidents in the United States from 12,976 incidents
in 2005 to 6,097 in 2007. DEA officials also stated that this law significantly
impacted the availability of the substances used to produce
methamphetamine in the United States and suppressed domestic
methamphetamine lab activity from FY 2005 through FY 2008. However,
according to the DEA, methamphetamine lab incidents began to increase
again by 2008.

       We also found that the number of special agents investigating
methamphetamine cases increased between FY 2005 and FY 2006 but then
declined from FY 2006 to FY 2010. In total, the number of special agents
utilized on methamphetamine cases during our review period declined by
nearly 100 FTEs (or 15 percent). DEA officials stated that the changes in
methamphetamine work were not of concern to leadership. DEA officials
explained that the many organizations have become poly-drug
manufacturers and distributors and that this may potentially play a role in
the decrease in work associated with methamphetamine. Special agents
may be investigating an organization where its primary business activity is
cocaine and secondary activity is methamphetamine. When the primary
drug is cocaine, the G-DEP code would reflect a cocaine investigation rather
than methamphetamine. Therefore, the FTEs would be captured as
expended on cocaine rather than methamphetamine, potentially causing a
drop in FTEs attached to methamphetamine. Moreover, according to DEA
officials, the DEA’s international obligations reduced the number of special

      21
           Pub. L. No. 109-177 (2005).




                                         - xix ­
 agents available to investigate domestic methamphetamine cases. However,
 the number of DEA intelligence research specialists and task force officers
 working on methamphetamine cases increased slightly during our review
 period.

                         EXHIBIT J

DEA CASEWORK AND RESOURCE UTILIZATION ON METHAMPHETAMINE

                     FY 2005 – FY 2010

              CASES WORKED                            PERSONNEL RESOURCE UTILIZATION




Source: OIG analysis of DEA CAST and WRS data

 Diverted Pharmaceutical Drug Threats

        During our analysis of diversion-related data, we found that the DEA’s
 diversion cases and personnel focused on the following drugs:
 (1) oxycodone, (2) Schedule II pharmaceutical narcotics, (3) hydrocodone,
 (4) all other pharmaceutical controlled substances, and (5) steroids.22 DEA
 officials from the Office of Diversion Control confirmed that these drugs were
 the top threats and noted that the National Survey on Drug Use and Health
 reported that these drug types were among the most abused in the United
 States.23 We determined that 78 percent of the DEA’s diversion cases
 worked and resources utilized were focused on the top five diverted drug
 threats, as shown in Exhibit K.

        22
            DEA officials stated that the Schedule II pharmaceutical narcotics category
 includes, but is not limited to, drugs such as methadone and morphine, while the “all other
 pharmaceutical controlled substances” category includes, but is not limited to, drugs such as
 phentermine and cough syrup with codeine.
        23
            The National Survey on Drug Use and Health is an annual survey sponsored by
 the Substance Abuse and Mental Health Services Administration that contains the primary
 source of information on the use of illicit drugs, alcohol, and tobacco in the civilian, non-
 institutionalized population of the United States aged 12 years old and older.



                                             - xx ­
                          EXHIBIT K

FY 2010 DIVERSION DRUG CASES WORKED AND RESOURCES UTILIZED24
  Total Diversion Cases Worked: 3,590                Total Personnel Utilized: 737




Source: OIG analysis of DEA CAST and WRS data

        Similar to our analysis of the DEA’s illicit drug trafficking threats, we
 analyzed the DEA’s CAST and WRS data based on the G-DEP drug type to
 identify trends in the DEA’s diversion-related drug cases and the personnel
 resources utilized on those cases. The following sections summarize our
 analysis for cases worked and resources utilized on oxycodone and
 hydrocodone.25

 Oxycodone

        Oxycodone is a narcotic that is widely used in clinical medicine for the
 relief of moderate to severe pain. Common brand names are OxyContin®,
 Percocet®, and other generic combination or single entity oxycodone
 products. Oxycodone is abused for its euphoric effects and is commonly
 obtained illegally through “doctor shopping” or other more traditional
 methods such as prescription forgery and pharmacy burglary. According to
 the DEA, the diversion and abuse of oxycodone products has become a
 major public health problem in recent years. In 2009, an estimated

        24
           This graph excludes any case that did not contain a G-DEP code, which amounted
 to 5,190 cases worked in FY 2010. In addition, the “All Other” category includes drugs such
 as ketamine, benzodiazepine, amphetamines, opioid treatment pharmaceuticals, and fentanyl.
        25
           For purposes of the executive summary, we only present casework and utilization
 analysis of the DEA’s investigative efforts on oxycodone and hydrocodone. The body of the
 report contains our analysis on the other diverted drug threats.


                                          - xxi ­
 7 million Americans, aged 12 and older, reported using prescription drugs for
 non-medical purposes.

        As illustrated in Exhibit L, our analysis showed an increase in DEA
 oxycodone cases worked from FY 2005 through FY 2010, as well as an
 increase in the number of special agents and task force officers investigating
 these cases. Officials from the Office of Diversion Control said that the
 increase in cases worked was largely due to an increase in the availability of
 the drugs from hundreds of pain clinics in South Florida. Moreover, DEA
 officials said that the use of special agent and task force officer FTEs
 increased because the DEA detailed field division agents from Tactical
 Diversion Squads across the country to specifically address the pain clinic
 problem in South Florida. One top official said this infusion of resources was
 not something that the DEA could have done in the past because the DEA
 historically did not focus special agents on pharmaceutical cases since it did
 not have the available resources. DEA officials attributed the increase in the
 number of intelligence research specialist FTEs utilized to the increased use
 of special agents on diversion cases because intelligence research specialists
 support the investigations of special agents.

                          EXHIBIT L

     DEA CASEWORK AND RESOURCE UTILIZATION ON OXYCODONE 

                      FY 2005 – FY 2010

              CASES WORKED                        PERSONNEL RESOURCE UTILIZATION




Source: OIG analysis of DEA CAST and WRS data

 Hydrocodone

       Hydrocodone is an opioid antitussive (cough suppressant) and
 analgesic used to treat moderate to moderately severe pain. In 2008,
 hydrocodone was the most frequently prescribed opiate in the United States,
 with more than 136 million prescriptions for products containing




                                       - xxii ­
  hydrocodone. According to the DEA, hydrocodone diversion and abuse has
  escalated in recent years.
         Our analysis showed an increase in hydrocodone cases worked from
  FY 2005 through FY 2010, as well as a significant rise and decline in the
  number of diversion investigator FTEs used for these cases, as depicted in
  Exhibit M. Office of Diversion Control officials said that the number of
  hydrocodone cases worked increased significantly from FY 2005 to FY 2006
  because of domestic-based rogue Internet pharmacies selling controlled
  substances. Use of these Internet-based pharmacies resulted in a significant
  amount of hydrocodone circulating within the United States. Officials
  attributed the sharp decrease in the use of diversion investigators on
  hydrocodone investigations between FY 2007 to FY 2010 to a decrease in
  Internet pharmacies, as well as the influx of special agents and task force
  officers into the Diversion Control Program and the associated reassignment
  of diversion investigators to regulatory cases.

                           EXHIBIT M
       DEA CASEWORK AND RESOURCE UTILIZATION ON HYDROCODONE
                       FY 2005 – FY 2010
             CASES WORKED                           PERSONNEL RESOURCE UTILIZATION




Source: OIG analysis of DEA CAST and WRS data

         During our audit, DEA officials explained that the DEA transitioned
  from evaluating its investigative efforts on combating different types of
  drugs to focusing efforts on drug organizations. This view was reiterated
  during our audit close-out meeting when officials stated that the DEA’s
  operations are focused on drug trafficking organizations, not drug threats.
  Therefore, these officials did not believe that the drug analysis presented in
  our report would benefit the DEA’s management of personnel resources.
  However, during the audit senior officials from the DEA’s Operations and
  Intelligence Divisions informed us that the drug analysis we performed were



                                        - xxiii ­
informative and could be used to identify trends in the DEA’s efforts to
combat drug trafficking.

      As mentioned, the DEA requires field divisions to submit Field
Management Plans (FMP) that identify illicit and pharmaceutical drug threats
within their jurisdictions. The DEA uses the FMPs as a mechanism to
evaluate field division performance and hold managers accountable. Given
the emphasis placed on the identification of drug threats in the FMPs and the
use of the FMPs to evaluate performance, we believe that there is both value
and need for the DEA to monitor its field divisions’ performance in combating
the drug threats that were articulated in the FMPs.

Conclusion and Recommendations

       During the period encompassed by our audit, the DEA employed a
flexible, subjective process for allocating its resources. Although the DEA
began a “domestic rightsizing initiative” in FY 2008, the initiative has not
provided the DEA with comprehensive information to examine whether
resources are allocated appropriately among field divisions. We believe that
the DEA should consider conducting an organization-wide, comprehensive,
strategic look at the universe of its resources that evaluates domestic field
division resource needs to ensure that positions are adequately aligned to
address ongoing and emerging drug threats it identifies. Such an
organization-wide examination has not been performed since 2002.

       In addition, we determined that the DEA significantly increased its use
of special agents, task force officers, and intelligence research specialists on
PTO investigations from FY 2005 to FY 2010. However, the DEA’s method
for tracking PTO resource utilization does not provide specific information
about the level of effort expended to investigate different categories of PTOs.
We believe that DEA management should use more detailed information to
evaluate whether field division performance is in line with operational
strategies and initiatives and to refocus the use of resources as needed.
Moreover, more detailed data can provide the DEA, DOJ, Congress, and the
general public with a more complete, strategic view of the DEA’s efforts to
combat priority drug trafficking organizations. The DEA’s recent actions to
generate Southwest Border-specific data supports our conclusion that this
information can be useful to DEA and its stakeholders.

       We also analyzed the DEA’s investigative efforts on illicit and diverted
drug threats. The majority of the DEA’s domestic field divisions identified
cocaine as the most significant illicit drug trafficking threat in their
jurisdictions. We found that the DEA used the largest percentage of its non-
diversion resources on cocaine. In addition, the DEA’s diverted drug threats


                                    - xxiv ­
included, among others, oxycodone and hydrocodone pharmaceutical
narcotics, and the DEA used 51 percent of its diversion-related resources to
investigate these drugs. Although the DEA requires its field divisions to
identify illicit and pharmaceutical drug threats, the DEA does not routinely
analyze its data to determine the level of effort expended on these threats.
We believe that the DEA should routinely monitor field divisions’
performance in combating drug threats.

     Our audit work and findings resulted in six recommendations to assist
the DEA in assessing and overseeing the allocation and management of
personnel resources.




                                   - xxv -
This page intentionally left blank.
 AUDIT OF THE DRUG ENFORCEMENT ADMINISTRATION’S

  PERSONNEL RESOURCE MANAGEMENT AND CASEWORK


                                TABLE OF CONTENTS


CHAPTER 1:  INTRODUCTION ............................................................1
 
  DEA Organizational Structure ............................................................. 1
 
  DEA Personnel ................................................................................. 3
 
  Prior Reviews ................................................................................... 4
 
  OIG Audit Approach .......................................................................... 6
 
CHAPTER 2: DEA PERSONNEL RESOURCE ALLOCATION

    AND OVERSIGHT .......................................................................7
 
  DEA’s Allocation and Realignment Processes ........................................ 7
 
  Case Reporting and Work Hour Reporting Processes ............................ 13
 
  Recommendations .......................................................................... 16
 
CHAPTER 3:   DEA RESOURCE UTILIZATION AND CASEWORK ...........17
 
  DEA Personnel Allocation and Utilization ............................................ 17
 
  DEA Cases Worked ......................................................................... 26
 
CHAPTER 4:  DEA PRIORITY TARGET ORGANIZATIONS ...................29
 
  DEA Strategy and Prioritization......................................................... 29
 
  PTO Resource Utilization and Casework Analysis ................................. 30
 
  Special Agent PTO and non-PTO Caseloads ........................................ 43
 
  Recommendations .......................................................................... 44
 
CHAPTER 5: DEA ILLICIT AND DIVERTED DRUG THREATS AND 

    ACTIVITIES .............................................................................45
 
  DEA Domestic Illicit Drug Priorities.................................................... 45
 
  Diversion Control Program Drug Threats ............................................ 58
 
  Recommendations .......................................................................... 69
 
CHAPTER 6: OVERALL OIG CONCLUSIONS ......................................70
 
STATEMENT ON INTERNAL CONTROLS.............................................74
 
APPENDIX I:           OBJECTIVES, SCOPE, AND METHODOLOGY ..............75
 
APPENDIX II:           DEA DOMESTIC FIELD OFFICES ..............................82
 
APPENDIX III:          FIELD DIVISION BURN RATES ...............................83
 
APPENDIX IV:            G-DEP DRUG CODES AND DESCRIPTIONS ..............86
 
APPENDIX V: PTO CASES WORKED AND 

    RESOURCE UTILIZATION.........................................................88
 
APPENDIX VI:         ILLICIT DRUG THREATS.......................................108
 
APPENDIX VII:        DIVERTED DRUG THREATS ..................................118
 
APPENDIX VIII: DRUG ENFORCEMENT ADMINISTRATION 

    RESPONSE TO THE DRAFT REPORT ........................................128
 
APPENDIX IX: OFFICE OF THE INSPECTOR GENERAL ANALYSIS 

    AND SUMMARY OF ACTIONS NECESSARY TO RESOLVE AND

    CLOSE THE REPORT ...............................................................136
 
CHAPTER 1:           INTRODUCTION

       The Drug Enforcement Administration (DEA) is the primary federal law
enforcement agency charged with enforcing the controlled substances laws
and regulations of the United States. Its mission is to bring to the criminal
and civil justice system of the United States, or any other competent
jurisdiction, those organizations and principal members of organizations
involved in growing, manufacturing, or distributing controlled substances in
or destined for illicit traffic in the United States, including organizations that
use drug trafficking proceeds to finance terror; and to recommend and
support programs aimed at reducing the availability of and demand for illicit
controlled substances on the domestic and international markets.

       The DEA focuses on disrupting and dismantling Priority Target
Organizations (PTO), which are the major drug supply and money laundering
organizations operating at international, national, regional, and local levels
and which have a significant impact upon drug availability. To ensure that it
targets these organizations, the DEA must strategically allocate and utilize
personnel resources. To support its operations, the DEA’s fiscal year
(FY) 2010 enacted budget was approximately $2.3 billion. Of this amount,
$2 billion was for the DEA’s salaries and expenses, and the remaining
$250 million was for the Diversion Control Fee Account (DCFA) activities and
personnel.26

       The purpose of this audit was to evaluate how the DEA manages its
personnel resources to most effectively support its mission. We reviewed
the DEA’s process for allocating and aligning the following types of personnel
resources: domestically assigned special agents, intelligence research
specialists, and diversion investigators. We also identified how the DEA
utilized those personnel, as well as task force officers, in its domestic field
divisions and headquarters during FY 2005 through FY 2010, and we
determined the changes in the number of DEA cases worked during that
same time.

DEA Organizational Structure

      The DEA has 227 offices in 21 field divisions throughout the United
States, and 87 foreign offices in 63 countries. Its headquarters is located in

       26
           The Diversion Control Fee Account (DCFA) funds the DEA’s efforts to enforce the
provisions of the Controlled Substances Act, 21 U.S.C. § 801 (2010), that pertain to the
diversion of controlled pharmaceuticals. The DCFA is funded by annual registration fees of
entities that manufacture, distribute, or dispense any controlled substance and listed
chemicals.


                                          –1 – 

Arlington, Virginia. The DEA is headed by an Administrator, a Deputy
Administrator, executive staff from the DEA’s six headquarters divisions, and
a Special Agent in Charge (SAC) in each of its 21 field divisions. Exhibit 1-1
displays the DEA’s organizational chart.

                         EXHIBIT 1-1

           DEA ORGANIZATIONAL CHART AS OF JULY 2009 

                                        




Source: The DEA

       The DEA’s Operations Division manages and oversees the DEA’s
domestic and international investigations. The Office of Diversion Control is
located within the DEA’s Operations Division and is charged with the
management of the Diversion Control Program, providing oversight of
criminal, civil, administrative, and regulatory pharmaceutical and chemical
investigations/inspections, providing policy and program guidance, and
supporting DEA Diversion Control Program staff in the field. The Intelligence
Division supports the DEA’s investigative efforts by supplying drug
intelligence to the DEA’s Operations Division and field divisions and
managing the DEA’s intelligence research specialists.




                                    –2 – 

DEA Personnel

       The DEA categorizes its workforce as core personnel and non-core
personnel. The DEA’s special agents, intelligence research specialists,
diversion investigators, and chemists are the DEA’s core personnel.27
Special agents are the typical criminal investigative personnel of the federal
law enforcement community conducting the DEA’s drug investigations, while
intelligence research specialists provide support to DEA investigations by
collecting, analyzing, evaluating, interpreting, and disseminating drug
intelligence relevant to the DEA’s mission. Diversion investigators
investigate the illegal diversion of pharmaceuticals and listed chemicals,
coordinate with the pharmaceutical industry, and educate the public about
diverted pharmaceuticals and precursor chemicals—materials used in the
manufacture of a controlled substance—and the impact of diverted
prescription drugs.

       In FY 2010, the DEA had 10,908 positions, of which 10,147 (or
93 percent) were located at the DEA’s headquarters and domestic field
divisions, and 761 (or 7 percent) were stationed in foreign offices. The
DEA’s headquarters accounted for 21 percent of all personnel resources. As
shown in Exhibit 1-2, 63 percent, or 6,776 of the DEA’s 10,908 positions,
were DEA core investigative and intelligence personnel.28




       27
          Throughout this report the OIG refers to the DEA’s core personnel. However,
these instances do not refer to the DEA’s chemists because the OIG only focused on the
DEA’s investigative and intelligence personnel. The DEA’s non-core personnel consist of
attorneys, professional/administrative staff, technical/clerical staff, and investigative
technology staff.
       28
           Of the 10,908 permanent positions, 1,310 are reimbursable positions funded by
entities other than the DEA, such as the Organized Crime and Drug Enforcement Task Force.


                                           –3 – 

                         EXHIBIT 1-2

       FY 2010 COMPOSITION OF DEA PERSONNEL POSITIONS29





       Source: OIG analysis of DEA personnel documentation

Prior Reviews

       Between FY 2005 and FY 2010, the Office of the Inspector General
(OIG) issued various reports that incorporated aspects of the DEA’s
management of its personnel resources. In FY 2007, the OIG issued a
report examining the DEA’s international operations and found that the DEA
foreign offices, on average, were spending a significant proportion of their
investigative efforts on priority target cases.30 However, the OIG
determined that the DEA was not using its work hour data to help evaluate
its international offices’ operations.

      In FY 2008, the OIG issued a report that assessed the DEA’s
recruiting, hiring, training, and retention of intelligence research
specialists.31 The OIG determined that between FY 2004 and FY 2007, the
number of on-board intelligence research specialists was less than both the
number of intelligence research specialists allocated to DEA offices and the
DEA’s hiring goal.




      29
           The percentages in this chart add up to 101 percent due to rounding.

      30
          U.S. Department of Justice Office of the Inspector General, The Drug Enforcement
Administration's International Operations, Audit Report 07-19 (February 2007).
      31
          U.S. Department of Justice Office of the Inspector General, The Drug Enforcement
Administration’s Use of Intelligence Analysts, Audit Report 08-23 (May 2008).


                                           –4 – 

       The OIG conducted two reviews of the DEA’s Diversion Control
Program in FY 2006 and FY 2008.32 The OIG’s FY 2006 report found that the
DEA reorganized its Operations Division to include law enforcement
operations for diversion control. In the OIG’s FY 2008 report, the OIG
determined that the DEA increased the number of special agents assigned to
diversion groups because of special agents’ ability to perform law
enforcement tasks, such as serving warrants and conducting surveillance
activities. Moreover, the DEA began assigning intelligence research
specialists to diversion investigations to analyze data, prepare background
profiles on targets, and conduct database checks.

      The OIG completed an audit in December 2010 of the DEA’s Mobile
Enforcement Team (MET) program, which examined the design and
implementation of the program and evaluated the success of the program’s
operations.33 The OIG found that rural law enforcement agencies did not
have the benefit of using MET resources because the DEA focused these
resources on violent gang problems in urban areas.

       The United States Government Accountability Office (GAO) issued a
report in FY 2009 that examined the DEA’s priorities, interagency
partnerships and coordination mechanisms, and strategic plan and
performance measures.34 The GAO found that since the September 11,
2001, terrorist attacks, the DEA has supported U.S. counterterrorism efforts
by prioritizing narco-terrorism cases, which are drug-trafficking cases linked
to terrorism. In addition, the GAO found that the DEA decreased its
resources devoted to some domestic programs to enhance resources in
foreign offices. The GAO also reported that the DEA had not updated its
strategic plan since 2003.35




      32
          U.S. Department of Justice Office of the Inspector General, Follow-up Review of
the Drug Enforcement Administration’s Efforts to Control the Diversion of Controlled
Pharmaceuticals, Evaluation and Inspections Report I-2006-004 (July 2006); and
U.S. Department of Justice Office of the Inspector General, Review of the Drug Enforcement
Administration’s Use of the Diversion Control Fee Account, Evaluation and Inspections
Report I-2008-002 (February 2008).
      33
          U.S. Department of Justice Office of the Inspector General, The Drug Enforcement
Administration’s Mobile Enforcement Team Program, Audit Report 11-08 (December 2010).
      34
           U.S. Government Accountability Office, Drug Control, GAO-09-63 (March 2009).
      35
           The DEA finalized its Strategic Plan for FY 2009 through FY 2014 in FY 2011.


                                           –5 – 

OIG Audit Approach

       The OIG performed this audit to determine: (1) how the DEA allocates
and assesses the use of personnel resources in line with its established
priorities, (2) the number of DEA personnel allocated and utilized on various
types of narcotics-related investigations, and (3) the number and types of
cases investigated by the DEA.

       To accomplish these audit objectives, we examined DEA data for the
allocation of DEA special agent, intelligence research specialist, and diversion
investigator positions within headquarters and domestic field divisions. We
also examined DEA data related to the utilization of special agents, task
force officers, intelligence research specialists, and diversion investigators,
as well as investigative casework. All data reviewed encompassed FY 2005
through FY 2010. We interviewed DEA headquarters officials, including
senior management from the Operations, Intelligence, Inspections, and
Financial Management Divisions, to obtain information regarding the DEA’s
resource allocation and assessment processes, strategic and investigative
priorities, and changes in resource utilization and cases worked. We also
gathered and reviewed guidance and other documentation used to guide the
DEA’s resource management processes. In addition, we visited the DEA’s
Chicago Field Division to discuss the DEA’s resource management processes
and practices with field division personnel.

       Chapters 2 through 5 present our audit results, while the audit
objectives, scope, and methodology are presented in Appendix I. In
Chapter 2, we present information related to the DEA’s allocation and
oversight of domestic special agents, intelligence research specialists, and
diversion investigators. This chapter also discusses the methods and
systems used by the DEA to track work hours and casework. Chapter 3
describes the DEA’s overall casework and how it uses personnel on
non-diversion and diversion investigations. In Chapter 4, we review the
DEA’s priority target organization program and provide information on the
resources expended on investigations related to priority targets, as well as
the number of priority target organization cases worked during FY 2005
through FY 2010. This chapter includes a breakdown of the different types
of priority targets and explains the methods the DEA uses to track work
hours and casework associated with priority targets. Finally, in Chapter 5
we analyze cases worked and personnel utilized on the DEA’s principal illicit
and diverted drug threats.




                                     –6 – 

CHAPTER 2: 	 DEA PERSONNEL RESOURCE
             ALLOCATION AND OVERSIGHT

      We found that the DEA used a flexible, subjective process for
      allocating its domestic special agent, intelligence research
      specialist, and diversion-related resources. Although the DEA
      began a domestic “rightsizing” initiative in FY 2008, this initiative
      was an information-gathering effort and was not initiated with
      the intent to actually “rightsize” its domestic field divisions. In
      addition, we found that the DEA’s method for assessing its use of
      personnel resources on intelligence division activities lacked
      specificity. As a result, Intelligence Division managers have less
      information than they need to properly manage their resources
      and ensure that field divisions are using intelligence personnel as
      intended on priorities and specific initiatives.

DEA’s Allocation and Realignment Processes

       The DEA has different processes for allocating its special agent and
intelligence research specialist resources and its Diversion Control Program
personnel resources. As explained in Chapter 1, the DEA’s Diversion Control
Program resources are funded through the Diversion Control Fee Account,
while the DEA’s other personnel resources are financed through the Salaries
and Expense Account.

Special Agent and Intelligence Research Specialist Resource Allocation

        The DEA categorizes additional personnel resources it receives from
Congress as specific, general, or agency-at-large. The DEA’s allocation
process varies depending on the type of new positions it receives. Specific
positions are provided to the DEA with explicit guidance on how the DEA
must use them. For example, in FY 2009, Congress appropriated
$30.6 million to the DEA for its Mobile Enforcement Team (MET) program
and directed the DEA to bolster the MET program, both through the
establishment of additional teams and by increasing the funds available for
existing teams.36 General positions are provided by Congress for certain
initiatives and purposes but are not limited to a specific entity within the
DEA. For instance, in FY 2010 Congress provided the DEA with $33.7 million
for additional special agent positions to combat drug trafficking along the
Southwest Border; the DEA decided which field divisions would receive those

      36
          U.S. House Committee Print on Omnibus Appropriations Act 2009 (H.R. 1105;
Pub. L 111-8), Division B – Commerce, Justice, Science, and Related Agencies
Appropriations Act, 2009, page 273.


                                        –7 – 

positions.37 Finally, agency-at-large positions allow the DEA to allocate
positions as it sees fit with no restrictions.

       For general and agency-at-large special agent and intelligence
research specialist positions, the DEA utilizes an allocation process that is
not driven by an established policy. Instead, DEA officials described the
allocation process as flexible and centered on the subjective perspective of
DEA officials, particularly the Administrator. The DEA’s Financial
Management Division, as well as the Intelligence and Operations Divisions,
gather objective programmatic and statistical information, as well as
personal knowledge from experience, to formulate intelligence research
specialist and special agent allocation recommendations. The Administrator
makes the DEA’s final allocation decisions based on personal knowledge and
experience, as well as the recommendations of headquarters divisions;
quarterly statistical data reports; consultation with Special Agents in Charge;
priorities of the Department of Justice (DOJ), White House, and Congress;
and the strategic goals of the Office of National Drug Control Policy and the
DEA.

      The DEA uses its Table of Organization database to track authorized
and allocated full-time equivalent (FTE) staffing levels in its headquarters,
domestic field divisions, and foreign offices.38 The database shows the
number of special agent, intelligence research specialist, diversion
investigator, investigative technician, attorney, chemist,
professional/administrative, and technical/clerical positions allocated
throughout the DEA. Once the Administrator makes the final allocation
decisions for new positions, the DEA’s Financial Management Division
incorporates the positions into the Table of Organization.

      After the Administrator approves the allocation of positions among the
domestic field divisions, the Chief of Operations and the Chief of Intelligence
respectively determine which special agent and intelligence research
specialist positions on the Table of Organization will be filled and which will
remain vacant. The Chief of Operations bases staffing decisions on priorities
and strategic goals, congressional direction, and DEA statistical analyses


       37
          Emergency Supplemental Appropriations for Border Security, 2010 (H.R. 6080;
Pub. L 111–230) Title II, Section 201.
       38
          A full-time equivalent (FTE) is the number of total hours worked divided by the
maximum number of compensable hours in a work year. The DEA defines 1 full-time work
year as 2,080 hours for non law-enforcement personnel or 2,600 hours for special agents
and task force officers conducting criminal investigations (due to the requirement of law
enforcement officers to work, or be available to work, substantial amounts of "unscheduled
duty," which adds 10 hours to every work week).


                                          –8 – 

related to personnel vacancies and other performance measures. Similarly,
the Chief of Intelligence determines staffing assignments by reviewing
strategic priorities, staffing ratios, field division needs, and work hour data.
DEA officials stated that there are various factors that are also considered
when deciding which domestic field division positions to fill. For instance,
decisions take into account the preferred locations of special agents
returning to the United States from the DEA’s international offices or
temporary duty assignments. Moreover, DEA officials explained that new
personnel are often assigned to larger domestic field divisions, such as
Los Angeles, Miami, and New York, because these divisions have the most
significant cases and therefore are appealing locations for training new
special agents.

      The DEA’s allocation process for special agent and intelligence research
specialist positions is depicted in Exhibit 2-1.

                          EXHIBIT 2-1

               RESOURCE ALLOCATION PROCESS FOR 

     SPECIAL AGENTS AND INTELLIGENCE RESEARCH SPECIALISTS 





Source: OIG depiction based upon interviews with DEA officials and review of DEA documents




                                              –9 –
Diversion Control Program Allocation Process

        The DEA’s Diversion Control Program is responsible for enforcing the
Controlled Substances Act and implementing regulations pertaining to
pharmaceutical controlled substances such as narcotics, stimulants,
depressants, and regulated chemicals. The Diversion Control Program’s two
main functions are to: (1) monitor the 1.3 million individuals and companies
registered with the DEA to handle controlled substances or listed chemicals,
and (2) identify and investigate those persons responsible for diverting
controlled pharmaceutical products and regulated chemicals from legitimate
channels. The DEA accomplishes these functions by conducting criminal,
civil, and administrative investigations as well as on-site regulatory
inspections of certain registrant types.

       The Diversion Control Program workforce consists of diversion
investigators, special agents, and intelligence research specialists along with
the assistance of task force officers.39 Diversion personnel are responsible
for initiating and developing investigations of suspect registrants and
chemical handlers, among other diversion related activities. During the
course of these investigations, it may become necessary to use traditional
law enforcement actions. However, diversion investigators do not have law
enforcement authority to execute arrests or search warrants and conduct
surveillance. Instead, DEA special agents or state and local task force
officers will conduct the law enforcement actions in support of diversion
cases.

       Intelligence research specialists support diversion investigations by
analyzing data from wiretaps, prescription records, and interviews of
confidential informants; preparing background profiles on investigative
targets; and performing database checks. According to DEA documentation,
the DEA’s diversion personnel allocation framework is a four-step process, as
illustrated in Exhibit 2-2.




       39
           The Diversion Control Program also includes chemists, professional and
administrative staff, and technical/clerical staff. However, these personnel were not
included in the scope of this audit.


                                          – 10 – 

                           EXHIBIT 2-2

                   DIVERSION CONTROL PROGRAM 

              PERSONNEL RESOURCE ALLOCATION PROCESS 





Source: DEA’s Office of Diversion Control

      The first step in the personnel allocation framework is identifying and
defining the need for resources. For instance, the Deputy Assistant
Administrator of the Office of Diversion Control explained that the Diversion
Control Program has transitioned towards handling criminal investigations,
which requires law enforcement authority. As a result, the Office of
Diversion Control identified a need for additional special agent resources.

      The second step is conducting analysis to determine if the resource
need falls within the scope of the DEA’s and the Diversion Control Program’s
missions. Examples of the various factors, data, and information utilized in
the analytical decision-making process include:

    	 Reviews of regulatory and investigative work hours for all core 

       positions including task force officers.


    	 Trends identified by the Office of National Drug Control Policy,
       National Drug Intelligence Center, National Survey on Drug Use and
       Health, and numerous other sources.

    	 Local diversion issues reported by division managers and
       investigators, state and local law enforcement agencies, other federal
       agencies, state medical and pharmacies boards, and community
       coalition or action groups.

    	 Current Table of Organization staffing levels, type and quantity of job
       series needed, registrant population and type, internal review by the
       Office of Diversion Control and Office of Inspections, external review
       by the OIG and the Government Accountability Office, and other
       administrative sources.

     The third step is implementing personnel resource realignments and
enhancements. According to DEA documentation, the duration of the


                                            – 11 – 

implementation phase is often affected by the time needed in recruiting,
hiring, and training personnel.

       The fourth and final step in the personnel allocation framework is
performing reviews to identify future personnel resource needs. Office of
Diversion Control officials said that these reviews occur annually and consist
of verifying payroll information of personnel handling diversion-related
activities and conducting resource utilization analysis to identify investigative
gaps and future personnel resource needs.

DEA Resource Realignment – Domestic Rightsizing

       The DEA performed an overall assessment of its resources in FY 2002.
This resulted in a proposal to reallocate 143 DEA personnel from various
international and domestic posts. Moreover, since FY 2003, the DEA has
conducted annual rightsizing assessments for its foreign offices to determine
the number of personnel needed to fulfill the objectives and needs of each
office and to ensure that personnel resources were allocated in a way that
maximizes their impact on the illicit narcotics trade. These foreign
rightsizing assessments include analyses of workload, security concerns,
missions, and cost of operations. As a result of these rightsizing reviews,
the DEA proposed enhancements and reductions of staffing levels
throughout its foreign offices.

       According to the DEA’s 2003 Strategic Plan and its FY 2009 through
FY 2014 Strategic Plan, one of the DEA’s domestic enforcement objectives
was to reallocate resources among regions to address changing or emerging
drug threats. In June 2008 the DEA began what it titled a “domestic
rightsizing initiative.” The primary purpose of this initiative was to “help the
Administrator navigate the uncertain budget years facing the DEA.” The
DEA obtained subjective information from field division SACs about optimal
staffing levels and organizational structures. DEA officials stated that this
information provides the Administrator with options and scenarios to review
when making resource allocation decisions. Unlike its foreign rightsizing
assessments, this initiative was an information gathering effort and was not
initiated with the intent to actually “rightsize” its domestic field divisions.

       Aside from the DEA’s annual foreign office rightsizing efforts and its
information gathering initiative described above, the DEA has not conducted
an organization-wide human resource assessment since its 2002 initiative
and has not strategically looked at the alignment of resources throughout its
domestic field divisions. DEA officials explained that the organization
evaluates resource needs when making determinations about filling vacant
positions. Although we agree that these efforts are useful and represent an


                                     – 12 – 

assessment of resource needs, we believe that the DEA should consider
conducting an organization-wide, comprehensive, strategic look at the
universe of its resources that evaluates domestic field division resource
needs to ensure that positions are adequately aligned to address ongoing
and emerging drug threats. Such an effort similar to the initiative performed
in 2002 could be used to generate baseline information that can be updated
in subsequent periods and may be particularly useful in uncertain budget
times in the future.

      We have conducted resource management audits at other DOJ
components, including the Federal Bureau of Investigation (FBI) and the
United States Attorneys’ Offices (USAO). During our most recent review of
the FBI, we were informed that the FBI had begun a new process for
assessing and allocating resources, which was the most comprehensive and
sophisticated approach we identified among DOJ components. Specifically,
the FBI initiated a risk-based management approach in FY 2010 that allowed
the FBI to identify risk indicators associated with each of its investigative
programs to highlight the potential for an adverse outcome of threats,
vulnerabilities, and consequences associated with certain events. The FBI
used these indicators to assess which field divisions had the greatest risk in
each of their investigative program areas. The FBI reviewed this information
to assist in allocating personnel resources to those field divisions that had
the greatest risk and limited resources. We believe that the DEA should
contact the FBI to learn about the initiative and determine if such a
risk-based approach would be beneficial to the DEA.

Case Reporting and Work Hour Reporting Processes

      The DEA uses it Case Status System (CAST) to maintain information
on general files, criminal case files, and diversion case files. General files
serve two functions: (1) as a place to store fragmentary or low priority
information on an individual, a business firm, or a vessel where the
information is not significant enough to open a case file; and (2) as a means
of compiling information by topic on a general subject for subsequent
retrieval. The DEA opens criminal and diversion case files when: (1) an
arrest is made, (2) an arrest or drug acquisition is anticipated for a future
date, (3) a systemic investigation is conducted on an individual or a group,
or (4) a scheduled regulatory investigation is started.

       The DEA created its Work Hour Reporting System (WRS) to track work
hour data reported by its special agents, intelligence research specialists,
and diversion investigators, as well as task force officers and non-DEA
intelligence personnel working for the DEA. These DEA personnel record
their work hours on a bi-weekly basis using a time and attendance form that


                                    – 13 – 

separates work hours by investigative casework and administrative
activities.40

Geographic-Drug Enforcement Program (G-DEP) Code

      The DEA uses its Geographic-Drug Enforcement Program (G-DEP) code
to track information associated with its criminal cases. The DEA uses the
G-DEP code to describe the types of criminal activities it investigates.
According to the DEA’s special agent manual, the G-DEP code is primarily
intended for internal use.

       The G-DEP is a five-digit code entered into CAST and used in WRS to
classify cases according to the following areas:

   	 G-DEP Target (first character) – the principal activity of the 

      individual(s) or organization being investigated, including Priority 

      Target Organizations (PTO); 


   	 G-DEP Source (second character) – the investigative involvement of
      other agencies;

   	 G-DEP Drug (third and fourth characters) – the principal controlled
      substance involved in the investigation; and

   	 G-DEP Level (fifth character) – the geographic scope of a non-priority
      criminal activity, or the nature of a priority target.

                               EXHIBIT 2-3
                G-DEP CODE NOMENCLATURE EXAMPLE
    Case File G-DEP Code: YXC1S
     Target ‘Y’: Priority Target Organization
       Source ‘X’: Referral from the Federal Bureau of Investigation
           Drug ‘C1’: Cocaine
              Level ‘S’: Counterterrorism
    Source: The DEA

Work Hour Reporting Limitations

      According to Intelligence Division officials, the DEA’s work hour
reporting system does not allow the Intelligence Division to track the
resources it uses on detailed intelligence-related activities. These officials
       40
           Examples of administrative activities categories include information responses,
intelligence projects, monitoring drug trends, data and file maintenance, management,
liaison work, training, administration, leave, all other activities, overtime, and travel.


                                           – 14 – 

explained that the broad categories contained in the intelligence research
specialists’ bi-weekly activity report have not been modified since 1995,
even though the DEA Intelligence Division’s activities and structure have
changed since then, to include such matters as the DEA’s Office of National
Security Intelligence joining the intelligence community and the expansion of
intelligence support to include the DEA Diversion Control Program.41

       In 2002, Intelligence Division officials formed a working group that
reviewed the bi-weekly activity reports. This working group proposed new
intelligence activities that more succinctly defined how personnel spend their
time. Proposed modifications to the bi-weekly activity report included:

   	 a transition from multiple bi-weekly forms to a single, all-inclusive
      form used by all DEA core personnel;

   	 additional subcategories to allow more detailed activity tracking;

   	 required separation of hours expended on strategic and tactical 

      intelligence; 


   	 the ability to distinguish overtime activities from regular activities; and

   	 the ability to track internal and external intelligence requests.

        The Intelligence Division provided the working group’s proposed
changes to the Office of Resource Management in February 2004, but the
office took no action. Intelligence Division officials said that the continued
use of the outdated bi-weekly activity report has made it difficult to
determine work hour accountability related to intelligence program
initiatives. For example, the DEA recently assessed its Domestic Monitoring
Program, but its attempts to determine if the program was adequately
staffed were limited by the lack of a specific Domestic Monitoring Program-
related activity category in WRS.42 When we asked why no action was taken
on the Intelligence Division’s proposal, DEA officials told us it would have
been very expensive to update the work hour system, and the DEA did not
want to spend a significant amount of money on an outdated system that
may be replaced.

       41
           DEA Form 421 is the bi-weekly activity report that is completed by intelligence
research specialists and special agents (both supervisory and non-supervisory positions)
spending time on intelligence activities in direct support of an investigation or
intelligence-related administrative activities.
       42
          The Domestic Monitoring Program focuses on monitoring the price and purity of
heroin sold in the United States through the use of undercover heroin purchases.



                                           – 15 – 

      We agree with Intelligence Division officials that the enhancement of
the bi-weekly reporting system would allow more accurate tracking of work
hour statistics, support resource allocation justifications, and facilitate other
resource-related decisions. In March 2011, DEA officials informed us that
the DEA is piloting a new work hour reporting process through WebTA.43 As
of August 2011, the DEA was continuing its efforts to update its work hour
reporting system and was working with the Intelligence Division to submit
additional fields for capturing specific activities. We recommend that the
DEA’s executive management evaluate the Intelligence Division’s reporting
enhancements and determine what changes are necessary to ensure that
the Intelligence Division is getting the information it needs to effectively
manage its programs and resources.

Recommendations

   We recommend that the DEA:

      1.	    Consider conducting an organization-wide, comprehensive,
             strategic examination of its domestic field division personnel
             resources to ensure that its resources are adequately aligned to
             address ongoing and emerging drug threats.

      2.	    Contact the FBI to learn about its risk-based resource
             management methodology and determine if such an approach
             would be beneficial to the DEA.

      3.	    Evaluate the Intelligence Division’s reporting enhancements and
             determine what changes are necessary to ensure that the
             Intelligence Division is getting the information it needs to
             effectively manage its programs and resources.




      43
         WebTA is a web-based software application that supports federal time and
attendance reporting requirements.


                                        – 16 – 

CHAPTER 3: 	 DEA RESOURCE UTILIZATION AND
             CASEWORK

       The DEA’s use of special agents fluctuated between FY 2005 and
       FY 2010. At times, the DEA’s domestic field divisions and
       headquarters used more agents than were allocated, while in
       some instances, the DEA’s domestic field divisions and
       headquarters used fewer agents than were allocated. In
       contrast, the DEA allocated more intelligence research specialists
       than domestic field divisions and headquarters used throughout
       our review period. In addition, we found that the DEA increased
       its use of personnel resources on diversion cases, which
       coincided with an increase of 3,524 diversion cases worked from
       FY 2005 to FY 2010.

DEA Personnel Allocation and Utilization

       During our audit, we analyzed the differences between the number of
DEA special agent, intelligence research specialist, and diversion investigator
positions allocated, and the actual use of these resources within DEA
domestic field divisions and headquarters.44 We use the term “burn rate” to
refer to the difference between resources allocated and used. An “overburn”
occurs when more resources are used than allocated. In turn, an
“underburn” occurs when fewer resources are used than allocated. In
addition, we analyzed the DEA’s resource utilization data for special agents,
intelligence research specialists, diversion investigators, and task force
officers to identify the difference between FTEs used on diversion and non-
diversion cases.

Special Agents and Task Force Officers

      We found that the number of special agents allocated decreased by
243 positions between FY 2005 and FY 2007 and rose by 480 positions
between FY 2007 and FY 2010, as shown in Exhibit 3-1. Conversely, the
DEA increased the number of special agent FTEs utilized from FY 2005
through FY 2007 and reduced that amount by FY 2010. DEA officials stated
that the resulting overburn in FY 2006 and FY 2007 may have been the
result of congressionally required program reductions to Mobile Enforcement
       44
           Allocating positions on the Table of Organization gives DEA field divisions the
authority to add a new position, but does not necessarily allow them to actually hire an
individual to fill that position. The DEA’s Chief of Operations and Chief of Intelligence
determine which field divisions are allowed to fill allocated positions with new hires or
through realignments and which field divisions will maintain vacancies. Chapter 2 discusses
the DEA’s allocation process and provides an exhibit depicting this process.


                                          – 17 – 

Teams, Regional Enforcement Teams, and the Demand Reduction Program,
which resulted in the removal of a significant number of allocated positions
from the DEA’s Table of Organization. Although the DEA removed these
allocated positions from its Table of Organization and instituted a hiring
freeze in FY 2007, a significant number of special agents were still entering
into active duty from prior-year allocations and training. However, between
FY 2007 and FY 2010 Congress reinstated the DEA’s Mobile Enforcement
Teams and the DEA lifted its hiring freeze, which caused the DEA to restore
some of the allocated special agent FTEs on the Table of Organization. In
addition, DEA officials explained that the DEA is unable to fund all of its
special agent positions.45 Appendix III contains special agent burn rates for
each of the DEA’s 21 domestic field divisions and headquarters.

                                              EXHIBIT 3-1

                            DEA HEADQUARTERS AND DOMESTIC FIELD DIVISION 

                             SPECIAL AGENT FTE ALLOCATION AND UTILIZATION 

                                           FY 2005 – FY 2010 

  SPECIAL AGENT FTEs




          Source: OIG analysis of the DEA’s WRS and Table of Organization data




                       45
          According to its FY 2010 projected staffing plan, the DEA could afford to fill
95 percent of its special agent positions, which would cause an underburn such as what
occurred during FY 2008 through FY 2010.


                                                – 18 – 

      We determined that the DEA allocated between 18 and 179 special
agent FTEs to work on diversion-related activities and was overburning
between 47 and 158 special agent FTEs on diversion activities during
FY 2007 through FY 2010, as shown in Exhibit 3-2.46 DEA officials were
aware that they were using more special agents for diversion-related work
than had been allocated. They explained that some DEA field offices do not
have diversion resources and therefore use non-diversion resources on
diversion investigations. However, DEA officials informed us that the DEA
received 62 additional special agent positions in FY 2011, which will provide
diversion resources to all field offices and should result in the reduction of
non-diversion resources utilized on diversion investigations. DEA officials
also stated that the Diversion Control Fee Account reimburses the Salaries
and Expenses Account when assistance to the Diversion Control Program is
provided by non-diversion program resources.

                         EXHIBIT 3-2

DEA DIVERSION CONTROL PROGRAM HEADQUARTERS AND DOMESTIC 

FIELD DIVISION SPECIAL AGENT FTE ALLOCATION AND UTILIZATION 

                      FY 2007 – FY 2010 

 SPECIAL AGENT FTEs




                      Source: 	 OIG analysis of the DEA’s WRS data and DCFA Allocated Positions and On-Board
                               Staffing Reports



                        46
          The DEA began tracking Diversion Control Program allocated positions in FY 2007.
Therefore, our burn rate analysis for diversion resources does not account for our entire
review period.


                                                          – 19 – 

      Special agent FTEs utilized on non-diversion cases decreased by 197
from FY 2005 through FY 2010, as displayed in Exhibit 3-3. In turn, special
agent FTE use on diversion cases rose from 127 FTEs in FY 2005 to 315 in
FY 2010, a 148-percent increase.

                                               EXHIBIT 3-3

                                    DEA SPECIAL AGENT FTE UTILIZATION 

                                            FY 2005 – FY 2010 

 SPECIAL AGENT FTEs




                      Source: OIG analysis of the DEA’s WRS data

                       Task Force Officers

       The DEA does not allocate task force officers to field divisions because
the DEA does not receive these positions from Congress or through the
Diversion Control Fee Account (DCFA). Instead, the DEA receives these
services through agreements with state and local law enforcement entities
and deputizes these state and local task force officers to perform the same
functions as the DEA’s special agents. Therefore, we could not analyze the
difference between the allocated and utilized task force officer FTEs.
However, Exhibit 3-4 illustrates the changes in task force officer FTEs used
on diversion and non-diversion cases during our review period. We found
that the number of task force officers used on non-diversion cases increased
by 180 FTEs from FY 2005 through FY 2010, while the task force officers
utilized on diversion cases increased by 88 FTEs during that time.


                                                         – 20 – 

                                                    EXHIBIT 3-4

                                      DEA TASK FORCE OFFICER FTE UTILIZATION 

                                                 FY 2005 – FY 2010 

 TASK FORCE OFFICER FTEs




                           Source: OIG analysis of the DEA’s WRS data

Intelligence Research Specialists

       Our analysis showed that the number of intelligence research
specialists allocated and utilized from FY 2005 through FY 2010 increased by
142 and 166 FTEs, respectively, as shown in Exhibit 3-5. However, the DEA
experienced an underburn during each fiscal year of our review period that
ranged between 23 and 93 intelligence research specialist FTEs. DEA
officials stated that the DEA narrowed the gap between the number of
allocated intelligence research specialist FTEs and the number used because
it made a concerted effort to hire intelligence research specialists during this
time period. According to the DEA, this hiring effort increased the number of
on-board intelligence research specialists. However, DEA officials stated that
the DEA is unable to fund all of its intelligence research specialist positions,
which contributed to the underburn during our review period. According to
its FY 2010 projected staffing plan, the DEA could afford to fill 90 percent of
its intelligence research specialist positions. Appendix III contains
intelligence research specialist burn rates for each of the DEA’s 21 domestic
field divisions and headquarters.


                                                               – 21 – 

                                                               EXHIBIT 3-5

                                             DEA HEADQUARTERS AND DOMESTIC FIELD DIVISION 

                                                  INTELLIGENCE RESEARCH SPECIALIST FTE 

                                                      ALLOCATION AND UTILIZATION 

                                                            FY 2005 – FY 2010 

  INTELLIGENCE RESEARCH SPECIALIST FTEs




                                          Source: OIG analysis of the DEA’s WRS and Table of Organization data

       Prior to FY 2006, the DEA did not allocate intelligence research
specialist resources to the Diversion Control Program. However, between
FY 2007 and FY 2010, the DEA allocated 73 intelligence research specialist
FTEs to the Diversion Control Program. Therefore, as displayed in
Exhibit 3-6, in FY 2010 the DEA was overburning nine intelligence research
specialist FTEs on diversion-related activities. DEA officials stated that the
DEA received 14 additional intelligence research specialist positions in
FY 2011 and has requested more intelligence research specialist positions in
its FY 2012 budget submission.




                                                                            – 22 – 

                                                  EXHIBIT 3-6

                              DEA DIVERSION CONTROL PROGRAM HEADQUARTERS AND 

                               DOMESTIC FIELD DIVISION INITELLIGENCE RESEARCH 

                                  SPECIALIST FTE ALLOCATION AND UTILIZATION 

                                               FY 2007 – FY 2010 

    INTELLIGENCE RESEARCH SPECIALISTS FTEs




  Source: OIG analysis of the DEA’s WRS data and DCFA Allocated Positions and 

          On-Board Staffing Reports 


      We identified that the number of intelligence research specialist FTEs
used on diversion and non-diversion cases increased during our review
period, as displayed in Exhibit 3-7. As of FY 2010, the DEA used
651 intelligence research specialist FTEs (or 89 percent) on non-diversion
cases, while it used 82 intelligence research specialist FTEs (or 11 percent)
on diversion cases.




                                                   – 23 – 

                                                               EXHIBIT 3-7

                                          DEA INTELLIGENCE RESEARCH SPECIALIST FTE UTILIZATION 

                                                           FY 2005 – FY 201047

  INTELLIGENCE RESEARCH SPECIALIST FTEs




                                          Source: OIG analysis of the DEA’s WRS data

Diversion Investigators

       Our analysis showed that from FY 2005 to FY 2008 the DEA’s
allocation of diversion investigators remained relatively constant, ranging
from 579 to 600 positions, as shown in Exhibit 3-8. However, in FY 2009
the allocated level of diversion investigators decreased by 105 positions, or
18 percent. DEA officials attributed this decrease to the conversion of
108 vacant diversion investigator positions to special agent positions in
FY 2009.

       In addition, we noted that the DEA used fewer diversion investigators
than allocated throughout our review period. DEA officials explained that
the underburn of diversion investigator FTEs between FY 2007 and FY 2008
was caused by the DEA placing a hold on diversion investigator hiring when
it unsuccessfully attempted to create a new hybrid diversion investigator
position with law enforcement authority. When the Office of Personnel
                                           47
          The sum of the individual numbers for each FY may be greater or less than the
totals shown due to rounding.


                                                                             – 24 – 

Management denied the DEA’s request to create a hybrid position, the DEA
converted a significant number of diversion investigator positions to special
agent positions, thus narrowing the underburn during FY 2009 and FY 2010.
Appendix III contains diversion investigator burn rates for each of the DEA’s
21 domestic field divisions and headquarters.

                         EXHIBIT 3-8

       DEA HEADQUARTERS AND DOMESTIC FIELD DIVISION 

   DIVERSION INVESTIGATOR FTE ALLOCATION AND UTILIZATION 

                      FY 2005 – FY 2010 

   DIVERSION INVESTIGATOR FTEs




                                 Source: OIG analysis of the DEA’s WRS and Table of Organization data

According to DEA officials, diversion investigators occasionally assist with
overlapping non-diversion methamphetamine cases. DEA officials explained
that the work the diversion investigators perform is directly related to
diversion activities and generally involves pursuing the precursor
chemicals.48 As displayed in Exhibit 3-9, there were very few diversion
investigator FTEs used on non-diversion investigations during our review
period. Moreover, we found that the number of diversion investigators used
on diversion cases decreased by 55 FTEs, or 11 percent, from FY 2005


                                 48
          According to the DEA, methamphetamine criminal cases overlap with
diversion-related cases because diversion investigators may be investigating the diverted
precursor chemicals used to create methamphetamine.


                                                                   – 25 – 

through FY 2010, which coincides with the hold on diversion investigator
hiring that we discuss above.

                                                      EXHIBIT 3-9

                                      DEA DIVERSION INVESTIGATOR FTE UTILIZATION 

                                                  FY 2005 – FY 201049

   DIVERSION INVESTIGATOR FTEs




                                 Source: OIG analysis of the DEA’s WRS data

DEA Cases Worked

       We requested and reviewed DEA Case Status System (CAST) data to
identify the number of DEA cases worked from FY 2005 through FY 2010.
The cases worked data encompasses any case that had at least one core
personnel work hour recorded to it during the fiscal year. As shown in
Exhibit 3-10, the total number of cases DEA worked decreased by
4,293 cases (or 12 percent) between FY 2005 and FY 2009, but rose by
1,386 cases (or 4 percent) from FY 2009 to FY 2010. Moreover, from
FY 2005 through FY 2010, the number of non-diversion cases worked
decreased by 6,431 cases, or 21 percent. In turn, the total number of
diversion cases worked increased from 5,256 in FY 2005 to 8,780 in
FY 2010, equating to a 67-percent increase. As of FY 2010, non-diversion
cases comprised 73 percent of the DEA’s total cases worked, while diversion
cases accounted for the remaining 27 percent of cases worked. According to
                                 49
          The sum of the individual numbers for each FY may be greater or less than the
totals shown due to rounding.


                                                                   – 26 – 

the DEA, the establishment of the Priority Target Organization (PTO)
program in April 2001 and the development of the Attorney General’s
Consolidated Priority Organization Target list in FY 2002 caused the DEA to
focus its efforts on disrupting and dismantling the top echelons of identified
drug trafficking organizations. DEA officials told us that as a result, DEA
investigations became longer, more complex, and required the increased use
of advanced investigative techniques, such as wiretaps, to achieve a
significant impact against these organizations.

                                   EXHIBIT 3-10

                  DEA NON-DIVERSION AND DIVERSION CASES WORKED 

                                 FY 2005 – FY 2010 

CASES WORKED




               Source: OIG analysis of the DEA’s CAST and WRS data

       In summary, we analyzed the DEA’s allocation and use of personnel
resources between FY 2005 and FY 2010. During FY 2006 and FY 2007, we
determined that the DEA used more special agents than it had allocated.
However, during the other fiscal years in our review period, we found that
the DEA used fewer special agents than it had allocated. Moreover, we
found that throughout our review period, the DEA continually used fewer
intelligence research specialists than it had allocated.




                                                 – 27 – 

      In addition, we determined that from FY 2007 to FY 2010 the DEA
used more special agents and intelligence research specialists on diversion-
related activities than were allocated. However, during this same time the
DEA used fewer diversion investigators than it had allocated.

      We also examined the number and types of cases worked by the
DEA and determined that the total number of cases the DEA worked
decreased from 35,240 in FY 2005 to 32,333 in FY 2010. We also
found that the number of diversion-related cases increased from 5,256
in FY 2005 to 8,780 in FY 2010.




                                   – 28 – 

CHAPTER 4:       DEA PRIORITY TARGET ORGANIZATIONS

     During our review period, the DEA substantially increased its
     utilization of special agents, task force officers, and intelligence
     research specialists on Priority Target Organization (PTO)
     investigations. However, the DEA’s method for tracking PTO
     resource utilization through its time recordkeeping system does
     not provide details regarding the level of effort expended to
     investigate different types of PTOs. Therefore, we analyzed the
     DEA’s PTO data by regional sections to obtain a more detailed
     understanding of the PTOs being investigated. In general, from
     FY 2005 to FY 2010 the DEA increased its use of resources on
     regional and local impact PTOs, while using fewer resources to
     address PTOs associated with all other regions, including Mexico
     and Central America, which are the DEA’s top priority. The DEA
     does not regularly perform this type of analysis. We believe that
     more detailed data can provide the DEA, DOJ, Congress, and the
     general public with a more complete, strategic view of the DEA’s
     efforts to combat drug trafficking organizations.

DEA Strategy and Prioritization

       The DEA concentrates its operations in four strategic focus areas:
(1) international enforcement, (2) domestic enforcement, (3) assistance to
state and local law enforcement, and (4) diversion control. The goal of the
DEA’s domestic enforcement strategy is to disrupt and dismantle domestic
PTOs having the most significant impact on drug availability within the
United States. The DEA implemented the PTO program in 2001 and
identified three types of domestic PTOs:

     1. International Impact Targets: Major drug trafficking organizations
     and their supporting infrastructures that provide raw materials and
     chemicals, produce and transship illicit drugs, and launder money
     worldwide. International impact targets include domestic
     organizations that are directly affiliated with international cartels.

     2. National/Regional Impact Targets: High-level trafficking
     organizations that operate on a regional basis in the United States.

     3. Local Impact Targets: Trafficking organizations or groups
     operating in cities, rural areas, and small towns that endanger the
     quality of life in the community and are prone to use violence to
     maintain their control.



                                   – 29 – 

       DEA field divisions nominate PTO cases through the DEA’s Priority
Target Activity Resource and Reporting System (PTARRS). The PTO case
nomination process begins when field division special agents or group
supervisors submit, through PTARRS, a case that they believe involves an
organization that is a priority target. A field division Assistant Special Agent
in Charge (ASAC) and Special Agent in Charge (SAC) review the proposed
priority target case and approve or deny the designation. If the ASAC and
SAC approve the use of the PTO designation for that specific case, the
proposal is routed through DEA headquarters where it is reviewed by the
Office of Operations Management. If the Office of Operations Management
approves the PTO designation, the investigation becomes active in PTARRS,
and the DEA begins tracking it as a PTO investigation. Exhibit 4-1 depicts
the PTO nomination process.

                               EXHIBIT 4-1

                   PRIORITY TARGET NOMINATION PROCESS 


                                            Proposal reviewed
 Priority Target           Proposal
                                             and approved by
  proposed by           reviewed and                             DEA tracks the
                                                 Office of
Special Agent or         approved by                             PTO in PTARRS
                                                Operations
Group Supervisor        ASAC and SAC
                                               Management


Source: OIG review of the DEA’s PTARRS Users Guide

      The centerpiece of the DEA’s Strategic Plan for FY 2009 through
FY 2014 is the PTO program, in which DEA assesses targets and links the
most significant drug, money laundering, and narco-terrorism-related
organizations to disrupt and dismantle them. Classifying targets as PTOs
ensures that drug enforcement efforts are focused on the most important
parts of the drug supply chain.

PTO Resource Utilization and Casework Analysis

       DEA managers use Work Hour Reporting System (WRS) data, which is
generated from bi-weekly activity reports, to monitor trends in investigative
and administrative activities. The Administrator and headquarters and field
division management rely on work hour reports from WRS to assess the
percentage of resources expended on the most significant cases, such as
PTO and Organized Crime and Drug Enforcement Task Force (OCDETF)
cases. Specifically, for internal reporting and assessment purposes, DEA
field divisions and headquarters often cite the percentage of investigative
work hours dedicated to PTOs. The DEA’s Office of Operations Management
generates quarterly statistic reports for headquarters and field division
personnel that provide data, such as case initiations and investigative work
hours used to assess field division performance.


                                       – 30 – 

       The first character of the G-DEP code allows the DEA to track
personnel work hours expended on PTOs and PTO cases worked, while the
fifth character of the G-DEP code describes the broad nature of a PTO (such
as gang investigation, money laundering, local impact, or regional impact).
We analyzed the DEA’s WRS and CAST data to identify the number of
resources utilized on PTO and non-PTO cases and the number of PTO and
non-PTO cases worked.50

Special Agent PTO Utilization

       In analyzing the number of DEA special agent positions used on PTO
and non-PTO investigations, we found that although the total number of
special agent FTEs utilized did not change significantly from FY 2005 to
FY 2010, the percentage of those special agents used on PTO investigations
substantially increased from 2,186 FTEs (or 52 percent) in FY 2005 to
3,326 FTEs (or 79 percent) in FY 2010, as shown in Exhibit 4-2. The DEA’s
Deputy Chief of Operations said this was a result of an improvement in the
DEA’s intelligence capabilities. Specifically, this official stated that the DEA
received support from the OCDETF Fusion Center, which opened in FY 2006.
This center gathers, stores, and analyzes all-source drug and related
financial investigative information and intelligence to support coordinated,
multi-jurisdictional investigations focused on disrupting and dismantling the
most significant drug trafficking and money laundering enterprises.
According to a senior DEA official, the DEA used the increased information
and intelligence from the OCDETF Fusion Center to enhance its ability to
identify PTOs. This official also stated that the increase in the number of
special agents used to address PTO investigations may be a result of DEA
headquarters monitoring PTO work hour and casework data and using this
information to evaluate field divisions’ performance.




      50
           Appendix I contains a detailed methodology of our data analyses.


                                          – 31 – 

                             EXHIBIT 4-2

           SPECIAL AGENT PTO AND NON-PTO FTE UTILIZATION 

                         FY 2005 – FY 201051





   Source: OIG analysis of the DEA’s WRS data based on the G-DEP-Target

       The PTO data above illustrates the DEA’s increasing attention on work
that the agency has designated as high priority. However, with this data the
DEA can only conclude that in FY 2010, 79 percent of its special agent
workforce was dedicated to pursuing priority targets. The DEA cannot use
only this PTO data to determine distinguishing characteristics of PTO
investigations and work hours dedicated to those investigations. Specifically,
the G-DEP code does not identify resources dedicated to investigations of
PTOs that are related to a Consolidated Priority Organization Target (CPOT);
tied to a priority operation such as the Southwest Border Initiative; linked to
specific major drug trafficking organizations (DTO), such as Mexican DTOs,




      51
          The sum of the individual numbers for each FY may be greater or less than the
totals shown due to rounding.


                                         – 32 – 

which are the DEA’s top threat; or linked to a particular terrorist
organization.52

       There are many different categories of PTOs, such as the examples
above, and we do not believe that the priority level of all PTOs is equal. DEA
officials stated that they use PTARRS to track PTO investigations and that the
description of the PTO is contained in this system. However, the DEA does
not use this system to track personnel work hours on PTO investigations, but
instead uses WRS data, as shown in Exhibit 4-2. By using this data only to
determine the number of personnel working on PTO investigations, the DEA
is not examining the greatest level of detail available on the DEA’s efforts
against PTOs that represent the most significant threats to the United States.

       DEA officials informed us that if necessary, data from the WRS and
PTARRS can be merged to identify the number of work hours expended on
specific PTOs and initiatives. These officials stated that the DEA does not
normally use this type of specific information, but we believe that there
would be an interest and value in this type of information if it were available.
For example, we believe that it would be prudent to be able to report to
Congress how the DEA used the resources it was provided for the Southwest
Border Initiative. DEA officials informed us that it would take a significant
amount of time and effort to extract data specific to the Southwest Border
Initiative. As a result, we asked DEA officials to provide more specific data
that would not require as much time and effort, and we received data for
core personnel work hours on PTO cases sorted by the DEA’s regional
headquarters sections.53 During the close-out meeting for this audit, DEA
officials informed us that they began gathering Southwest Border statistics,
including casework and resource utilization data, in FY 2011 because DOJ
requested this information.

      Our analysis of the DEA’s work on PTOs by headquarters operational
section illustrated that the overall increase of special agents working on
PTOs was focused primarily on regional and local impact PTO work, as shown

       52
           CPOTs represent the command and control elements of major international drug
trafficking organizations or money laundering enterprises that significantly impact the
United States drug supply. The Southwest Border Initiative is a cooperative effort by
federal law enforcement agencies to combat the substantial threat posed by Mexico-based
trafficking groups operating along the Southwest Border.
       53
           The DEA’s regional headquarters operational sections include: (1) Europe, Asia,
Africa, and Canada; (2) Mexico and Central America; (3) Latin America and the Caribbean;
(4) the Regional and Local Impact; and (5) the Office of Diversion. These sections
coordinate domestic and foreign investigations initiated within their respective areas and
provide operational support to domestic field divisions’ priority target investigations that
have a nexus to their areas of responsibility.


                                           – 33 – 

in Exhibit 4-3. In fact, during our review period the DEA reduced the
number of special agent FTEs utilized on PTO cases related to all other
headquarters’ sections. A senior DEA official attributed the increase in the
use of special agents on regional and local impact section PTOs to the
prevalence of methamphetamine, gang violence, and increased domestic
trafficking in the United States. This official stated that the increase likely
caused field divisions to redirect resources from work associated with the
other sections, which resulted in the decline of special agent FTEs utilized on
other PTO cases. However, one DEA headquarters official was surprised to
see the FY 2005 to FY 2009 decline in special agent resources utilized on
PTO investigations in the Mexico and Central America Section because this
section’s PTOs are predominantly associated with the drug trafficking
problems along the Southwest Border, which is one of DEA’s priority
initiatives. Appendix V contains our field division analysis of the use of
special agents on PTO investigations sorted by regional section.

                               EXHIBIT 4-3

                 SPECIAL AGENT FTE UTILIZATION ON PTOs 

                      SORTED BY REGIONAL SECTION

                           FY 2005 – FY 201054





     Source: OIG analysis of the DEA’s PTARRS and WRS data connection



      54
           FY 2010 percentages add up to 101 percent due to rounding. 



                                          – 34 – 

       We believe that although the DEA does not regularly perform this type
of analysis, these statistics provide the DEA, DOJ, Congress, and the general
public with a more detailed view of the DEA’s efforts to investigate various
types of PTOs. This information identifies trends and changes in the number
of special agents utilized on specific types of PTOs, such as those related to
Mexico and Central America. Moreover, this analysis is more revealing than
the DEA’s method of identifying total PTO work hours without a breakdown
or differentiation of the level of effort spent on specific categories of PTOs.

       Our analyses of DEA data that we provide in this report do not present
a definitive view of the DEA’s level of effort expended to investigate PTOs,
primarily because this was the only data with a greater level of specificity
that the DEA could provide without requiring the use of extensive time and
manpower. However, we believe our analysis provides more detail and
value to evaluating the use of DEA resources than the DEA simply stating
that it used 79 percent of its special agents on PTOs in FY 2010. We believe
that there is value in knowing that the DEA focused 31 percent of those
resources on Mexican and Central American PTOs and 6 percent on PTOs
associated with Europe, Asia, Africa, and Canada. In addition, we believe
that the DOJ’s recent interest in receiving Southwest Border statistics
supports our position that the DEA should seek to analyze its workforce data
in a more in-depth and specific manner. In our judgment, DEA officials are
best positioned to establish categories for such a strategic analysis of its PTO
workforce. Therefore, we recommend that the DEA develop a more detailed
method for analyzing its PTO workforce statistics and include that data in its
quarterly reports.

Data Limitations

      After analyzing the data, we found inconsistencies when we compared
the DEA’s PTO utilization data based on the G-DEP target from the CAST and
WRS systems to the PTO data from the PTARRS system.55 For example,
according to WRS data (Exhibit 4-2), the DEA used 2,186 agent FTEs on PTO
cases in FY 2005; while according to PTARRS data (Exhibit 4-3), 2,787 agent
FTEs worked on PTO cases in FY 2005. DEA officials explained that the data
inconsistencies occur because PTO cases in CAST and WRS are tracked from
case initiation to case closure, while PTO cases in PTARRS are tracked only
from the time a case is approved as a PTO until the DEA disrupts or




       55
          The analyses presented in the remaining sections of this chapter contain similar
inconsistencies between WRS and CAST data and PTARRS data.


                                          – 35 – 

dismantles the PTO being investigated.56 However, the process of merging
the WRS and PTARRS data retroactively included work hours associated with
cases that were not initially identified as a PTO. For example, if a case
initiated in FY 2005 was later determined to be a PTO in FY 2007, the WRS
and PTARRS extraction attributes all hours spent on the investigation since
FY 2005 to a PTO, while the WRS data would only begin identifying PTO work
hours in FY 2007. DEA officials explained that the Office of Operations
Management performs a manual reconciliation of the data in WRS and
PTARRS to minimize the differences. We noted that by FY 2010 the
difference was significantly reduced to 20 special agent FTEs.

       DEA officials informed us that PTARRS is the system of record for PTO
investigations and the DEA uses this data to convey PTO case statistics in
various internal and external reports. In turn, these officials explained that
they use WRS data associated with the G-DEP investigative target code to
report how personnel resources are used on PTO cases because field
divisions want credit for working PTO cases from case initiation to when all
administrative and judicial aspects of a case have been disposed of and the
case is closed. The DEA’s PTARRS guidance, however, states that DEA
headquarters does not want field divisions to carry priority targets in
PTARRS past the dismantled or disrupted stage because such investigations
no longer require a significant commitment of resources even though they
still may be in an open status.

       As acknowledged in the DEA’s FY 2010 Performance Budget, the DEA’s
statistics are limited by a lack of a relational interface between its
information systems that maintain case and work hour data. In addition,
DEA officials stated that the DEA’s information systems were developed
independently, for distinct purposes. This makes it difficult to analyze PTO
work hour and casework data because the data are maintained in more than
one system. DEA officials explained that the DEA is establishing a new
information system that will collect and store all of this information on one
platform. DEA officials estimated that the system will be operational in
FY 2012. We believe that the DEA should continue these efforts and ensure
that it uses comprehensive and linked data to report PTO resource
utilization.



       56
           The DEA tracks work hour and case information in WRS and CAST, respectively,
as soon as an investigation is opened. However, that investigation may not become a PTO
case until much later, at which time it would be captured in PTARRS. Similarly, as soon as
the PTO has been disrupted or dismantled, the DEA closes the case in PTARRS. However,
work hour and case information on that PTO continues to be recorded in WRS and CAST
while the case moves into the litigation stages.


                                          – 36 – 

Task Force Officer PTO Utilization

       The DEA used 268 more task force officers in FY 2010 than were used
in FY 2005, as displayed in Exhibit 4-4. The DEA concentrated its use of
these task force officers on PTO cases, while reducing the use of task force
officers on non-PTO cases. Specifically, the number of task force officers
used on PTO cases significantly increased from 816 FTEs in FY 2005 to
1,498 FTEs in FY 2010, or 84 percent. In turn, the DEA gradually used
fewer task force officers on non-PTO investigations, resulting in a 412 FTE
reduction between FY 2005 and FY 2010. A senior DEA official stated that
the increase in task force officer utilization on PTO cases also may be a
result of DEA headquarters monitoring PTO work hour and casework data
and using this information to evaluate field divisions’ performance.

                          EXHIBIT 4-4

      TASK FORCE OFFICER PTO AND NON-PTO FTE UTILIZATION 

                      FY 2005 – FY 201057





     Source: OIG analysis of the DEA’s WRS data based on the G-DEP-Target

      Similar to our analysis results for special agents, we found that the
percentage of task force officers used on regional and local impact PTO cases
increased by 22 percent from FY 2005 to FY 2010, while utilization on all

      57
          The sum of the individual numbers for each FY may be greater or less than the
totals shown due to rounding.


                                         – 37 – 

other types of PTOs decreased, as shown in Exhibit 4-5. DEA officials
attributed the increase of task force officer utilization on regional and local
impact section PTOs to the prevalence of methamphetamine, gang violence,
and increased domestic trafficking. Moreover, DEA officials stated that due
to their multi-jurisdictional nature, cases are assigned to this “catch all”
section until they can be linked to a specific section, which further
contributed to the increase in regional and local impact section PTO cases
worked. Appendix V contains our field division analysis of task force officer
utilization on PTO investigations sorted by regional section.

                           EXHIBIT 4-5

           TASK FORCE OFFICER FTE UTILIZATION ON PTOs 

                  SORTED BY REGIONAL SECTION 

                        FY 2005 – FY 2010 





 Source: OIG analysis of the DEA’s WRS and PTARRS data

Intelligence Research Specialist PTO Utilization

      Throughout our review period, we determined that the DEA
consistently used more intelligence research specialist FTEs on PTO cases
than non-PTO cases, as shown in Exhibit 4-6. Specifically, the DEA


                                      – 38 – 

increased the use of intelligence research specialists on PTO investigations
by 222 FTEs between FY 2005 and FY 2010. This increase coincides with the
overall increase in the use of 166 intelligence research specialist FTEs from
FY 2005 to FY 2010, as well as the increase in the allocated levels of
intelligence research specialists during that same time.58 Intelligence
Division officials attributed this increase, in part, to the significant use of
wiretaps, which are only used in PTO investigations and facilitate the
development of such cases. These officials also credited the increase to the
DEA’s expanded focus on PTOs and the use of work hour data in evaluating
field division performance.

                                 EXHIBIT 4-6

                     INTELLIGENCE RESEARCH SPECIALIST

                      PTO AND NON-PTO FTE UTILIZATION 

                              FY 2005 – FY 2010 





  Source: OIG analysis of the DEA’s WRS data based on the G-DEP-Target

      We found that the percentage of intelligence research specialist
resources utilized on regional and local impact PTO cases increased by
19 percent from FY 2005 to FY 2010, as shown in Exhibit 4-7. In addition,

      58
           See Chapter 3, Exhibit 3-5.


                                         – 39 – 

intelligence research specialists working on PTO cases in the Diversion
Section increased from 12 percent in FY 2005 to 17 percent in FY 2009, but
declined to 13 percent in FY 2010. However, the use of intelligence research
specialists on PTO cases associated with the other sections generally
decreased during our review period. Appendix V contains our field division
analysis of intelligence research specialist FTE utilization on PTO
investigations sorted by regional section.

                       EXHIBIT 4-7

 INTELLIGENCE RESEARCH SPECIALIST FTE UTILIZATION ON PTOs 

               SORTED BY REGIONAL SECTION

                    FY 2005 – FY 2010 





    Source: OIG analysis of the DEA’s WRS and PTARRS data

PTO Cases Worked

      We analyzed the DEA’s CAST data to identify the number of domestic
PTO cases worked between FY 2005 and FY 2010. Using the G-DEP target
code, we identified the cases the DEA categorized as PTOs and then




                                     – 40 – 

combined all of the other categories into non-PTO cases.59 According to the
DEA’s CAST data, the DEA worked 3,786 more PTO cases in FY 2010 than it
did in FY 2005, a 139-percent increase, as shown in Exhibit 4-8. However,
non-PTO cases accounted for approximately 80 percent of the DEA’s cases
worked during FY 2010.

                                EXHIBIT 4-8

                      PTO AND NON-PTO CASES WORKED 

                             FY 2005 – FY 2010 





   Source: OIG analysis of the DEA’s CAST data based on cases by G-DEP Target

       We analyzed the DEA’s PTARRS data to determine the types of PTOs
investigated by the DEA during our review period because the G-DEP PTO
data does not provide this detailed information. As with our resource
utilization analyses, we identified inconsistencies between the DEA’s CAST
and PTARRS data. For example, our analysis using CAST data depicts
2,727 PTO cases worked in FY 2005, as shown in Exhibit 4-8, but PTARRS

       59
           Non-PTO cases include the following categories: division priority target/regional
or local impact/violent organization, gang investigation, registrant, clandestine
manufacturer/producer, listed chemical/equipment supplier, money laundering,
forfeiture/seizure investigation, transportation/smuggling, independent traffickers,
structured criminal organization, and general files.


                                           – 41 – 

data analysis results in 3,590 PTO cases worked in FY 2005, as shown in
Exhibit 4-9. The DEA significantly reduced these inconsistencies by FY 2010
identifying 6,513 PTO cases worked in CAST (Exhibit 4-8) and 6,487 PTO
cases worked in PTARRS (Exhibit 4-9).

      We also found that between FY 2005 and FY 2010, the percentage of
PTO cases worked that were associated with the Regional and Local Impact
Section increased by 12 percent, while the percentage of cases worked
associated with the DEA’s other sections decreased. In FY 2010, 44 percent
of the DEA’s PTO cases worked were associated with a Regional and Local
Impact Section PTO. As previously mentioned, DEA headquarters assigns
multi-jurisdictional PTO cases to the Regional and Local Impact Section until
investigations evolve and links to foreign sources of supply are developed,
and the case can be moved to a different section for oversight. Appendix V
contains our field division analyses of PTO cases worked sorted by regional
section.

                              EXHIBIT 4-9

                          PTO CASES WORKED 

                      SORTED BY REGIONAL SECTION

                           FY 2005 – FY 2010 





  Source: OIG analysis of the DEA’s WRS and PTARRS data




                                      – 42 –
      When we presented our analysis of personnel resource utilization and
casework sorted by the DEA’s regional headquarters sections to the DEA’s
Operations and Intelligence Divisions’ managers, they stated that they had
not previously seen this type of analysis. Moreover, these managers stated
that the detailed PTO data presented was very informative and could be
used to identify investigative trends and assess resource utilization.
Because the DEA does not perform this type of analysis, DEA managers may
be unaware of these trends and resources may not be utilized on priority
matters or as expected by DEA management. These points contribute to our
conclusion that the DEA should develop a more detailed method for
analyzing its PTO workforce statistics and include that data in its quarterly
reports.

Special Agent PTO and non-PTO Caseloads

      We compared the total number of PTO and non-PTO cases worked to
the total number of special agents utilized on PTO and non-PTO
investigations to determine average caseloads during FY 2005 and FY 2010.
We found that the average PTO caseload for special agents increased from
one case per special agent FTE in FY 2005 to two cases per special agent
FTE in FY 2010, as shown in Exhibit 4-10. In turn, the average non-PTO
caseload per special agent increased from 16 cases in FY 2005 to 29 cases in
FY 2010. According to DEA officials, PTO investigations are complex,
requiring a substantial amount of resources and extra attention, and often
employ time-consuming procedures, such as wiretaps, whereas non-PTO
investigations, such as airport cases that mostly involve drug possession
offenses, are less complex and special agents open and close these cases in
a very short period of time.

                       EXHIBIT 4-10

 PTO AND NON-PTO AVERAGE CASELOADS PER SPECIAL AGENT FTE

                   FY 2005 AND FY 2010
                               FY 2005                           FY 2010
                                           Cases per                       Cases per
                    Cases      Utilized                Cases    Utilized
                                            Special                         Special
                    Worked      FTEs                   Worked    FTEs
                                           Agent FTE                       Agent FTE
Average non-PTO
                     32,513    2,043           16      25,820    895          29
Caseload
Average PTO
                     2,727     2,186           1       6,513    3,326         2
Caseload

Source: OIG analysis of the DEA’s CAST and WRS data




                                          – 43 – 

Recommendations

We recommend that the DEA:

     4.	   Develop a more detailed method for analyzing its PTO workforce
           statistics and include that data in its quarterly reports.

     5.	   Ensure that it develops and implements a new information
           system that collects and stores consistent PTO information on
           one platform.




                                  – 44 – 

CHAPTER 5: 	 DEA ILLICIT AND DIVERTED DRUG THREATS
             AND ACTIVITIES

       During our review period, the DEA’s top illicit drug trafficking
       threats were cocaine, methamphetamine, marijuana, heroin, and
       hallucinogens. We found that the DEA’s utilization of its core
       personnel on these drug threats fluctuated during our review
       period. However, the number of cases worked in each of these
       illegal drug categories decreased from FY 2005 to FY 2010. The
       DEA’s diverted drug threats included, among others, oxycodone
       and hydrocodone pharmaceutical narcotics.60 The number of
       oxycodone cases worked significantly increased during our review
       period and accounted for 33 percent of all diversion cases worked
       in FY 2010. In addition, the DEA’s use of special agents on
       diverted drug cases increased from FY 2005 to FY 2010, while its
       use of diversion investigators decreased during the same time
       period. DEA officials explained that they do not routinely review
       casework and resource utilization data associated with the DEA’s
       drug threats. However, senior DEA officials stated that this type
       of information would be useful in identifying drug trends and
       assessing resources used on specific types of drug investigations.

DEA Domestic Illicit Drug Priorities

       Domestic field divisions develop Field Management Plans (FMP) to
convey jurisdictional priorities, including drug threat assessments, to DEA
headquarters. Although field divisions are required to prepare and submit
FMPs annually, DEA officials informed us that in recent years, field divisions
have submitted FMPs on a 3-year cycle. One DEA official stated that the
DEA is considering officially changing the requirement to a 3-year cycle
because the threats in domestic field division regions do not usually vary
from year to year. We analyzed the FY 2007 FMPs from the DEA’s
21 domestic field divisions and determined the DEA’s top five illicit drug
trafficking threats as identified by the DEA’s domestic field divisions, as
shown in Exhibit 5-1.61 For example, 11 field divisions listed cocaine as their


       60
          Oxycodone is used as a semi-synthetic narcotic to manage moderate to severe
pain and is abused by narcotics users for its euphoric feelings of relaxation. Hydrocodone is
the most frequently prescribed opioid in the United States and is associated with more drug
abuse and diversion than any other legal or illicit opioid.
       61
          The DEA’s FY 2007 FMP guidance instructed field divisions to describe in narrative
form and priority order the illicit drugs that have the greatest negative impact in their areas
of responsibility. We used this information to determine the DEA’s 21 field divisions’ top
5 drug trafficking threats.


                                            – 45 – 

top drug trafficking threat, while 2 other field divisions identified cocaine as
their third highest drug trafficking threat. Although these FMPs were
submitted and reviewed in FY 2007, we believe that they are representative
of field divisions’ drug trafficking threats for the 3-year FMP cycle of FY 2007
through FY 2009.

                        EXHIBIT 5-1

 DEA FIELD DIVISIONS’ DRUG TRAFFICKING THREAT RANKINGS62

                     No. 1   No. 2   No. 3  No. 4  No. 5
    DRUG TYPE
                    Threat Threat Threat Threat Threat
       Cocaine         11      7      2       0      1
  Methamphetamine      5       5      5       4      0
        Heroin         3       5      5       7      1
      Marijuana        2       4      5       8      2
    Hallucinogens      0       0      1       2      9
Source: OIG analysis of the DEA’s FY 2007 Domestic Field Division FMPs

       We determined that the majority of the DEA’s domestic field divisions
identified cocaine and methamphetamine as the most significant illicit drug
trafficking threats in their jurisdictions, followed by heroin, marijuana, and
hallucinogens. However, DEA officials informed us that many cases involve
multiple drugs because of the presence of poly-drug organizations.
Nevertheless, the DEA does not have a mechanism to identify more than one
drug per investigation because it uses G-DEP data contained in CAST, the
DEA’s Case Status System, to categorize cases by individual drug types.
Therefore, the DEA’s data only provides the principal drug of each
investigation as identified by the DEA’s special agents. Appendix IV provides
a listing of the DEA’s G-DEP drug codes and all corresponding principal drug
types.

      We also identified the percentage of cases worked and resources used
during FY 2010 on drug trafficking threats, as illustrated in Exhibit 5-2. In
FY 2010, 93 percent of all DEA non-diversion cases worked involved a
principal drug that was identified as a priority drug trafficking threat.
Moreover, 91 percent of DEA resources were utilized on cases focused on
those drug threats. In general, the percentage of cases worked in FY 2010
matches the percentage of resources utilized on those investigations. The


       62
           Three of the DEA’s 21 field divisions identified pharmaceuticals as the third illicit
drug threat and two field divisions identified pharmaceuticals as the fifth threat. However,
we did not include pharmaceuticals in our illicit drug analysis because we incorporated all
pharmaceuticals in our Diversion Control Program analysis. In addition, six field divisions
did not identify a fifth illicit drug threat. Therefore, not all columns in the table represent all
of the DEA’s 21 field divisions.


                                             – 46 – 

DEA used 50 percent of its core personnel on cocaine cases, which DEA
officials explained depicts the DEA’s significant level of effort to combat the
cocaine threat.

       DEA senior officials explained that they do not routinely review
casework and resource utilization data associated with the DEA’s drug
threats because the agency transitioned from evaluating its investigative
efforts on combating types of drugs to focusing efforts on drug
organizations. This view was reiterated during our audit close-out meeting
when officials stated that the DEA’s operations are focused on drug
trafficking organizations, not drug threats. Therefore, these officials did not
believe that the drug analysis presented in this report would be of value in
the DEA’s management of personnel resources. However, senior officials
from the DEA’s Operations and Intelligence Divisions stated that this type of
information would be useful in identifying investigative trends and assessing
resources used on specific types of drug investigations.

       As mentioned, the DEA requires field divisions to submit FMPs that
identify illicit and pharmaceutical drug threats within their jurisdictions. The
DEA uses the FMPs as a mechanism to evaluate field division performance
and hold managers accountable. Given the emphasis placed on the
identification of drug threats in the FMPs and the use of the FMPs to evaluate
performance, we believe that there is corresponding value in and need for
the DEA to monitor its field divisions’ performance in combating the drug
threats that were articulated in the FMPs. Therefore, we believe that the
DEA should establish a mechanism to routinely look at the level of effort
expended on specific drug types.




                                     – 47 – 

                            EXHIBIT 5-2

             FY 2010 DEA ILLEGAL DRUG CASES WORKED 

              AND PERSONNEL RESOURCES UTILIZED63

   Total Cases Worked: 23,553       Personnel Utilized: 6,436 FTEs64




 Source: OIG analysis of the DEA’s non-diversion CAST and WRS data

Illicit Drug Trafficking Threat Analyses

       We analyzed the DEA’s CAST and WRS data based on the drug type
identified in the G-DEP code to examine trends in the DEA’s non-diversion
illegal drug cases and its personnel resources utilized on those cases. As
mentioned previously, the G-DEP allows special agents to identify only the
principal drug involved in an investigation. Therefore, our analysis below
depicts the principal drug type of the investigation as identified by DEA
special agents. Appendix VI contains our analysis of illicit drug cases worked
and personnel utilization on those cases within DEA field divisions.

       Cocaine

       Cocaine is a powerfully addictive stimulant drug. According to the
DEA’s Strategic Plan for FY 2009 through FY 2014, after marijuana, cocaine
is the most widely used illicit drug among users of all ages. In addition,
according to the DEA, although Colombia has been the principal source of
cocaine distributed in the United States, most of the wholesale cocaine
distribution in the United States is controlled by Mexican drug trafficking

       63
          The following areas are contained within the All Other category: (1) unidentified
drug areas, (2) general files, (3) methcathinone, (4) other stimulant (clandestine),
(5) depressant (clandestine), (6) unspecified analogues, (7) steroid (clandestine), and
(8) no specific drug.
       64
           This pie chart represents utilization figures for DEA special agents, task force
officers, and intelligence research specialists.


                                            – 48 – 

organizations and criminal enterprises. As previously shown, 11 of the 21
DEA domestic field divisions identified cocaine as the number one drug
priority in their jurisdiction.

       We found that cocaine cases accounted for the largest percentage of
DEA cases worked during our review period. DEA officials explained that
cocaine is the drug of choice by traffickers because it generates a high profit
margin due to high demand. Moreover, when DEA special agents open poly-
drug cases, they often identify cocaine as the predominant drug involved in
the investigation. Despite these explanations, we found that the number of
cocaine cases the DEA worked decreased between FY 2005 and FY 2010, as
shown in Exhibit 5-3. One possible explanation provided by a senior DEA
official was that around FY 2007, the Mexican government heightened its
enforcement against drug traffickers, which reduced the supply of cocaine to
the United States. In addition, DEA officials stated that the decrease in the
number of cases worked is the result of the DEA focusing on disrupting and
dismantling entire drug trafficking organizations and the associated increase
in case complexity.

                           EXHIBIT 5-3

              COCAINE CASES WORKED FY 2005 – FY 2010





Source: OIG analysis of the DEA’s CAST and WRS data




                                      – 49 – 

      We analyzed the number of DEA special agents utilized on cocaine
cases and found that the number of special agents investigating these types
of cases slightly decreased between FY 2005 and FY 2010. In contrast, the
number of task force officers and intelligence research specialists utilized on
cocaine cases increased during this same period of time, as shown in
Exhibit 5-4. DEA officials stated that these variations are minor and the
overall information depicts the DEA’s significant level of effort against
cocaine trafficking.

                          EXHIBIT 5-4

          PERSONNEL FTE UTILIZATION ON COCAINE CASES 

                       FY 2005 – FY 2010





  Source: OIG analysis of the DEA’s WRS data

      Methamphetamine

       Methamphetamine is a highly addictive stimulant that affects the
central nervous system. Methamphetamine remains the most frequently and
clandestinely produced synthetic drug in the United States. We determined
that 10 of the DEA’s 21 field divisions identified methamphetamine as their
first or second highest priority drug trafficking threat.

     According to the DEA’s Strategic Plan for FY 2009 through FY 2014,
the DEA began to increase its investigations and operations targeting
methamphetamine producers and organizations, and planned to partner with


                                      – 50 – 

Mexico to combat the growing production of methamphetamine in Mexico.
However, we found that the number of methamphetamine cases the DEA
worked between FY 2005 and FY 2010 decreased, as displayed in
Exhibit 5-5. According to DEA officials the passage of the Combat
Methamphetamine Epidemic Act of 2005 enhanced law enforcement efforts
against the production and distribution of methamphetamine domestically.65
DEA reported to the OIG that this law, combined with previous legislation
passed at the state level, caused a decrease in reported small generator
methamphetamine lab incidents in the United States from 12,976 incidents
in 2005 to 6,097 in 2007. The Act contains provisions regulating retail
sellers of over-the-counter medications containing pseudoephedrine,
ephedrine, and phenylpropanolamine, requiring them to complete a training
process. DEA officials also explained that this requirement significantly
impacted the availability of these drugs in the United States for use in the
production of methamphetamine, and in turn, suppressed domestic
methamphetamine lab activity from FY 2005 through FY 2008. However,
according to the DEA, methamphetamine lab incidents began to increase
again by 2008.

                             EXHIBIT 5-5

                    METHAMPHETAMINE CASES WORKED 

                          FY 2005 – FY 2010





   Source: OIG analysis of the DEA’s CAST and WRS data


     65
          Pub. L. No. 109-177 (2005).


                                        – 51 –
      We found that the number of special agents investigating
methamphetamine cases increased between FY 2005 and FY 2006 but then
declined from FY 2006 to FY 2010, as shown in Exhibit 5-6. In total, the
number of special agents utilized on methamphetamine cases during our
review period declined by nearly 100 FTEs (or 14 percent). Conversely, the
number of DEA intelligence research specialists and task force officers
working on methamphetamine cases increased slightly during our review
period. DEA officials stated that the changes in methamphetamine work
were not of concern to leadership. DEA officials explained that the many
organizations have become poly-drug manufacturers and distributors and
that this may potentially play a role in the decrease in work associated with
methamphetamine. Special agents may be investigating an organization
where its primary business activity is cocaine and secondary activity is
methamphetamine. When the primary drug is cocaine, the G-DEP code
would reflect a cocaine investigation rather than methamphetamine.
Therefore, the FTEs would be captured as expended on cocaine rather than
methamphetamine, potentially causing a drop in FTEs attached to
methamphetamine. Moreover, according to DEA officials, the DEA’s
international obligations reduced the number of special agents available to
investigate methamphetamine cases. However, the DEA informed us that
the use of special agents on regional and local PTO investigations increased
during this time because of the prevalence of methamphetamine in the
United States.

                        EXHIBIT 5-6

   PERSONNEL FTE UTILIZATION ON METHAMPHETAMINE CASES 

                     FY 2005 – FY 2010





   Source: OIG analysis of the DEA’s WRS data


                                       – 52 –
      Heroin

       Heroin is a highly addictive opiate drug. The DEA’s Strategic Plan for
FY 2009 through FY 2014 stated that the overall demand for heroin in the
United States is lower than that for other major drugs of abuse, such as
cocaine, marijuana, and methamphetamine. According to a senior DEA
official, Mexico is the main supplier of heroin in the western part of the
United States, while Colombia is the predominant supplier of heroin found in
the northeast. We determined that all of the DEA’s domestic field divisions
identified heroin as a priority drug trafficking threat in their FY 2007 field
management plans.

       We found that the number of heroin cases worked did not change
significantly during our review period, as shown in Exhibit 5-7. DEA officials
stated that heroin is now in urban areas as well as suburban and rural
communities, and prescription drug abusers that cannot afford oxycodone
are moving to heroin because it is a cheaper drug.

                               EXHIBIT 5-7

                          HEROIN CASES WORKED 

                            FY 2005 – FY 2010





      Source: OIG analysis of the DEA’s CAST and WRS data

      We found that from FY 2005 to FY 2010, the number of all personnel
resources working on heroin investigations increased slightly, as shown in


                                     – 53 –
Exhibit 5-8. DEA officials stated that the resources DEA uses to investigate
heroin cases meet public safety concerns and are contingent on changes in
the supply and demand of heroin. In addition, the DEA’s reduction in Mobile
Enforcement Team resources could have caused the decrease in special
agent utilization on heroin cases between FY 2006 and FY 2007 because the
DEA could not provide as many resources to investigate heroin cases in
urban areas.

                          EXHIBIT 5-8

           PERSONNEL FTE UTILIZATION ON HEROIN CASES 

                       FY 2005 – FY 2010





     Source: OIG analysis of the DEA’s WRS data

     Marijuana

       Marijuana is a mind-altering (psychoactive) drug produced by the
cannabis sativa plant. The increasing demand for marijuana far exceeds any
other illegal drug and continues to be a significant threat in the United
States. The DEA identified marijuana as a high profit-potential drug that has
long been the mainstay of drug trafficking organizations, accounting for
much of their illicit revenue. All of the DEA’s domestic field divisions
identified marijuana as a priority drug threat in their FY 2007 field
management plans.

      Our analysis of the DEA’s data showed that the number of marijuana
cases the DEA worked decreased by 876 cases from FY 2005 to FY 2010.


                                      – 54 – 

According to DEA officials, marijuana is often one of the drugs in poly-drug
cases. However, special agents do not identify marijuana as the primary
drug in poly-drug cases because other illicit drug offenses, such as cocaine
and heroin offenses, carry stronger sentencing guidelines. Therefore, when
special agents use a G-DEP code identifying marijuana as the drug in a case,
the case strictly involves marijuana. DEA officials explained that although
the quantity of marijuana cases worked has decreased, the quality of
marijuana cases worked has improved and marijuana eradication has grown
in recent years.

                              EXHIBIT 5-9

                       MARIJUANA CASES WORKED 

                           FY 2005 – FY 2010





   Source: OIG analysis of the DEA’s WRS and CAST data

       We found that the number of special agents, task force officers, and
intelligence research specialists utilized on marijuana cases increased
between FY 2005 and FY 2009. DEA officials stated that improvements in
eradication efforts would cause an increase in the number of resources
utilized on marijuana cases. However, while the number of task force
officers working on marijuana cases continued to increase from FY 2009 to
FY 2010, the number of special agents and intelligence research specialists
used on marijuana cases declined during that time period. A top DEA official



                                      – 55 – 

stated that the decrease was minor and attributed it to personnel working on
higher priority drug cases. Other DEA officials said the types of marijuana
cases the DEA investigates are more complex, and special agents may spend
more time on individual marijuana cases.

                         EXHIBIT 5-10

         PERSONNEL FTE UTILIZATION ON MARIJUANA CASES 

                       FY 2005 – FY 2010





   Source: OIG analysis of the DEA’s WRS data

      Hallucinogens

       Hallucinogens, including LSD and ecstasy, are used for their ability to
alter human perception and mood. Although no DEA field division ranked
hallucinogens among its top two priority drug threats, these drug types were
ranked in the top five priorities for the majority of the DEA’s domestic field
divisions.

       Hallucinogen cases accounted for the smallest percentage of total DEA
cases worked in FY 2010. We found that the number of DEA hallucinogen
cases worked decreased by 37 percent during our review period, as
displayed in Exhibit 5-11. According to DEA officials, they have no
identifiable reason why the case numbers have decreased concerning
hallucinogens.



                                       – 56 – 

                            EXHIBIT 5-11

                     HALLUCINOGEN CASES WORKED 

                          FY 2005 – FY 2010





  Source: OIG analysis of the DEA’s CAST and WRS data

      We determined that the number of special agents, task force officers,
and intelligence research specialists used on hallucinogen cases decreased
during our review period, as displayed in Exhibit 5-12. In fact, the number
of DEA special agent FTEs investigating hallucinogen cases decreased by
almost 50 percent from FY 2005 to FY 2010. When asked for an explanation
for these changes in resources devoted to hallucinogen cases, DEA officials
responded that DEA’s investigators identify target organizations and
investigate their command and control.




                                      – 57 – 

                         EXHIBIT 5-12

       PERSONNEL FTE UTILIZATION ON HALLUCINOGEN CASES

                       FY 2005 – FY 2010





     Source: OIG analysis of DEA WRS data

Diversion Control Program Drug Threats

      During our analysis of diversion data, we found that the DEA’s
diversion cases worked and personnel utilized focused on the following
drugs: (1) oxycodone, (2) hydrocodone, (3) Schedule II pharmaceutical
narcotics, (4) all other pharmaceutical controlled substances, and
(5) steroids.66 DEA officials from the Office of Diversion Control confirmed
that these drugs were the top threats and stated that the National Survey on
Drug Use and Health identified that these drugs were the most abused in the




       66
           DEA officials stated that the Schedule II Pharmaceutical Narcotics category
includes, but is not limited to, drugs such as methadone and morphine, while the All Other
Pharmaceutical Controlled Substances category includes, but is not limited to, drugs such as
phentermine, cough syrup with codeine, propoxyphene, and pregabalin.


                                          – 58 – 

 United States.67 Appendix VII contains our field division analyses of diverted
 drug cases worked and personnel used on those cases.

 Diverted Drug Trafficking Threat Analyses

        Similar to our analyses of the DEA’s illicit drug trafficking threats, we 

 analyzed the DEA’s CAST and WRS data based on the drug type entered in 

 the G-DEP code to identify trends in the DEA’s diverted drug cases and the 

 personnel resources utilized on those cases. We found that 78 percent of 

 the DEA’s diversion cases worked and resources used were focused on the 

 top five diverted drug threats, as shown in Exhibit 5-13. 


                         EXHIBIT 5-13
FY 2010 DIVERSION DRUG CASES WORKED AND RESOURCES UTILIZED68
Total Diversion Cases Worked: 3,590                   Total Personnel Utilized: 737




Source: OIG analysis of the DEA’s CAST and WRS data




        67
            The National Survey on Drug Use and Health is an annual survey sponsored by
 the Substance Abuse and Mental Health Services Administration that contains the primary
 source of information on the use of illicit drugs, alcohol, and tobacco in the civilian,
 noninstitutionalized population of the United States aged 12 years old or older.
        68
           This graph excludes any case and work hours associated with a case that did not
 contain a G-DEP, which accounted for 5,190 cases worked in FY 2010. The DEA does not
 require a G-DEP for regulatory cases. In addition, the “All Other” category includes drugs
 such as ketamine, benzodiazepine, amphetamines, opioid treatment pharmaceuticals, and
 fentanyl.


                                           – 59 – 

      Oxycodone

       Oxycodone is a narcotic that is widely used in clinical medicine for the
relief of moderate to severe pain. Common brand names are OxyContin®
and Percocet®, as well as other generic combinations and single utility
combinations. Oxycodone is abused for its euphoric effects and is commonly
obtained illegally through “doctor shopping” or other more traditional
methods such as prescription forgeries and pharmacy burglaries. The
diversion and abuse of oxycodone has become a major public health
problem in recent years. In 2009, an estimated 7 million Americans, aged
12 years and older, reported using prescription drugs for recreational
purposes. Oxycodone cases accounted for the largest percentage of the
DEA’s diversion cases worked during FY 2010, and Exhibit 5-14 depicts the
increase in oxycodone cases worked from FY 2005 through FY 2010.
Officials from the Office of Diversion Control said that the increase in cases
worked was largely due to an increase in the availability of the drugs from
hundreds of pain clinics in South Florida, as well as other generic
combination and single entity products.

                              EXHIBIT 5-14

                        OXYCODONE CASES WORKED 

                            FY 2005 – FY 2010





    Source: OIG analysis of the DEA’s CAST and WRS data




                                      – 60 –
       We analyzed DEA personnel FTE utilization on oxycodone cases and
found that the number of special agents and task force officers investigating
these cases increased significantly between FY 2005 and FY 2010. The
number of diversion investigators used on these cases generally remained
constant, while intelligence research specialist support increased. Officials
from the Office of Diversion Control said that special agent and task force
officer FTE utilization increased as a result of detailing agents assigned to
10 to 12 Tactical Diversion Squads from field divisions across the country to
specifically address the pain clinic problem in South Florida. One top official
said this infusion of resources was not something that the DEA could have
done in the past because they did not have the available resources, and the
DEA historically did not focus special agents on cases involving the abuse of
pharmaceutical drugs. DEA officials attributed the recent increased FTE use
of intelligence research specialists to the increased allocation of intelligence
research specialists into the program to support the investigations of special
agents.

                          EXHIBIT 5-15

         PERSONNEL FTE UTILIZATION ON OXYCODONE CASES 

                        FY 2005 – FY 2010





   Source: OIG analysis of the DEA’s WRS data




                                       – 61 –
     Hydrocodone

      According to the DEA’s website, hydrocodone is a cough suppressant
and analgesic agent used to treat moderate to moderately severe pain. In
2008, hydrocodone was the most frequently prescribed opiate in the
United States, with medical professionals dispensing more than 136 million
prescriptions for hydrocodone-containing products. According to the DEA,
hydrocodone diversion and abuse has escalated in recent years and the total
number of hydrocodone drug items seized increased by 109 percent since
2004.

      We found that hydrocodone cases accounted for the second largest
percentage of the DEA’s diversion cases worked during FY 2010, and
Exhibit 5-16 depicts the increase in hydrocodone cases worked from FY 2005
through FY 2010. Office of Diversion Control officials said that the number
of hydrocodone cases worked increased significantly from FY 2005 to
FY 2006 because of domestic-based rogue Internet pharmacies selling
controlled substances such as hydrocodone. These Internet-based
pharmacies accounted for a significant amount of the hydrocodone that was
diverted for non-medical use in the United States.

                                EXHIBIT 5-16
                      HYDROCODONE CASES WORKED
                           FY 2005 – FY 2010




   Source: OIG analysis of the DEA’s CAST and WRS data




                                      – 62 –
      Our analysis showed that the DEA generally increased its use of special
agents, task force officers, and intelligence research specialists on
hydrocodone cases during our review period, as represented in Exhibit 5-17.
The use of diversion investigators on hydrocodone cases rose significantly
between FY 2005 and FY 2007, but then dramatically fell between FY 2007
and FY 2010. DEA officials attributed this increase followed by the sharp
decrease in the use of diversion investigators to the decrease in Internet
pharmacies, as well as the reassignment of diversion investigators to
regulatory cases and the influx of special agents and task force officers into
the Diversion Control Program.

                        EXHIBIT 5-17

      PERSONNEL FTE UTILIZATION ON HYDROCODONE CASES 

                      FY 2005 – FY 2010





   Source: OIG Analysis of the DEA’s WRS data

      Schedule II Pharmaceutical Narcotics

      The Controlled Substances Act of 1970 established five schedules
depending on a substance’s potential for abuse, accepted medical use in
treatment in the United States, and level of physical and psychological
dependence. Schedule II controlled substances, or pharmaceutical
narcotics, are characterized as having: (1) a high potential for abuse, (2) a



                                      – 63 – 

currently accepted medical use with severe restrictions, and (3) the potential
for severe psychological or physical dependence stemming from abuse of the
drug. DEA officials stated that because there are G-DEP categories for
specific Schedule II controlled substances, including oxycodone,
methylphenidate, fentanyl, opium, hydromorphone, and other commonly
abused Schedule II narcotics, the “Schedule II Pharmaceutical Narcotics”
G-DEP is a catch-all for everything else. According to these officials,
Schedule II pharmaceutical narcotics refer mainly to methadone, morphine,
and generic versions of other narcotics, with methadone and morphine being
the most commonly encountered.

      Schedule II pharmaceutical narcotic cases accounted for 16 percent of
the DEA’s diversion cases worked during FY 2010. Schedule II
pharmaceutical narcotics cases worked remained relatively constant during
our review period with the largest increase occurring from FY 2007 to
FY 2008, as displayed in Exhibit 5-18. Office of Diversion Control officials
stated that the moderate increase in Schedule II pharmaceutical narcotics
cases worked could be attributed to a concurrent rise in the use of
methadone for pain control, which DEA attributes to insurance companies
substituting methadone for other opioids, because it is a less expensive pain
medication.

                        EXHIBIT 5-18

     SCHEDULE II PHARMACEUTICAL NARCOTIC CASES WORKED 

                      FY 2005 – FY 2010





    Source: OIG analysis of the DEA’s WRS and CAST data




                                      – 64 –
       Exhibit 5-19 illustrates the personnel resources used by the DEA on
Schedule II pharmaceutical narcotics. Office of Diversion Control officials
said special agent and task force officer utilization increased because of the
influx of additional special agents and task force officers into the diversion
control program. In addition, similar to the explanation for increased
Schedule II pharmaceutical narcotic cases worked, DEA officials attributed
the increase in personnel utilization to the rise in the diversion of other
opioid medications as a result of an increase in opioid abuse.

                         EXHIBIT 5-19

                 PERSONNEL FTE UTILIZATION 

        ON SCHEDULE II PHARMACEUTICAL NARCOTIC CASES 

                       FY 2005 – FY 2010





   Source: OIG analysis of the DEA’s WRS data

      All Other Pharmaceutical Controlled Substances

      Diversion Control Program officials initially told us that the “all other
pharmaceutical controlled substances” is a multi-drug category that is
dominated by Schedule IV benzodiazepines used to treat anxiety, such as
alprazolam and diazepam, commonly branded Xanax® and Valium®,
respectively. However, when we asked these officials why benzodiazepines
would be entered in a catch-all category when the DEA has a G-DEP code
specifically for them, they informed us that the “all other pharmaceutical


                                      – 65 – 

controlled substances” category encompassed stimulants, as well as
ketamine, phentermine, cough syrup with codeine, Ambien®, propoxyphene,
and pregabalin. We also determined that ketamine has its own G-DEP
category. DEA officials informed us that special agents are provided training
on the G-DEP classifications during basic academy training. We believe that
the explanations that we received for these categories overlap, which may
cause confusion among DEA personnel when classifying cases.

      Exhibit 5-20 depicts all other pharmaceutical controlled substances
cases worked from FY 2005 through FY 2010. The “all other pharmaceutical
controlled substances” category accounted for the fifth largest percentage of
the DEA’s diversion cases worked during FY 2010.

                        EXHIBIT 5-20

      ALL OTHER PHARMACEUTICAL CONTROLLED SUBSTANCES 

                       CASES WORKED 

                      FY 2005 – FY 2010





 Source: OIG analysis of the DEA’s CAST and WRS data

      Diversion Control Program officials said that the decrease in diversion
investigator FTEs utilized on all other pharmaceutical controlled substances
investigations was attributable to the reduction in on-board diversion
investigators. Specifically, as previously mentioned in Chapter 3, the DEA


                                      – 66 – 

did not hire diversion investigators from FY 2007 to FY 2008 while it waited
for the Office of Personnel Management to make a decision on the DEA’s
request to create a new hybrid position that gave diversion investigators law
enforcement authority. When the Office of Personnel Management denied
the request, the DEA took steps to reorganize its Diversion Control Program.

                       EXHIBIT 5-21

               PERSONNEL FTE UTILIZATION ON

   ALL OTHER PHARMACEUTICAL CONTROLLED SUBSTANCE CASES 

                     FY 2005 – FY 2010





    Source: OIG analysis of the DEA’s WRS data

      Steroids

      According to the DEA, anabolic steroids, which are synthetically
produced variants of the naturally occurring male hormone testosterone, are
abused in an attempt to promote muscle growth, enhance athletic or other
physical performance, and improve physical appearance. Most illicit steroids
are smuggled into the United States from abroad, but the Internet is the
most widely used means of buying and selling anabolic steroids.

       DEA Office of Diversion Control officials explained that steroid
pharmaceuticals come from many different sources. These officials stated
that in general, legally manufactured steroids are not part of the abuse.


                                      – 67 – 

However, the steroid cases the DEA worked increased between FY 2005 and
FY 2007 because the DEA implemented a specialized operation titled
“Operation Raw Deal” that targeted people buying bulk quantities of steroid
powder, reconstituting it into an injectable solution, and selling it at health
clubs. DEA officials told us that the DEA disrupted that steroid market
between FY 2005 and FY 2007, which accounted for the decrease in cases
worked from FY 2007 through FY 2010.

                               EXHIBIT 5-22

                          STEROID CASES WORKED 

                             FY 2005 – FY 2010





    Source: OIG analysis of the DEA’s CAST and WRS data

       We found that similar to the trends in steroid cases worked, the DEA’s
use of personnel resources on steroid cases increased from FY 2005 to
FY 2007 and decreased from FY 2007 to FY 2010. DEA officials attributed
this trend to the same reason presented above, which involved an illegal
steroid market. DEA officials emphasized that the DEA is committed to
investigating steroid cases because many of these cases involve high school
and college-aged students.




                                       – 68 – 

                          EXHIBIT 5-23

           PERSONNEL FTE UTILIZATION ON STEROID CASES 

                        FY 2005 – FY 2010





  Source: OIG analysis of the DEA’s WRS data

Recommendations

  We recommend that the DEA:

     6.	    Establish a mechanism to routinely look at the level of effort
            expended on specific illicit and diverted pharmaceutical drug
            threats.




                                      – 69 – 

CHAPTER 6:                      OVERALL OIG CONCLUSIONS

        We examined the DEA’s efforts to manage its allocation and utilization
of personnel resources and its investigative caseload. In general, we found
that the DEA used a flexible and subjective process to allocate its resources.
Although the DEA began a “rightsizing” initiative in FY 2008, the information
gathered through this initiative does not provide the DEA with comprehensive
information to examine whether resources are allocated appropriately among
its field divisions. We believe that the DEA should consider conducting an
organization-wide strategic look at the universe of its resources that
evaluates domestic field division resource needs to ensure that positions are
adequately aligned to address ongoing and emerging drug threats.

       In addition, we conducted several analyses of the DEA’s allocation,
utilization, and casework data. For example, we found that the DEA’s use of
special agents fluctuated between FY 2005 and FY 2010. At times, the
DEA’s domestic field divisions and headquarters used more agents than were
allocated, while in some instances, the DEA’s domestic field divisions and
headquarters used fewer agents than were allocated, as depicted in
Exhibit 6-1.

                                           EXHIBIT 6-1

                         DEA HEADQUARTERS AND DOMESTIC FIELD DIVISION 

                          SPECIAL AGENT FTE ALLOCATION AND UTILIZATION 

                                        FY 2005 – FY 2010 

    SPECIAL AGENT FTEs




           Source: OIG analysis of the DEA’s WRS and Table of Organization data




                                             – 70 –
      Based upon our analysis of DEA casework data, we found that the DEA
worked 35,240 cases in FY 2005, while working 32,333 cases in FY 2010 – a
decline of 2,907 cases worked, or 8 percent. Specifically, the DEA worked
6,431 fewer non-diversion cases in FY 2010 than it worked in FY 2005. In
contrast, the DEA worked 3,524 more diversion-related cases in FY 2010
than it worked in FY 2005. Exhibit 6-2 illustrates the total cases worked by
the DEA from FY 2005 to FY 2010.

                                   EXHIBIT 6-2

                 DEA NON-DIVERSION AND DIVERSION CASES WORKED 

                                FY 2005 – FY 2010 

  CASES WORKED




             Source: OIG analysis of the DEA’s CAST and WRS data

      The DEA uses some of this information to evaluate its performance,
including its efforts to dismantle and disrupt PTOs. For example, the DEA
reports the total number of personnel resources used on PTO cases and,
according to the DEA’s data, the agency used 79 percent of its special agent
resources on PTOs in FY 2010. However, we believe the DEA is not fully
benefiting from the wealth of information contained in its data. Our analyses
of DEA data that we provide in this report do not present a definitive view of
the DEA’s level of effort expended to investigate PTOs, primarily because
this was the only data with a greater level of specificity that the DEA could
provide without requiring the use of extensive time and manpower.
However, we believe our analysis provides more detail and value to


                                               – 71 – 

evaluating the use of DEA resources than the DEA simply stating that it used
79 percent of its special agents on PTOs in FY 2010. In addition, we believe
that the DOJ’s recent interest in receiving Southwest Border statistics
supports our position that the DEA should seek to analyze its workforce data
in a more in-depth and specific manner. In our judgment, DEA officials are
best positioned to establish categories for such a strategic analysis of its PTO
workforce. Therefore, we recommend that the DEA develop a more detailed
method for analyzing its PTO workforce statistics and include that data in its
quarterly reports.

       Exhibit 6-3 displays our analysis of the DEA’s data that identified the
number of personnel resources used on PTO cases associated with DEA’s
various Operations Division sections. We provide this as an example of how
the DEA can drill down into its PTO workforce data and identify the level of
effort expended on PTOs associated with Mexico and Central America or
other regions.

                               EXHIBIT 6-3

                 SPECIAL AGENT FTE UTILIZATION ON PTOs 

                      SORTED BY REGIONAL SECTION

                           FY 2005 – FY 201069





     Source: OIG analysis of the DEA’s PTARRS and WRS data connection




      69
           FY 2010 percentages add up to 101 percent due to rounding. 



                                          – 72 – 

         We also identified the number of personnel resources used on various
illicit and diverted pharmaceutical drug investigations, such as cocaine,
methamphetamine, oxycodone, and hydrocodone. The following exhibit
depicts the percentage of resources used on these drug threats in FY 2010.
DEA officials explained that they do not routinely analyze resource and case
data by drug threat area because the agency’s investigative efforts are
focused on drug trafficking organizations. However, field divisions are
required to submit illicit and pharmaceutical drug threats affecting their
jurisdictions as part of the DEA’s mechanism to evaluate field division
performance. Therefore, we believe the DEA should establish a mechanism
to routinely look at the level of effort expended on specific drug threats.

                            EXHIBIT 6-4
FY 2010 DEA PERSONNEL RESOURCES UTILIZED ON DRUG THREATS70
     ILLICIT DRUG THREATS              DIVERTED DRUG THREATS
                                71
 Personnel Utilized: 6,436 FTEs         Personnel Utilized: 737




 Source: OIG analysis of the DEA’s WRS data

     In this audit report, we therefore provide six recommendations to
improve the DEA’s management of the allocation and utilization of its
personnel resources and its investigative caseload.




       70
          The following areas are contained within the All Other category: (1) unidentified
drug areas, (2) general files, (3) methcathinone, (4) other stimulant (clandestine),
(5) depressant (clandestine), (6) unspecified analogues, (7) steroid (clandestine), and
(8) no specific drug.
       71
           This pie chart represents utilization figures for DEA special agents, task force
officers, and intelligence research specialists for illicit drug threats and includes diversion
investigators for diverted drug threats.


                                             – 73 – 

              STATEMENT ON INTERNAL CONTROLS

      As required by generally accepted government auditing standards, we
tested, as appropriate, internal controls significant within the context of our
audit objectives. A deficiency in an internal control exists when the design
or operation of a control does not allow management or employees, in the
normal course of performing their assigned functions, to timely prevent or
detect: (1) impairments to the effectiveness and efficiency of operations,
(2) misstatements in financial or performance information, or (3) violations
of laws and regulations. Our evaluation of DEA’s internal controls was not
made for the purpose of providing assurance on its internal control structure
as a whole. DEA management is responsible for the establishment and
maintenance of internal controls.

       We did not identify any deficiencies in the DEA’s internal controls that
are significant within the context of the audit objectives and based upon the
audit work performed that we believe would adversely affect the DEA’s
ability to manage personnel resources and investigate cases.

      However, we did identify a weakness related to data inconsistencies
when comparing the DEA’s Priority Target Organization (PTO) data, from the
Case Status System (CAST) and Work Hour Reporting System (WRS), to the
PTO data from the Priority Target Activity Resource and Reporting System
(PTARRS). DEA officials acknowledged that these inconsistencies occur
because the DEA’s CAST/WRS and PTARRS data systems lack a
comprehensive, relational interface, which makes it difficult to merge and
analyze PTO data. DEA officials explained that the DEA is establishing a new
information system that will collect and store all of this information on one
platform.

       Because we are not expressing an opinion on the DEA’s internal
control structure as a whole, this statement is intended solely for the
information and use of the DEA. This restriction is not intended to limit the
distribution of this report, which is a matter of public record.




                                    – 74 – 

                                                                   APPENDIX I



            OBJECTIVES, SCOPE, AND METHODOLOGY

Objectives

      The objectives of this audit were to determine: (1) how the DEA
allocates and assesses the use of personnel resources in line with its
established priorities, (2) the number of DEA personnel allocated and utilized
on various types of narcotics-related investigations, and (3) the number and
types of cases investigated by the DEA.

Scope and Methodology

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we
plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our
audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions.

       To accomplish the audit objectives, we reviewed DEA policies and
procedures related to human resource management and analyzed DEA
personnel resource allocation, personnel resource utilization, and casework
data encompassing FY 2005 through FY 2010. We also interviewed DEA
officials from several DEA headquarters divisions, including senior leadership
from the Operations, Intelligence, Inspections, and Financial Management
divisions. Additionally, we spoke with DEA officials from the Chicago Field
Division. During these interviews, we obtained information on the DEA’s
resource allocation and assessment processes, strategic and investigative
priorities, and changes in resource utilization and cases worked.

       DEA officials informed us that the principle investigative focus of the
DEA is on Priority Target Organizations (PTOs), which are the major drug
supply and money laundering organizations operating at the international,
national, regional, and local levels and have a significant impact upon the
availability of illegal drugs. DEA officials also explained that all cases have a
five digit alphanumeric code that provides descriptive background
information on each case. This code, known as the Geographic-Drug
Enforcement Program (G-DEP) code, identifies the principal investigative
target, the investigative involvement of other agencies, the principle
controlled substance involved in the investigation, and the geographic scope
of the criminal activity being investigated.




                                     – 75 – 

                                                                 APPENDIX I



Compliance with Laws and Regulations

      According to generally accepted government auditing standards,
auditors should identify the laws and regulations that are significant within
the context of the audit objectives and assess the risk that violations of
those laws and regulations could occur. Throughout the course of this audit,
we did not identify any laws or regulations concerning the operations of the
DEA that were significant within the context of our audit objectives.

Data Analysis

       To assist in accomplishing our audit objectives, we analyzed
quantitative data provided by the DEA. Specifically, we analyzed data on the
allocation and utilization of DEA special agents, intelligence research
specialists, and diversion investigators within the 21 domestic field divisions
and headquarters. The DEA can only allocate its congressionally authorized
positions, which does not include task force officers. Therefore, we only
looked at the utilization of DEA task force officers. We also examined DEA
casework data. All analysis was conducted on data from FY 2005 through
FY 2010. In total, this data amounted to 3,590,019 records.

Allocated Personnel Resources

       We used data maintained in the DEA’s Office of Resource
Management’s Table of Organization to analyze the allocation of DEA
domestic special agent, intelligence research specialist, and diversion
investigator positions from FY 2005 through FY 2010. This data represented
the end-of-year allocations and included any mid-year adjustments and
supplemental enhancements. We reviewed the DEA’s headquarters and
domestic field division special agent, intelligence research specialist, and
diversion investigator allocations in conjunction with the DEA’s actual
utilization of the aforementioned personnel, focusing on the differences
between the intended and actual use of the DEA’s personnel resources from
FY 2005 through FY 2010.

Personnel Resources Utilized

       To examine the DEA’s personnel resource utilization, we analyzed data
from the DEA’s Work Hour Reporting System (WRS). WRS is a time
recordkeeping system that captures on a bi-weekly basis the time and
activities of special agents, intelligence research specialists, diversion
investigators, task force officers, and non-DEA intelligence personnel.
However, because the WRS work hour data provided such a broad view of


                                    – 76 – 

                                                                          APPENDIX I



DEA's prioritization, we obtained data from DEA’s Priority Target Activity
Resource and Reporting System (PTARRS), a system that the DEA
implemented to identify and track priority targets. PTARRS provided
additional work hour reporting specificity.

      Work Hour Reporting System (WRS)

      We were provided four WRS mainframe database files containing work
hour records for DEA headquarters and domestic field division special
agents, task force officers, intelligence research specialists, and diversion
investigators. The personnel utilization data encompassed FYs 2005 through
2010. After importing these database files into our data analysis software,
we organized and extracted work hour data for the four personnel types as
follows.72

   1. Inserted fields to group pay periods into their respective fiscal year, to
      aggregate total work hours for each fiscal year, and to separate case
      and general file types based on their ending 4-digit extension.

   2. Extracted case-related work hours (using the “Administrative Code”
      field), thereby capturing general files as well.

   3. Extracted work hours related to the DEA’s Diversion Control Program.
      To do so, we followed DEA’s instructions of extracting: (a) all “fee­
      funded” G-DEP drug types as specified by the DEA, and regardless of
      the case file sequential number; (b) all cases ending with a file
      sequential number from “2000 through 3999”; and (c) all cases ending
      with a “9XXX” series file sequential number.

      Priority Target Activity Resource and Reporting System (PTARRS)

       PTARRS is capable of tracking PTO work hours by the following
sections: (1) Europe, Asia, Africa, and Canada; (2) Latin America and the
Caribbean; (3) Mexico and Central America, and (4) Regional and Local
Impact. In addition, we requested PTARRS data affiliated with the Diversion
Control Program. We were provided PTARRS data to provide additional
specificity in our analysis of PTO work hours. The file we received contained
separate worksheets for each of the sections, and each worksheet contained
total PTO work hours for headquarters and domestic field division special
agents, task force officers, intelligence research specialists, and diversion



      72
           The OIG’s organization and extraction methodology provided here for WRS is not
an all-inclusive list, but contains the most significant data manipulation processes.


                                         – 77 – 

                                                                            APPENDIX I



investigators. The PTO work hour data encompassed FYs 2005 through
2010.

      The DEA generated the file by matching PTO data from PTARRS with
WRS work hour data, using the case file number. As a result, PTARRS pulled
in the five sections and WRS pulled the hours worked, case open and close
dates, job series, and fiscal years. To perform its analysis, the OIG
reorganized the data into one cohesive file.

       Conversion to Full-Time Equivalents

     To present the results of our WRS and PTARRS utilization analysis in a
more comprehensible manner, we converted work hours to full-time
equivalents (FTE).73 In general, this calculation would be as follows:

                       Total Work Hours
        ‫ ܧܶܨ‬ൌ
                Compensable Work Hours in a Year

      However, because our analysis focused only on case hours, which
accounts for a portion of the total work hours, we adjusted the number of
“Compensable Work Hours in a Year” to ensure our analysis resulted in the
number of FTEs attained in the above formula. This adjustment was done
with the use of a ratio of case hours to total hours. Therefore, our adjusted
formula was:

                                    Total Case Hours
        ‫ ܧܶܨ‬ൌ
                                                       Total Case Hours
                ቀCompensable Work Hours in a Year ൈ                     ቁ
                                                       Total Work Hours

      Both formulas achieve the same FTE result and normalize the FTE to
represent employees’ full time work hours. Without this adjustment, we
would have calculated FTEs based only on investigative work hours, resulting
in an understatement of DEA’s total FTEs and incorrectly implying that DEA
personnel spend 100 percent of their time on investigative work. This is not
the case, as DEA special agents, diversion investigators, and intelligence
research specialists expend time while on paid leave, in training, or while
performing administrative matters. We discussed our FTE conversion
process with DEA officials on multiple occasions, and they agreed that it was
a sound methodology.

       73
          A full-time equivalent (FTE) is the number of total hours worked divided by the
maximum number of compensable hours in a work year. One FTE equals 2,080 hours for
non law-enforcement personnel, such as intelligence research specialists and diversion
investigators; and 2,600 hours for law enforcement personnel, such as special agents and
task force officers.


                                          – 78 – 

                                                                             APPENDIX I



Burn Rate Analysis

      We use the term “burn rate” to refer to the difference between
resources allocated and utilized. An “overburn” occurs when more resources
are utilized than allocated. In turn, an “underburn” occurs when fewer
resources are utilized than allocated. During our audit, we analyzed the
overall burn rates of special agent, intelligence research specialist, and
diversion investigator resources within DEA domestic field divisions and
headquarters from FY 2005 through FY 2010. In conducting this burn rate
analysis, we obtained the number of special agent, intelligence research
specialist, and diversion investigator resources allocated from the DEA’s
Table of Organization. Additionally, using the DEA’s WRS data we calculated
special agent, intelligence research specialist, and diversion investigator
FTEs used in each fiscal year. We then computed the actual burn rate and
burn rate percentage by comparing the allocation and utilization figures for
each personnel type.

Casework Data

      To examine the types and quantity of cases worked by the DEA, we
analyzed data from the DEA’s Case Status System (CAST). CAST is the
DEA’s case management system that maintains information on general and
case files. However, because the CAST casework data provided such a
broad view of the DEA's PTO data, we also analyzed case data from PTARRS.

       Case Status System (CAST)

      We were provided six CAST mainframe database files containing the
number of cases worked for FYs 2005 through 2010. For the purpose of this
audit, a “case worked” is defined as any case with at least 1 hour of special
agent, intelligence research specialist, task force officer, or diversion
investigator work reported in WRS. After importing these files into our data
analysis software, we appended the six files into one comprehensive
database, and we organized and extracted the casework data as follows:74

   1. Inserted fields to capture the total cases worked per fiscal year, to
      separate case and general file types based on their ending 4-digit
      extension, and to adjoin the two separate components of the G-DEP
      drug.



       74
            The OIG’s organization and extraction methodology for CAST is not an all-
inclusive list, but contains the most significant data manipulation processes.


                                          – 79 – 

                                                                 APPENDIX I



   2. Extracted cases worked related to the DEA’s Diversion Control
      Program. To do so, we followed the DEA’s instructions of extracting:
      (a) all “fee-funded” G-DEP drug types as specified by the DEA,
      regardless of the case file sequential number; (b) all cases ending with
      a file sequential number from “2000 through 3999”; and (c) all cases
      ending with a “9XXX” series file sequential number.

      Priority Target Activity Resource and Reporting System (PTARRS)

      PTARRS is capable of tracking PTO cases worked by the following DEA
headquarters operational support sections: (1) Europe, Asia, Africa, and
Canada; (2) Latin America and the Caribbean; (3) Mexico and Central
America, and (4) Regional and Local Impact. In addition, we requested
PTARRS data affiliated with the Office of Diversion Control. We were
provided PTARRS cases worked data to provide additional specificity in our
analysis of PTO casework. The file we received contained separate
worksheets for each of the sections, and each worksheet contained total PTO
cases worked. For the purpose of this audit, a “case worked” is defined as
any case with at least 1 hour of special agent, intelligence research
specialist, task force officer, or diversion investigator work reported in WRS.
The PTO cases worked data encompassed FYs 2005 through 2010.

      The DEA generated the file by matching PTO data from PTARRS with
CAST cases worked data using the case file number. As a result, PTARRS
pulled in the five sections and WRS pulled the cases worked, case open and
close dates, and fiscal year. To perform its analysis, the OIG reorganized
the data into one cohesive file.

Data Reliability

       Because our analysis relied primarily on information system data, it
was necessary to evaluate the effectiveness of information system controls
that were significant to the audit objectives and to ensure that we obtained
sufficient and appropriate evidence. Our work hour and casework data was
accessed from the CAST, WRS, and PTARRS information systems. For DEA
end users, this data is accessible through a single interface data warehouse
called the Strategic Management Analysis and Reporting Tools System
(SMARTS). DEA personnel rely on SMARTS to pull resource utilization and
casework data.

      To assess the reliability of the DEA’s CAST and WRS mainframe data,
we interviewed officials from the Office of Information Systems and the
Office of Resource Management to determine what measures were in place
to ensure that the data was accurate and complete. We reviewed


                                    – 80 – 

                                                                 APPENDIX I



documentation on access controls, data field validation, mandatory fields,
exception checks, certification and accreditation, measures to safeguard
data, and system test plans and results. During our analysis of CAST and
WRS data, we performed data reliability testing and found undefined data
fields and data errors. However, these instances were minimal and we did
not consider them to be material deficiencies.

      In addition, we compared SMARTS data to the DEA’s CAST and WRS
data and found no material deficiencies. We also verified that field divisions
generate quarterly statistics that contain work hour and casework data from
SMARTS and use these reports to conduct reviews and ensure the data is
accurate.

      Lastly, we relied upon the DEA’s methodology for extracting and
merging PTARRS, WRS, and CAST PTO work hours and cases worked data
because with over a million records, the OIG did not have the capability of
merging the data. However, we met with DEA officials to ensure that the
information they provided was accurate, and we reviewed a sample of the
DEA’s discrepancy reports used to verify that the information in PTARRS
corresponds with the information in CAST and WRS.

        Our review of the DEA’s resource and casework-related data gave us
sufficient assurance that the data provided by the DEA can be used to
appropriately present on the DEA’s resource utilization and casework. As
with most data, the reliability of the DEA’s personnel utilization and
casework data is inherently affected by the integrity and care of those who
initially input the data into the originating systems.




                                    – 81 – 

                                               APPENDIX II


                  DEA DOMESTIC FIELD OFFICES




Source: The DEA




                            – 82 –
                                                                          APPENDIX III


                      FIELD DIVISION BURN RATES
       Appendix III provides the field division burn rates for DEA core
personnel from FY 2005 to FY 2010. The term “burn rate” refers to the
difference between resources allocated and utilized. For example, in
FY 2010 allocated 4,533 special agent positions to its headquarters and
domestic field divisions and actually used 4,220 special agents during that
time. Therefore, as shown in Table 1, the DEA used 313 fewer special
agents than were allocated during FY 2010, which is referred to as an
underburn. In turn, the DEA’s Boston Field Division was allocated
128 special agent positions in FY 2010 and used 137 special agents during
FY 2010. Thus, the DEA’s Boston Field Division used nine more agents than
it was allocated during FY 2010, which is an overburn and is shown in
Table 1. The following tables show the overburns or underburns of field
divisions’ and headquarters’ special agents (Table 1), intelligence research
specialists (Table 2), and diversion investigators (Table 3).75

                                 TABLE 1
                    DEA SPECIAL AGENT FTE BURN RATES
   DIVISION
                   FY 2005      FY 2006     FY 2007      FY 2008      FY 2009      FY 2010
     NAME
Atlanta                13          20           39          15             2              -2
Boston                  7            6          14           16           10               9
Caribbean             -13           -7         -11          -16          -24             -22
Chicago                 8            2           2            4           -3              -8
Dallas                  4            5          13            4            3              -4
Denver                  5            5          13            7            4               4
Detroit                -5          -10          17          -15          -12             -17
El Paso                -5            2           2           -2           -7             -21
Headquarters          -43          -17          31          16           -25              -1
Houston                 7          23           39          -15          -27             -31
Los Angeles           -14          17           52          -32          -39             -51
Miami                 -20          -34         -17          -47          -52             -48
New Jersey              4            1           8           -5           -6              -6
New Orleans             3            6          17            9            4             -13
New York              -14            9          -1          -11          -15             -41
Philadelphia           -6           -6           3           -6           -4              -5
Phoenix                 5          18           33           -8          -18             -20
San Diego              -4            3          19          -13          -13             -13
San Francisco          -5          10           16            3           -4             -11
Seattle                 6          11           15            8            2              -8
St. Louis              -3           -2          12           -6           -1              -1
Washington              3           -1           7           -5           -4              -4
DEA Total             -67          62          322         -100         -229            -313


     75
          The figures in these charts are rounded, which may result in varied totals.


                                          – 83 –
                                                           APPENDIX III 





                          TABLE 2
    DEA INTELLIGENCE RESEARCH SPECIALIST FTE BURN RATES
   DIVISION
                FY 2005   FY 2006    FY 2007   FY 2008   FY 2009   FY 2010
     NAME
Atlanta            -5       -1           -2       2         8         9
Boston             4         2           -1      -1         3          0
Caribbean          -3        0           -4      -5        -6         -2
Chicago            -3        0           -1       2         4         -4
Dallas              0       -1           -3      -3         1         3
Denver              1        4            1       0         3          4
Detroit             0        2           -4      -1         1         -4
El Paso             5        6            2       2        10          5
Headquarters      -77      -121         -82     -100      -106       -71
Houston            13       20           11       5         9          8
Los Angeles        -4        1            0       5         5         -8
Miami               4        2           -2       2        14         12
New Jersey          0        2            0       0         3          4
New Orleans         2        1            0      -2         2          3
New York            9       11            4      -2         6         10
Philadelphia        0        0           -4       0         1          3
Phoenix             4        7            3       2         9         -1
San Diego           4        3           -2      -1         0         -5
San Francisco      -3       -4           -4      -3        -1         0
Seattle            1         5           3        0         0         1
St. Louis          1         2           -3      -1         2         1
Washington         3         3           -2       8         9          9
DEA Total         -47      -56          -93     -91       -27        -23




                                    – 84 – 

                                                           APPENDIX III 





                          TABLE 3
         DEA DIVERSION INVESTIGATOR FTE BURN RATES
  DIVISION
                FY 2005   FY 2006    FY 2007   FY 2008   FY 2009   FY 2010
     NAME
Atlanta             0        1           3        2          1        -2
Boston             -5        -3          -4       -6        -9        -1
Caribbean          -4        -5          -4       -6        -2        -3
Chicago            -1        -5          -4       -2        -4        -3
Dallas              6        3           -1       -1         3        3
Denver              1        1           1        2          2         2
Detroit             0        -4          -7       -9        -3        -5
El Paso             0        1           0        0          1         1
Headquarters      -47       -51         -54      -54       -31       -33
Houston            -3        1           0        -2        -7        -5
Los Angeles         0        -3          -5       -6         1        0
Miami               5        5           2        0          6         7
New Jersey         -8        -9         -11      -10        -6        -7
New Orleans         3        1           -3       -2        -4         0
New York           -1        -5          -7       -5        -2        -4
Philadelphia       -7        -5          -4       -3         2         0
Phoenix            -2        1           -1       -6         2        2
San Diego          -5        -4          -2       -3         1         1
San Francisco      -2        -4          -6       -6         0        1
Seattle            -2        -1          -4       -6        -5         0
St. Louis           2        1           0        -4         0        0
Washington          0        1           -2       -2         1         2
DEA Total         -71       -83        -113     -131       -51       -44




                                    – 85 – 

                                                             APPENDIX IV


           G-DEP DRUG CODES AND DESCRIPTIONS

      Appendix IV provides the G-DEP drug codes and the corresponding
drug descriptions. The OIG used these codes to determine the number of
resources utilized and cases worked on specific illicit and diverted drug
threats depicted in Chapter 5.

   G-DEP DRUG
                     DRUG DESCRIPTION
      CODE
       A1            Amphetamine (clandestine)
       A2            Methamphetamine (clandestine)
       A3            Crystal Methamphetamine ("ice")
       A4            P2P
       A5            Methcathinone
       A6            Other Stimulant (clandestine)
       A7            Amphetamine/Stimulant Related Chemical
       A8            Methylphenidate
       B1            Pseudoephedrine
       B2            Ephedrine
       B3            Iodine/Red Phosphorus
       C1            Cocaine HCL
       C2            Cocaine Base (excluding crack)
       C3            Crack Cocaine
       C4            Cocaine (pharmaceutical)
       C5            Cocaine Related Chemical
       D1            Depressant (clandestine)
       D2            Methaqualone
       D3            Fentanyl (and it generics)
       D4            Depressant Related Chemical
       E1            Chemical Equipment (non drug specific)
       G1            GHB/GBL/BD (and other GHB analogues)
       G2            Ketamine (and its analogues)
       G3            Unspecified Analogues
       H1            Heroin
       H2            Opium
       H3            Morphine Base
       H4            Opium/Heroin/Morphine Related Chemical
       L1            LSD
       L2            PCP
       L3            MDA/MDMA/MDE
       L4            Other Hallucinogen
       L5            Hallucinogen Related Chemical



                                   – 86 – 

                                                    APPENDIX IV 



G-DEP DRUG
             DRUG DESCRIPTION
   CODE
    M1       Marijuana (foreign origin)
    M2       Marijuana (domestic origin)
    M3       Indoor cultivation
    M4       Hashish
    M5       Hashish Oil
    N1       Opioid Treatment Pharmaceuticals
    N2       Hydromorphone (Dilaudid®)
    N3       Schedule II Pharmaceutical Narcotic
    N4       Schedule II Pharmaceutical Non Narcotic
    N5       Schedule III Narcotic
    N6       Benzodiazepine
    N7       All Other Pharmaceutical Controlled Substances
    N8       Oxycodone
    N9       Hydrocodone
    R1       Palladone
    S1       Steroid (pharmaceutical)
    S2       Steroid (clandestine)
    Z1       No Specific Drug




                          – 87 – 

                                                                                                        APPENDIX V


                      PTO CASES WORKED AND RESOURCE UTILIZATION
       Appendix V contains OIG analysis of the DEA’s domestic field divisions’ and headquarters’ casework and
special agent, task force officer, and intelligence research specialist utilization on PTO cases associated with the
DEA’s headquarters operational sections: Mexico and Central America; Europe, Asia, Africa, and Canada; Latin
America and the Caribbean; Regional and Local Impact; and Office of Diversion. The tables show data from FY 2005
to FY 2010, including the number and percentage change from FY 2005 to FY 2010.
                                         MEXICO AND CENTRAL AMERICA SECTION
DEA Field Divisions                        Mexico and Central America Section PTO Cases Worked
and Headquarters      FY 2005    FY 2006      FY 2007      FY 2008     FY 2009     FY 2010   # Change    % Change
      Atlanta            73         84           84           94         106          95        22         30%
      Boston            22         25            24          20         20          20         -2          -9%
     Caribbean           0          1            1           0           1          1           1          N/A
      Chicago           68         79            85          69         67          65         -3          -4%
       Dallas           46          58           56          55         47          42         -4          -9%
      Denver            30          41           43          47         49          50         20          67%
      Detroit           55          61           63          51         55          61          6          11%
      El Paso           55          67           89         113         127        157        102         185%
   Headquarters          7          9            10          13         12          11          4          57%
     Houston            149        168          187         211         252        274        125          84%
    Los Angeles         105        137          142         137         167        197         92          88%
       Miami            31          35           35          41         58          54         23          74%
   New Orleans          20          19           18          21         17          19         -1          -5%
     New York           53          62           65          67         65          79         26          49%
      Newark             8         10            11          10         13          14          6          75%
   Philadelphia         29         29            25          22         20          24         -5         -17%
      Phoenix           86         100          105         104         127        135         49          57%
     San Diego          87         100          100          95         99         111         24          28%
   San Francisco        37         47            44          38         50          58         21          57%
      Seattle           31         29            30          32         30          30         -1          -3%
     St. Louis          38          39           32          37         35          33         -5         -13%
    Washington          19          19           17          16         20          20          1          5%
       Total          1,049       1,219        1,266       1,293      1,437       1,550       501          48%



                                                        – 88 – 

                                                                                                     APPENDIX V 


DEA Field                Special Agent FTEs Utilized on the Mexico and Central America’s Section PTO Cases
Divisions and
                FY 2005       FY 2006     FY 2007      FY 2008      FY 2009     FY 2010    # Change     % Change
Headquarters
Atlanta          65.6           71.3        67.6         67.1         54.8        67.0        1.5            2%
Boston           15.0           13.0         6.7          3.8          7.2        6.7        -8.3         -56%
Caribbean         0.0           0.4          0.0          0.0          1.7        2.0         2.0            N/A
Chicago          59.4           44.8        44.2         36.6         35.6        39.5       -19.9        -33%
Dallas           42.3           38.7        35.9         30.8         23.0        25.6       -16.6        -39%
Denver           43.4           29.3        23.6         16.4         19.5        31.6       -11.8        -27%
Detroit          72.3           56.7        41.6         30.2         28.7        35.8       -36.5        -51%
El Paso          46.2           67.7        67.5         75.2         75.1       103.3       57.2         124%
Headquarters      3.2           3.7          3.6          6.2          7.2        3.4         0.2            6%
Houston          155.8         181.6        185.1        200.0        199.0      228.7       72.9            47%
Los Angeles      97.5           97.3        89.4         79.0         83.5        93.6       -3.9            -4%
Miami            20.0           28.4        31.3         25.4         32.7        40.5       20.4         102%
New Orleans      16.6           14.4         6.9         10.5          6.3        11.9       -4.7         -28%
New York         61.9           56.4        48.3         49.9         22.7        29.2       -32.7        -53%
Newark           10.9           12.0         7.6          5.3         11.2        14.8        3.9            36%
Philadelphia     20.2           22.4        11.4          5.6          4.0        11.0       -9.2         -46%
Phoenix          87.0           69.3        64.0         73.8         90.4       106.3       19.3            22%
San Diego        89.1           80.7        80.6         58.2         63.3        82.9       -6.2            -7%
San Francisco    39.7           33.6        23.1         11.2         15.5        38.0       -1.7            -4%
Seattle          33.4           35.1        23.1         26.5         14.2        20.0       -13.4        -40%
St. Louis        28.5           18.4        20.9         17.5         14.7        22.9       -5.6         -20%
Washington        11.7          12.4        8.7          7.1          8.7         6.3        -5.3         -46%
Total            1,020          988         891          836          819        1,021        1.4          0%




                                                     – 89 – 

                                                                                                  APPENDIX V 



DEA Field                             Intelligence Research Specialist FTEs Utilized on
Divisions and                       the Mexico and Central America Section’s PTO Cases
Headquarters    FY 2005   FY 2006   FY 2007     FY 2008     FY 2009      FY 2010       # Change     % Change
Atlanta           9.6       11.7      12.2        13.5        13.7         18.4           8.8         91%
Boston            2.4       2.7       1.4         0.4         2.0          1.4          -1.0          -42%
Caribbean         0.0       0.0       0.0         0.0         0.0          0.0          0.0           N/A
Chicago           6.3       8.3       6.5         5.9         5.2          4.8          -1.5          -24%
Dallas            9.7       7.0       7.6         5.9         4.6          6.1          -3.5          -37%
Denver            5.4       5.3       5.4         3.7         4.5          6.0          0.6           11%
Detroit           7.8       7.5       3.0         3.2         1.3          1.8          -6.0          -77%
El Paso          12.2      14.4       13.0        15.3        21.1        21.4          9.2           76%
Headquarters     30.4      34.7       34.0        32.6        31.5        40.0          9.6           31%
Houston          14.9      15.1       14.0        13.0        11.1        14.3          -0.6          -4%
Los Angeles       1.4       4.4       6.8         4.4         4.3          5.4          4.0           280%
Miami             1.5       2.3       1.0         1.4         0.9          2.3          0.8           52%
New Orleans       8.0       4.5       5.2         5.4         1.9          2.8          -5.1          -64%
New York          1.3       1.9       0.7         0.8         2.8          3.4          2.2           171%
Newark            2.8       3.5       1.2         1.1         0.9          2.8          0.0            1%
Philadelphia     15.2      10.2       10.9        10.3        15.9        15.9          0.7            5%
Phoenix          14.6      13.4       9.8         9.9         9.5         14.8          0.2            1%
San Diego         4.2       3.4       3.0         1.2         3.2          6.9          2.8           67%
San Francisco     6.6       6.6       4.4         5.5         1.2          2.8          -3.8          -58%
Seattle           0.5       0.6       0.4         1.1         1.1          0.9          0.4           89%
St. Louis         4.2       4.2       2.3         3.1         2.9          4.3          0.1            3%
Washington        2.5       2.5       1.0         0.9         2.6          1.6          -0.9          -37%
Total            161       164        144         139         142          178          16.8          10%




                                                  – 90 – 

                                                                                                 APPENDIX V 


DEA Field           Task Force Officers FTEs Utilized on the Mexico and Central America Section’s PTO Cases
Divisions and
                FY 2005   FY 2006    FY 2007     FY 2008       FY 2009    FY 2010     # Change      % Change
Headquarters
Atlanta          32.9      31.8        39.5        53.9         55.6        73.0         40.1         122%
Boston            9.6       6.2        5.2          1.8          4.4        0.7          -8.9         -93%
Caribbean         0.0       0.0        0.0          0.0          0.1        0.0           0.0          N/A
Chicago          29.3      24.4        31.0        17.0         16.9        18.8        -10.4         -36%
Dallas           27.1      29.1        34.1        16.8         16.3        16.3        -10.8         -40%
Denver           12.6       8.0        8.4          8.0         15.2        18.4          5.8          46%
Detroit          47.6      41.9        31.9        20.7         13.3        23.1        -24.5         -51%
El Paso           8.5      10.6        12.5        15.8         19.1        31.3         22.8         267%
Headquarters      0.0       0.0        0.0          0.0          0.0        0.0           0.0          N/A
Houston          33.9      37.1        37.9        39.6         49.1        69.9         36.0         106%
Los Angeles      40.7      35.5        33.6        36.3         44.9        44.7          3.9          10%
Miami             3.2       2.1        2.8          3.2          7.8        10.6          7.4         228%
New Orleans       8.6       9.5        3.4          4.4          4.3        9.7           1.1          13%
New York         34.3      32.0        25.8        26.4         13.0        15.9        -18.4         -54%
Newark            3.7       3.7        1.5          2.0          5.0        8.1           4.4         118%
Philadelphia      7.0       5.9        2.5          0.6          1.9        4.4          -2.6         -37%
Phoenix          14.4      13.5        11.5         9.2         20.0        29.1         14.7         102%
San Diego        19.6      19.5        18.5        18.0         24.0        26.0          6.4          33%
San Francisco     4.8       1.9        1.0          0.9          0.7        3.7          -1.1         -23%
Seattle          10.0      13.1        5.5          4.3          0.3        5.0          -5.0         -50%
St. Louis        24.9      18.8        18.9        13.4         11.5        15.8         -9.1         -37%
Washington        4.5       9.5        4.3          6.3         10.2        5.6           1.1          24%
Total            377        354        330         299          334         430          52.8          14%




                                                    – 91 – 

                                                                                                  APPENDIX V


                           EUROPE, ASIA, AFRICA, AND CANADA SECTION

DEA Field                           Europe, Asia, Africa, and Canada Section PTO Cases Worked
Divisions and
                FY 2005   FY 2006      FY 2007     FY 2008      FY 2009   FY 2010      # Change     % Change
Headquarters
Atlanta           12        13           12          14           13         10           -2         -17%
Boston            10        16           25          27           25         36           26         260%
Caribbean          2         2            1           1            0          1           -1         -50%
Chicago           14        19           16          16           15         17            3          21%
Dallas             5         6            6           5            8          5            0          0%
Denver             6         8            8           6            5          2           -4         -67%
Detroit           19        24           21          19           22         15           -4         -21%
El Paso            1         1            0           0            0          0           -1         -100%
Headquarters       1         2            5           6            8         12           11         1100%
Houston            5         5            5           6            4          4           -1         -20%
Los Angeles       25        37           44          40           51         44           19          76%
Miami             34        29           27          24           24         16           -18        -53%
New Orleans       14        20           17          18           22         17            3          21%
New York          41        52           45          51           60         71           30          73%
Newark            12        18           22          17           16         14            2          17%
Philadelphia       9        12           17          18           16         17            8          89%
Phoenix            4         4            4           3            3          4            0          0%
San Diego          8         8            7           8           10          7           -1         -13%
San Francisco     15        20           18          19           20         22            7          47%
Seattle           30        42           45          46           46         36            6          20%
St. Louis         14        13           16          15           16         20            6          43%
Washington        26        23           22          26           24         30            4          15%
Total            307       374           383         385         408        400           93          30%




                                                     – 92 – 

                                                                                                 APPENDIX V 


DEA Field           Special Agent FTEs Utilized on the Europe, Asia, Africa, and Canada Section’s PTO Cases
Divisions and
                FY 2005   FY 2006    FY 2007     FY 2008       FY 2009    FY 2010     # Change      % Change
Headquarters
Atlanta           8.5       5.6        5.9          4.8          2.5        1.2          -7.3          -86%
Boston           14.9      13.3        20.1        20.1         21.5        17.1          2.1          14%
Caribbean         0.5       1.4        0.1          0.0          0.0        0.2          -0.3          -66%
Chicago          11.9       9.8        7.0          4.2          5.9        2.4          -9.5          -80%
Dallas            4.8       2.9        2.1          1.2          3.9        6.0           1.2          26%
Denver            3.8       5.9        2.2          0.5          0.3        0.3          -3.5          -92%
Detroit          12.2      11.6        11.2         5.7          8.2        8.3          -3.9          -32%
El Paso           0.0       0.1        0.0          0.0          0.0        0.0           0.0           0%
Headquarters      1.4       1.5        6.0         11.5         13.8        14.8         13.4          942%
Houston           9.1       3.8        2.3          1.2          0.9        0.1          -9.0          -99%
Los Angeles      24.2      25.9        34.8        28.4         27.9        28.1          3.9          16%
Miami            24.5      14.9        7.1          4.7          9.7        11.6         -13.0         -53%
New Orleans      13.6       6.4        7.1          7.3         10.7        8.3          -5.3          -39%
New York         47.1      47.8        33.6        24.4         21.2        32.5         -14.6         -31%
Newark           12.2      12.0        17.7        14.8          8.2        9.8          -2.4          -19%
Philadelphia      9.7      12.1        13.6        15.8          7.9        3.7          -6.1          -62%
Phoenix           2.3       1.6        3.0          0.5          0.7        3.2           1.0          42%
San Diego         3.3       4.5        5.5          7.2         10.2        2.9          -0.4          -12%
San Francisco    19.5      14.6        8.6         14.1         16.4        12.3         -7.2          -37%
Seattle          28.4      32.4        22.9        14.1         11.0        14.7         -13.6         -48%
St. Louis        11.2       6.6        5.5          3.3          2.5        4.2          -7.0          -62%
Washington       21.1      19.9        11.5        12.9         10.7        15.2          -5.8         -28%
Total            284       254         228         197          194         197          -87.3         -31%




                                                    – 93 – 

                                                                                                  APPENDIX V 


DEA Field                            Intelligence Research Specialists FTEs Utilized on
Divisions and                    the Europe, Asia, Africa, and Canada Section’s PTO Cases
Headquarters    FY 2005   FY 2006     FY 2007     FY 2008      FY 2009    FY 2010      # Change     % Change
Atlanta           1.7       1.4         2.3          0.8         0.5         0.1         -1.6        -92%
Boston            2.3       2.2         4.0         5.6          3.7        3.1         0.8           36%
Caribbean         0.0       0.1         0.0         0.0          0.0        0.0         0.0           N/A
Chicago           1.9       1.3         0.5         0.6          0.6        0.1         -1.8          -95%
Dallas            0.9       0.6         0.6         0.2          3.1        2.1         1.2           143%
Denver            1.8       1.8         0.5         0.1          0.0        0.0         -1.8         -100%
Detroit           0.9       0.6         1.1         0.7          0.9        0.5         -0.4          -40%
El Paso           0.0       0.0         0.0         0.0          0.0        0.0         0.0           N/A
Headquarters      0.3       0.3         1.0         1.1          1.4        3.2         2.9          1073%
Houston           1.6       0.9         0.2         0.1          0.0        0.0         -1.6         -100%
Los Angeles       3.6       3.7         3.7         3.5          5.8        3.3         -0.3          -10%
Miami             4.5       0.9         0.4         0.7          2.5        2.3         -2.2          -49%
New Orleans       3.3       1.3         1.5         0.8          1.8        1.8         -1.4          -43%
New York          4.8       5.4         3.4         2.1          1.1        2.8         -1.9          -41%
Newark            1.1       1.8         2.1         1.4          1.5        3.0         2.0          179%
Philadelphia      2.0       2.2         1.5         3.4          1.5        1.3         -0.7          -34%
Phoenix           0.2       0.0         0.4         0.1          0.2        0.3         0.1           66%
San Diego         0.8       0.5         0.1         0.6          1.0        1.0         0.2           25%
San Francisco     3.7       1.2         0.8         2.0          3.1        3.6         -0.1          -2%
Seattle           5.4       6.5         4.7         2.0          1.6        2.1         -3.3          -61%
St. Louis         1.5       2.2         1.1         0.1          0.1        1.1         -0.4          -27%
Washington        5.5       3.8         2.0         2.7          3.0        3.7         -1.8          -32%
Total             48        39          32           28          33         36         -11.9          -25%




                                                  – 94 – 

                                                                                                  APPENDIX V 


DEA Field        Task Force Officers FTEs Utilized on the Europe, Asia, Africa, and Canada Section’s PTO Cases
Divisions and
                FY 2005    FY 2006     FY 2007      FY 2008     FY 2009    FY 2010     # Change      % Change
Headquarters
Atlanta           5.5         1.5        9.3          6.8          2.0        0.6         -5.0         -90%
Boston            3.3         6.3        10.9         12.5         9.3        8.7         5.4          164%
Caribbean         0.0         0.0        0.0          0.0          0.0        0.0         0.0           N/A
Chicago           3.4         1.2        0.3          0.3          0.9        0.5         -2.9         -86%
Dallas            0.9         0.8        0.2          0.5          1.8        1.7         0.8          87%
Denver            1.0         1.0        0.7          0.0          0.0        0.0         -1.0        -100%
Detroit           6.1         2.4        3.2          2.8          2.9        5.7         -0.4          -6%
El Paso           0.0         0.0        0.0          0.0          0.0        0.0         0.0           N/A
Headquarters      0.0         0.0        0.0          0.0          0.0        0.0         0.0           N/A
Houston           0.2         0.1        0.1          0.0          0.0        0.0         -0.2        -100%
Los Angeles       1.5         1.9        6.1          8.4          5.9        7.8         6.3          421%
Miami             4.0         2.8        0.5          0.8          1.5        5.0         1.0          25%
New Orleans       5.0         3.3        6.1          4.0          4.6        5.7         0.7          13%
New York         11.3         4.3        4.7          6.6          5.0        7.2         -4.1         -36%
Newark            6.0         6.0        5.8          2.6          4.9        6.3         0.3           5%
Philadelphia      1.1         2.6        1.3          4.4          2.6        2.5         1.4          127%
Phoenix           0.0         0.0        1.6          0.1          0.0        0.2         0.2           N/A
San Diego         3.1         2.6        0.4          0.4          1.9        0.9         -2.2         -70%
San Francisco     1.9         0.7        0.0          0.0          0.1        0.3         -1.6         -86%
Seattle           8.2         8.8        8.6          2.5          1.6        3.0         -5.2         -63%
St. Louis         5.4         5.5        5.5          2.0          0.6        0.7         -4.7         -86%
Washington        2.7         3.3        0.5          0.7          2.5        3.1         0.4          14%
Total             71          55          66           56          48         60         -10.9         -15%




                                                    – 95 – 

                                                                                               APPENDIX V


                           LATIN AMERICA AND CARIBBEAN SECTION
DEA Field                         Latin America and the Caribbean Section PTO Cases Worked
Divisions and
                FY 2005   FY 2006      FY 2007     FY 2008    FY 2009    FY 2010    # Change     % Change
Headquarters
Atlanta            6         7            7           6          2          2           -4        -67%
Boston            24        32            37         37          38         28          4          17%
Caribbean         117       136          144         153        166        158         41          35%
Chicago            7         5            6           5          7          6           -1        -14%
Dallas             3         2            1           2          1          2           -1        -33%
Denver             0         0            0           0          0          0           0          N/A
Detroit            7        10            7           8          11         13          6          86%
El Paso            0         1            1           1          1          1           1          N/A
Headquarters       6         9            7           8          9          8           2          33%
Houston            8         6            8           9          10         8           0          0%
Los Angeles        5         8            7           6          7          5           0          0%
Miami             159       170          182         188        213        202         43          27%
New Orleans        3         4            4           3          2          3           0          0%
New York          140       170          200         230        254        282         142        101%
Newark            35        38            33         23          24         13         -22        -63%
Philadelphia      12        16            13         15          11         8           -4        -33%
Phoenix            2         4            3           3          2          2           0          0%
San Diego          8         8            6           7          6          7           -1        -13%
San Francisco      1         1            1           2          3          2           1         100%
Seattle            3         4            4           4          4          4           1          33%
St. Louis          2         1            0           0          1          2           0          0%
Washington        16        13            16         12          18         22          6          38%
Total            564       645           687         722        790        778         214         38%




                                                   – 96 – 

                                                                                                APPENDIX V 



DEA Field          Special Agent FTEs Utilized on the Latin America and the Caribbean Section’s PTO Cases
Divisions and
                FY 2005   FY 2006     FY 2007     FY 2008     FY 2009     FY 2010    # Change     % Change
Headquarters
Atlanta           3.7        0.4         1.4         1.1         0.0        0.0         -3.7        -100%
Boston           19.1       22.4        16.8        10.5         9.7        9.1        -10.0         -52%
Caribbean        76.9       77.8        66.6        64.1        71.7        79.7        2.7           4%
Chicago           3.4        6.3         4.2         3.8         2.1        3.2         -0.2         -6%
Dallas            0.1        0.0         0.0         0.0         0.4        0.1         0.0          28%
Denver            0.0        0.0         0.0         0.0         0.0        0.0         0.0          N/A
Detroit           3.6        1.8         3.1         4.9         5.0        7.3         3.7         103%
El Paso           0.0        0.8         3.2         0.1         0.1        0.0         0.0          N/A
Headquarters      3.1        2.9         2.7         1.8         3.3        1.4         -1.7         -54%
Houston           5.3        1.7         6.6         6.5         5.5        3.2         -2.2         -41%
Los Angeles       4.0       11.4         9.2         4.2         5.2        4.2         0.2           5%
Miami            169.6      161.5       155.9       147.4      145.7       149.6       -20.0         -12%
New Orleans       0.2        0.6         2.3         1.8         4.4        1.9         1.7         683%
New York         136.9      142.3       150.9       146.8      127.3       138.4        1.5           1%
Newark           19.7       20.3        14.7         8.2         5.9        2.3        -17.4         -88%
Philadelphia      8.8        4.4         4.1         7.6        10.4        8.8         0.0           0%
Phoenix           4.3        8.2         3.9         1.9         0.4        0.3         -4.0         -94%
San Diego         2.5        3.8         3.0         2.5         1.4        2.4         -0.1         -4%
San Francisco     0.2        0.0         1.0         1.3         3.6        0.9         0.6         261%
Seattle           0.3        0.1         1.2         3.2         1.6        0.4         0.1          30%
St. Louis         0.1        0.0         0.0         0.0         0.0        0.4         0.3         231%
Washington       5.2         9.7        8.2         4.1         6.5         11.6        6.4         124%
Total            467         476        459         422         410         425        -41.9         -9%




                                                  – 97 – 

                                                                                                 APPENDIX V 


DEA Field                           Intelligence Research Specialists FTEs Utilized on
Divisions and                   the Latin America and the Caribbean Section’s PTO Cases
Headquarters    FY 2005   FY 2006    FY 2007      FY 2008   FY 2009      FY 2010      # Change     % Change
Atlanta           0.0       0.0         0.2         0.3        0.0          0.0          0.0         N/A
Boston            4.5       4.4         2.9         1.6        2.5         1.5         -3.0         -67%
Caribbean        12.2      12.8         9.4        10.1        8.7         10.2        -2.0         -17%
Chicago           0.4       1.1         0.4         0.7        0.2         0.2         -0.2         -44%
Dallas            0.2       0.0         0.0         0.0        0.1         0.1         -0.1         -66%
Denver            0.0       0.0         0.0         0.0        0.0         0.0         0.0           N/A
Detroit           0.3       0.0         0.7         0.8        0.6         1.3         1.1          408%
El Paso           0.0       0.0         0.2         0.1        0.0         0.0         0.0           N/A
Headquarters      0.9       0.6         0.7         0.7        0.2         0.1         -0.8         -90%
Houston           0.4       0.1         0.8         1.1        1.0         0.1         -0.3         -73%
Los Angeles       0.0       1.1         1.0         0.1        0.1         0.3         0.2          516%
Miami            27.5      23.0        20.2        21.3        26.2        20.0        -7.5         -27%
New Orleans       0.0       0.2         0.4         0.4        0.6         0.3         0.3           N/A
New York         23.2      20.8        22.5        21.7        20.8        22.3        -0.9          -4%
Newark            1.8       2.1         1.2         1.3        1.0         0.5         -1.4         -75%
Philadelphia      1.7       0.8         1.1         0.6        1.1         1.2         -0.6         -33%
Phoenix           1.4       1.9         0.5         0.3        0.5         0.1         -1.3         -91%
San Diego         0.4       0.6         0.8         1.0        0.6         0.7         0.3           96%
San Francisco     0.2       0.0         0.1         0.6        0.3         0.0         -0.1         -81%
Seattle           0.0       0.0         0.1         0.2        0.3         0.1         0.1          145%
St. Louis         0.0       0.0         0.0         0.0        0.0         0.4         0.4           N/A
Washington        2.0       2.3         1.9         1.7        1.1         2.1         0.1           4%
Total             77        72          65          65          66         61         -15.7         -20%




                                                 – 98 – 

                                                                                                APPENDIX V 


DEA Field       Task Force Officers FTEs Utilized on the Latin America and the Caribbean Section’s PTO Cases
Divisions and
                FY 2005   FY 2006     FY 2007     FY 2008     FY 2009     FY 2010    # Change      % Change
Headquarters
Atlanta           0.6        0.0         0.6         0.4        0.0         0.0         -0.6         -98%
Boston            8.7       13.6         5.9         4.4        3.8         5.6         -3.1         -35%
Caribbean        48.3       46.5        36.4        37.0        40.2        41.1        -7.2         -15%
Chicago           0.5        0.4         0.5         0.8        1.2         3.7          3.2         596%
Dallas            0.5        0.1         0.0         0.0        0.5         0.3         -0.3         -51%
Denver            0.0        0.0         0.0         0.0        0.0         0.0          0.0          N/A
Detroit           0.9        0.3         2.0         3.3        5.5         6.0          5.2         608%
El Paso           0.0        0.2         1.7         0.0        0.0         0.0          0.0          N/A
Headquarters      0.0        0.0         0.0         0.0        0.0         0.0          0.0        -100%
Houston           0.0        0.2         0.5         0.8        0.3         0.7          0.7        3213%
Los Angeles       0.0        1.3         2.2         0.4        1.1         1.4          1.4          N/A
Miami            17.3       14.7        17.0        14.7        13.4        12.6        -4.7         -27%
New Orleans       0.1        0.0         0.5         0.1        4.5         0.2          0.1         49%
New York         47.6       46.6        51.5        50.4        55.6        58.1        10.5         22%
Newark           10.7        9.6         6.0         3.9        0.8         0.3         -10.3        -97%
Philadelphia      5.0        3.8         2.7         2.7        1.9         1.3         -3.7         -73%
Phoenix           0.1        0.1         0.0         0.0        0.0         0.0         -0.1         -98%
San Diego         0.0        0.0         0.0         0.6        1.1         0.4          0.4          N/A
San Francisco     0.0        0.0         0.0         0.0        0.1         0.0          0.0        -100%
Seattle           0.1        0.0         0.2         0.2        0.0         0.0         -0.1        -100%
St. Louis         0.0        0.0         0.0         0.0        0.0         0.0          0.0          N/A
Washington        2.9        5.0         2.9         1.2        2.1         3.1          0.2          8%
Total            143         142         131         121        132         135         -8.5          -6%




                                                  – 99 – 

                                                                                               APPENDIX V


                            REGIONAL AND LOCAL IMPACT SECTION
DEA Field                           Regional and Local Impact Section PTO Cases Worked
Divisions and
                FY 2005   FY 2006      FY 2007    FY 2008    FY 2009    FY 2010    # Change      % Change
Headquarters
Atlanta           78        100          120        164        178        182            104      133%
Boston            58        82           112        126        156        160            102      176%
Caribbean          8        15            21         27         31         28            20       250%
Chicago           84        100          125        173        206        215            131      156%
Dallas            23        32            45         54         75         78            55       239%
Denver            21        24            46         64         98        111            90       429%
Detroit           89        122          164        178        188        209            120      135%
El Paso           16        20            19         28         46         56            40       250%
Headquarters       0         1            0           0         0          0              0        N/A
Houston           33        40            42         51         64         61            28        85%
Los Angeles       54        76           119        147        198        204            150      278%
Miami             103       129          180        220        262        237            134      130%
New Orleans       92        104          122        134        141        151            59        64%
New York          88        124          170        234        286        293            205      233%
Newark            29        38            41         53         65         60            31       107%
Philadelphia      40        53            58         72         91        103            63       158%
Phoenix           17        21            27         40         44         38            21       124%
San Diego         26        39            47         58         78         82            56       215%
San Francisco     38        59            71         80        101         98            60       158%
Seattle           25        43            58         70         83         75            50       200%
St. Louis         85        99           115        143        174        180            95       112%
Washington        126       142          180        180        218        220            94        75%
Total            1,133     1,463        1,882      2,296      2,783      2,841       1,708        151%




                                                 – 100 – 

                                                                                                  APPENDIX V 



DEA Field               Special Agent FTEs Utilized on the Regional and Local Impact Section’s PTO Cases
Divisions and
                FY 2005      FY 2006     FY 2007     FY 2008    FY 2009     FY 2010    # Change     % Change
Headquarters
Atlanta          48.5          56.9        65.1        84.6       97.2        86.8        38.3         79%
Boston           41.7          49.8        60.8        62.6       67.2        71.6        29.9         72%
Caribbean         5.6          9.5         16.0        20.9       15.5        26.3        20.8        373%
Chicago          44.9          50.1        82.9        99.0       96.7       110.9        66.1        147%
Dallas           12.5          18.8        22.1        30.3       36.1        32.0        19.6        157%
Denver           10.4          13.6        30.6        40.6       47.2        45.3        34.9        337%
Detroit          54.3          63.9        87.2        85.5       97.2        96.8        42.5         78%
El Paso          15.6          18.0        14.9        12.7       21.9        19.1        3.5          23%
Headquarters      0.0          0.0          0.0        0.0         0.0        0.0         0.0          N/A
Houston          17.3          20.8        19.0        28.1       44.9        44.1        26.8        154%
Los Angeles      39.1          57.3        77.9        97.1      106.7       114.3        75.2        192%
Miami            70.4          81.2        99.1       131.4      148.7       141.6        71.2        101%
New Orleans      51.9          45.9        59.1        61.3       65.0        74.9        23.0         44%
New York         64.2          83.6        85.4       113.0      159.6       134.4        70.2        109%
Newark           31.9          28.9        35.2        35.1       44.3        38.2        6.2          20%
Philadelphia     23.1          28.9        37.9        43.1       60.5        79.9        56.7        245%
Phoenix          15.9          17.2        32.6        32.6       19.1        22.2        6.3          40%
San Diego        26.7          34.4        35.6        45.2       40.6        38.3        11.6         43%
San Francisco    27.5          45.3        61.1        38.3       33.8        45.7        18.1         66%
Seattle          21.6          30.1        33.8        29.6       47.1        40.1        18.5         86%
St. Louis        43.8          44.2        37.5        52.1       42.6        70.2        26.4         60%
Washington       66.9          71.2        73.2        91.9       91.3        93.6       26.7          40%
Total            734           870        1,067       1,235      1,383       1,426       692.5         94%




                                                    – 101 – 

                                                                                               APPENDIX V 



DEA Field                          Intelligence Research Specialists FTEs Utilized on
Divisions and                     the Regional and Local Impact Section’s PTO Cases
Headquarters    FY 2005   FY 2006   FY 2007      FY 2008   FY 2009      FY 2010     # Change     % Change
Atlanta           4.8       6.0        7.0         11.3      13.6         14.1         9.3        195%
Boston            5.6       4.2        6.5         7.7       10.4        10.1        4.5           81%
Caribbean         0.2       0.7        1.5         2.6        1.5        3.8         3.6          2072%
Chicago           3.8       3.2        8.6        13.4       13.0        12.8        9.0          238%
Dallas            2.1       2.9        3.7         7.2        5.5        6.7         4.6          225%
Denver            0.7       2.0        4.0         6.0        4.9        6.3         5.6          831%
Detroit           4.0       5.1        6.9         8.9       10.9        8.9         4.8          120%
El Paso           0.0       0.0        0.0         0.0        0.0        0.0         0.0           N/A
Headquarters      0.6       1.2        1.5         0.7        1.4        1.0         0.3           49%
Houston           1.8       1.8        2.5         2.8        4.6        4.5         2.7          149%
Los Angeles       2.9       4.0        8.3        15.3       11.3        11.4        8.5          292%
Miami             6.9       6.0        9.6        16.1       17.0        20.4        13.5         195%
New Orleans       5.3       5.2        7.7         6.8       10.2        13.6        8.3          155%
New York          6.5      11.0        10.1        9.3       17.4        18.2        11.7         182%
Newark            3.6       3.5        5.8         5.2        5.8        6.5         3.0           84%
Philadelphia      2.5       3.0        5.7         6.9        6.1        10.6        8.2          328%
Phoenix           1.4       1.2        3.2         3.7        2.7        1.7         0.3           19%
San Diego         3.7       4.0        4.6         7.5        5.1        4.4         0.7           20%
San Francisco     1.1       2.9        8.3         4.2        3.7        5.6         4.5          420%
Seattle           1.2       3.0        4.1         4.8        7.5        8.5         7.3          590%
St. Louis         3.8       3.1        2.1         6.2        8.5        8.6         4.8          126%
Washington        5.6       6.0        7.5        14.5       14.1        16.9        11.3         201%
Total             68        80         119        161        175         194        126.5         186%




                                               – 102 – 

                                                                                                APPENDIX V 



DEA Field          Task Force Officers FTEs Utilized on the Regional and Local Impact Section’s PTO Cases
Divisions and
                FY 2005    FY 2006     FY 2007    FY 2008     FY 2009    FY 2010     # Change     % Change
Headquarters
Atlanta          36.5        35.1        38.4       67.0        72.9       86.2         49.7         136%
Boston           22.6        30.2        35.4       37.4        45.9       52.4         29.8         132%
Caribbean         7.5        12.9        18.0       22.5        23.0       29.8         22.4         300%
Chicago          24.6        29.3        42.3       56.1        51.6       62.5         38.0         155%
Dallas            3.8        14.5        11.3       28.6        24.1       30.3         26.5         704%
Denver            2.0         4.7        8.5        14.4        19.5       22.3         20.3        1020%
Detroit          24.8        30.3        48.5       57.7        63.5       78.8         54.0         218%
El Paso           1.3         4.3        0.8         3.2        6.9         5.7         4.4          337%
Headquarters      0.0         0.0        0.0         0.0        0.0         0.0         0.0           N/A
Houston           1.3         2.5        5.2        14.1        20.3       19.7         18.5        1432%
Los Angeles       2.3        11.1        18.2       29.4        33.6       31.1         28.8        1268%
Miami            23.1        22.8        35.4       45.1        51.4       49.3         26.3         114%
New Orleans      41.9        32.8        50.4       46.0        50.3       62.5         20.7         49%
New York         24.8        41.7        51.8       62.7        72.2       76.9         52.1         210%
Newark            8.9         8.1        13.1       16.8        17.1       13.6         4.7          53%
Philadelphia      4.6         8.6        13.9       19.5        25.5       39.8         35.2         769%
Phoenix           0.8         1.3        3.9        10.0        10.5        5.6         4.8          583%
San Diego         7.0         3.7        3.0         9.6        8.7        12.0         5.1          73%
San Francisco     0.9         3.5        4.9         2.9        2.7         4.1         3.2          355%
Seattle           2.9         9.1        8.2        10.9        22.4       20.9         18.0         618%
St. Louis        29.0        29.6        24.5       42.1        44.1       50.2         21.2         73%
Washington       41.3        33.7        44.3       57.0        51.5       47.9         6.7          16%
Total            311         370         480         653        718         802        490.3         157%




                                                 – 103 – 

                                                                                              APPENDIX V


                                 OFFICE OF DIVERSION SECTION
DEA Field                           Office of Diversion Section PTO Cases Worked
Divisions and
                FY 2005   FY 2006   FY 2007    FY 2008    FY 2009    FY 2010       # Change     % Change
Headquarters
Atlanta           14        20         33         40         51         53           39          279%
Boston            14        18         27         33         52         56           42          300%
Caribbean          3         3         4          5          7           9            6          200%
Chicago           24        26         33         45         43         36           12           50%
Dallas            22        30         36         42         44         35           13           59%
Denver            21        29         44         61         59         38           17           81%
Detroit           28        33         35         39         44         46           18           64%
El Paso            4         8         14         16         25         41           37          925%
Headquarters       1         1         1          2          2           1            0           0%
Houston           13        22         30         33         31         24           11           85%
Los Angeles       68        83        109        134        129         110          42           62%
Miami             31        32         47         48         72         67           36          116%
New Orleans       35        34         46         49         42         40            5           14%
New York          24        37         45         59         59         55           31          129%
Newark             8         9         12         12         12          9            1           13%
Philadelphia      18        22         29         32         23         23            5           28%
Phoenix           17        19         23         31         36         32           15           88%
San Diego         44        49         48         44         50         41            -3          -7%
San Francisco     51        57         72         79         66         61           10           20%
Seattle           19        31         47         65         64         47           28          147%
St. Louis         52        66         74         84         72         56            4           8%
Washington        26        30         34         40         40         38           12           46%
Total            537       659        843        993       1,023       918           381          71%




                                              – 104 – 

                                                                                                  APPENDIX V 



DEA Field                 Special Agent FTEs Utilized on the Office of Diversion Section’s PTO Cases
Divisions and
                FY 2005     FY 2006     FY 2007    FY 2008     FY 2009     FY 2010     # Change        % Change
Headquarters
Atlanta           4.3         8.2         9.5         7.7        8.9         11.0         6.7           157%
Boston            4.4         5.5         8.3         8.5        16.8        15.3        10.9           249%
Caribbean         0.2         1.3         4.7         3.2        3.3         3.8          3.6           2102%
Chicago           6.2         9.0         12.8       11.3        11.2        5.8          -0.4           -6%
Dallas           15.0         17.5        23.1       17.6        20.3        10.7         -4.3          -29%
Denver           11.3         14.0        21.6       18.6        15.7        9.1          -2.1          -19%
Detroit           8.5         6.2         6.8        11.3        9.8         13.0         4.6            54%
El Paso           2.3         3.1         7.4        11.1        16.3        9.2          6.9           302%
Headquarters      0.3         0.4         0.1         0.2        0.1         0.0          -0.3          -100%
Houston          10.9         12.7        23.3       19.2        16.1        13.2         2.3            21%
Los Angeles      69.2         54.4        76.8       64.8        47.9        22.1        -47.2          -68%
Miami             6.7         11.1        18.3       19.4        18.8        38.0        31.3           470%
New Orleans      14.3         28.4        24.5       23.8        14.0        7.7          -6.6          -46%
New York         12.1         16.5        26.8       24.7        17.5        14.5         2.4            20%
Newark            3.9         4.6         6.6         8.7        5.4         6.1          2.2            56%
Philadelphia     13.2         15.3        9.3         6.2        5.6         10.6         -2.6          -20%
Phoenix           5.1         12.7        14.9       14.7        14.6        9.4          4.3            85%
San Diego        24.9         29.1        28.0       21.9        26.9        12.8        -12.1          -49%
San Francisco    26.9         30.5        23.0       40.8        40.6        24.6         -2.3           -8%
Seattle          13.3         12.6        25.4       29.7        25.6        18.0         4.8            36%
St. Louis        14.1         17.6        30.2       22.3        17.2        9.5          -4.5          -32%
Washington       15.3         17.4        13.4       11.8         9.9        11.6         -3.7          -24%
Total            282          328         415        398         362         276          -5.9           -2%




                                                  – 105 – 

                                                                                                 APPENDIX V 



DEA Field       Intelligence Research Specialists FTEs Utilized on the Office of Diversion Section’s PTO Cases
Divisions and
                FY 2005     FY 2006     FY 2007     FY 2008    FY 2009     FY 2010      # Change    % Change
Headquarters
Atlanta           0.1         1.2          0.9         1.7        4.1         4.9          4.8        4970%
Boston            1.0         0.7          1.4         1.3        2.2         3.2          2.2         226%
Caribbean         0.5         0.4          1.1         0.9        1.0         1.2          0.7         145%
Chicago           0.6         0.8          1.3         3.1        4.1         3.4          2.8         451%
Dallas            3.8         2.5          4.0         3.3        7.3         6.1          2.3         59%
Denver            2.2         1.5          2.6         1.5        2.7         0.9         -1.3         -59%
Detroit           1.2         0.8          1.3         4.5        3.9         2.3          1.1         94%
El Paso           0.2         0.3          1.3         2.3        4.6         4.8          4.5        1834%
Headquarters      0.7         2.4          5.5         3.5        3.8         1.6          0.8         112%
Houston           7.3         7.1          9.6        10.1       10.9         7.1         -0.2         -3%
Los Angeles       1.2         1.3          1.8         3.6        5.0         6.7          5.5         470%
Miami             3.4         2.2          2.1         3.6        1.7         1.4         -2.0         -59%
New Orleans       2.6         3.1          3.2         5.5        5.6         5.9          3.3         127%
New York          0.5         0.5          0.8         2.2        2.2         1.3          0.8         163%
Newark            4.1         2.4          1.2         2.7        3.9         3.4         -0.7         -18%
Philadelphia      0.1         1.1          1.3         1.6        1.9         1.4          1.3        1421%
Phoenix           7.8         3.9          5.7         2.2        3.4         1.3         -6.5         -83%
San Diego         3.1         3.6          2.4         7.0        6.8         4.4          1.3         41%
San Francisco     2.3         3.3          5.6         4.2        4.6         2.7          0.4         15%
Seattle           0.0         0.0          0.0         0.0        0.0         0.0          0.0          N/A
St. Louis         2.9         2.4          4.8         3.5        3.2         1.5         -1.4         -48%
Washington        1.8         4.4          4.3         5.6        4.5         3.2          1.4         80%
Total             48           46          62          74         87          69          21.1         44%




                                                  – 106 – 

                                                                                                   APPENDIX V 



DEA Field               Task Force Officers FTEs Utilized on the Office of Diversion Section’s PTO Cases
Divisions and
                FY 2005      FY 2006     FY 2007     FY 2008     FY 2009     FY 2010     # Change     % Change
Headquarters
Atlanta           4.6           5.4         7.8         9.2        11.9        8.2          3.6            77%
Boston            3.3           3.0         3.6         3.2        9.0         8.7          5.4            163%
Caribbean         0.2           0.9         2.0         0.4        2.9         6.4          6.2        2491%
Chicago           5.6           5.4         4.8         5.2        8.9         5.9          0.3            6%
Dallas            6.2           5.1         8.0        10.4        15.0        5.6         -0.6            -9%
Denver            4.5           6.8        12.5        14.2        5.7         2.8         -1.7            -38%
Detroit           5.5           3.8         4.8         9.0        7.3         11.3         5.8            104%
El Paso           0.3           0.8         2.4         0.8        3.3         2.1          1.9            705%
Headquarters      0.0           0.0         0.0         0.0        0.0         0.0          0.0            0%
Houston           2.7           5.4         6.6         6.4        3.6         3.7          1.0            39%
Los Angeles      22.8          11.6        12.7        17.3        12.6        8.5         -14.3           -63%
Miami             1.8           1.8         1.5         4.3        5.7         13.1        11.4            646%
New Orleans      19.3          14.2         9.3        13.7        13.0        6.4         -12.9           -67%
New York          2.6           0.8         2.6         1.6        1.3         2.4         -0.2            -6%
Newark            1.3           1.5         0.6         0.6        0.0         0.0         -1.3        -100%
Philadelphia      7.2           5.0         2.2         0.9        0.9         3.1         -4.1            -57%
Phoenix           0.1           1.3         1.5         3.8        3.9         4.1          4.0        6950%
San Diego         7.5          10.4        10.0         3.4        3.9         2.7         -4.8            -64%
San Francisco     3.5           2.1         0.4         3.2        2.7         1.0         -2.5            -71%
Seattle           3.4           4.4        12.2        13.7        10.8        4.5          1.1            34%
St. Louis        10.7          16.1        23.2        14.3        8.7         7.3         -3.4            -32%
Washington        6.6           7.0         5.8         5.0        4.6         5.3         -1.3            -20%
Total            120           113         135          141        136         113         -6.3            -5%




                                                   – 107 – 

                                                                                                                         APPENDIX VI


                                                  ILLICIT DRUG THREATS
        Appendix VI contains OIG analysis of DEA domestic field divisions’ and headquarters’ casework and resource
utilization data for the DEA’s top illicit drug threat areas – cocaine, methamphetamine, heroin, marijuana, and
hallucinogens. We display the number of illicit drug cases the DEA worked as well as personnel utilization for
special agents, task force officers, and intelligence research specialists working on these drug threats during our
review period, as well as the number and percentage changes.76
 DEA Field                                                         COCAINE CASES WORKED
 Divisions and
 Headquarters           FY 2005      FY 2006      FY 2007        FY 2008       FY 2009        FY 2010        # Change         % Change
 Atlanta                  949          905           900           870            830           768            -181            -19.1%
 Boston                   619          577           510           492            434           335            -284            -45.9%
 Caribbean                338          383           343           347            346           324             -14             -4.1%
 Chicago                  897          998           946           884            845           697            -200            -22.3%
 Dallas                   316          314           309           320            320           299             -17             -5.4%
 Denver                   158          185           164           152            150           130             -28            -17.7%
 Detroit                  660          718           715           664            579           494            -166            -25.2%
 El Paso                  356          337           289           288            283           258             -98            -27.5%
 Headquarters              23           38            34            36             39            44              21             91.3%
 Houston                 1,098        1,076         1,013          883            795           664            -434            -39.5%
 Los Angeles              411          437           459           422            432           400             -11             -2.7%
 Miami                   1,508        1,499         1,377         1,322          1,300         1,151           -357            -23.7%
 New Jersey               233          233           220           194            172           179             -54            -23.2%
 New Orleans              805          779           791           799            649           557            -248            -30.8%
 New York                1,081        1,107         1,033          968            918           857            -224            -20.7%
 Philadelphia             467          464           406           362            328           273            -194            -41.5%
 Phoenix                  182          188           210           198            194           174              -8             -4.4%
 San Diego                244          252           259           267            281           268              24              9.8%
 San Francisco            188          173           174           173            173           121             -67            -35.6%
 Seattle                  249          217           225           211            201           149            -100            -40.2%
 St. Louis                591          566           547           500            434           399            -192            -32.5%
 Washington               911          896           925           779            756           666            -245            -26.9%
 Total                  12,284       12,342        11,849        11,131         10,459         9,207          -3,077           -25.0%




        76
           The sum of the individual numbers for each fiscal year may be greater or less than the totals shown due to rounding. In addition,
the percent changes shown are based on the actual changes of the numbers before rounding.
                                                                 – 108 –
                                                                                                    APPENDIX VI 



                              DEA PERSONNEL UTILIZATION ON COCAINE CASES
                 Special Agent FTEs Utilized on   Task Force Officer FTEs Utilized   Intelligence Research Specialist
DEA Field
                            Cocaine                         on Cocaine                   FTEs Utilized on Cocaine
Divisions and
                 FY      FY       #        %       FY       FY       #        %       FY      FY       #        %
Headquarters
                2005    2010    Change   Change   2005     2010    Change   Change   2005    2010    Change   Change
Atlanta          136     135      -1      -1%      89      139      50      57%       14      28       14      97%
Boston           72      60       -12     -17%     55       38      -17     -31%      9        8       -1      -13%
Caribbean        91      92       1        1%      60       60       1       1%       11      13        2      19%
Chicago          132     113      -19     -14%     65       62       -3      -4%      7       10        3      42%
Dallas           51      46       -5      -9%      33       29       -4     -12%      5        6        1      17%
Denver           31      31       0        0%      11       15       4      40%       7        8        1      12%
Detroit         103      100      -3      -3%      52       69      17      34%       9       12        3      29%
El Paso          46      67       22      48%      8        23      15      199%      29      31        1       4%
Headquarters     52      70       19      36%      0        0        0       0%       27      30        3      12%
Houston          177     189      11       6%      41       57      15      37%       13      12       -1      -11%
Los Angeles      107     98       -9      -8%      27       31       4      14%       28      36        8      30%
Miami            248     299      51      21%      52       66      13      26%       9       10        1       8%
New Jersey       56      37       -19     -33%     23       18       -5     -21%      24      25        1       6%
New Orleans      80      68       -12     -14%     68       66       -3      -4%      5        6        1      26%
New York         206     206      0        0%      97      120      23      24%       5       11        6      109%
Philadelphia     59      69       10      18%      24       38      15      62%       11       8       -2      -22%
Phoenix          54      47       -7      -13%     10       14       4      44%       11       6       -5      -45%
San Diego        66      51      -16      -24%     19       12       -7     -37%      3        4        0      11%
San Francisco    37      21      -16      -43%     5        5        -1     -14%      9       12        3      28%
Seattle          38      33       -6      -15%     11       12       1       8%       5        5        0       9%
St. Louis        59      44       -15     -26%     51       37      -13     -26%      5        5        0       4%
Washington       105     73       -32     -30%     66       43      -23     -35%      11      11        0       2%
Total           2,006   1,948     -57     -3%     867      954      88      10%      259     298       39      15%




                                                       – 109 – 

                                                                                          APPENDIX VI 





DEA Field                                  METHAMPHETAMINE CASES WORKED
Divisions and
                FY 2005   FY 2006   FY 2007    FY 2008      FY 2009   FY 2010   # Change     % Change
Headquarters
Atlanta           337       281       228        198          174       189       -148         -44%
Boston            33        30        25         18           21        20        -13          -39%
Caribbean          1         0         0          0            0         0         -1          -100%
Chicago           292       277       223        166          170       199       -93          -32%
Dallas            332       290       265        262          246       224       -108         -33%
Denver            330       363       302        220          219       208       -122         -37%
Detroit           129       111       88         74           83        59        -70          -54%
El Paso           196       170       135        92           94        90        -106         -54%
Headquarters       2         2         1          5           10        10         8           400%
Houston           241       250       217        141          146       148       -93          -39%
Los Angeles       708       757       706        615          574       621       -87          -12%
Miami             321       272       179        94           104       117       -204         -64%
New Jersey        17        21        15         16           18        11         -6          -35%
New Orleans       336       347       347        282          217       194       -142         -42%
New York          62        57        45         35           31        44        -18          -29%
Philadelphia      66        64        62         64           51        33        -33          -50%
Phoenix           134       175       191        161          124       124       -10          -7%
San Diego         481       384       339        315          369       432       -49          -10%
San Francisco     433       397       383        327          350       330       -103         -24%
Seattle           440       439       393        349          306       266       -174         -40%
St. Louis         682       575       497        427          429       415       -267         -39%
Washington        134       108       105        81           77        69        -65          -49%
Total            5,707     5,370     4,746      3,942        3,813     3,803     -1,904        -33%




                                                – 110 – 

                                                                                                     APPENDIX VI 




                       DEA PERSONNEL UTILIZATION ON METHAMPHETAMINE CASES
                                                                                       Intelligence Research Specialist
                Special Agent FTEs Utilized on   Task Force Officer FTEs Utilized on
DEA Field                                                                                       FTEs Utilized on
                     Methamphetamine                    Methamphetamine
Divisions and                                                                                 Methamphetamine
Headquarters     FY     FY      #        %        FY       FY         #        %        FY     FY       #         %
                2005   2010   Change   Change    2005     2010      Change   Change    2005   2010    Change    Change
Atlanta          20     17      -3      -17%      12        27       14      120%       1       1        0       40%
Boston           5       3      -3      -52%       2        1         -2     -67%       1       0        0       -74%
Caribbean        0       0       0      -80%       0        0         0       0%        0       0        0        N/A
Chicago          25     24      -2       -6%      19        21        2       11%       1       2        1       64%
Dallas           29     24      -5      -16%      18        26        8       48%       3       6        3       82%
Denver           39     37      -2       -5%      15        23        8       55%       3       5        2       79%
Detroit          11      7      -4      -39%       9        6         -3     -38%       1       1        0       94%
El Paso          16      8      -8      -51%       4        6         2       47%       1       0       -1       -94%
Headquarters     10      9      -1       -9%       0         0        0       N/A       7       3       -3       -51%
Houston          43     36      -7      -17%      10        14        4       44%       4       3       -1       -20%
Los Angeles     127     118     -9       -7%      65        54       -11     -17%       8      10        2       28%
Miami            18     17      -1       -6%      10        9         -1      -9%       1       3        2       384%
New Jersey       8       1      -7      -87%       0        0         0      -56%       2       3        1       82%
New Orleans      22     23       1       6%       31        23        -9     -28%       0       0        0       120%
New York         11      5      -6      -55%       1        2         1      174%       0       0        0      -100%
Philadelphia     11      9      -2      -17%       7        5         -2     -24%       1       1        0       15%
Phoenix          37     35      -2       -6%       2        6         4      165%       2       3        1       51%
San Diego        72     77       5       7%       16        21        5       33%       7       9        2       31%
San Francisco    64     51      -13     -20%       7        5         -2     -29%       5       5        1       16%
Seattle          60     32      -28     -46%      15        17        1       10%       7       5       -1       -20%
St. Louis        34     41       7       22%      36        36        0       -1%       5       4        0        -8%
Washington       17      9      -8      -47%       7        3         -3     -50%       1       2        1       145%
Total           681     583     -97     -14%      286      303       17       6%       59      69       10       17%




                                                        – 111 – 

                                                                                        APPENDIX VI 



DEA Field                                     HEROIN CASES WORKED
Divisions and
Headquarters    FY 2005   FY 2006   FY 2007     FY 2008    FY 2009   FY 2010   # Change    % Change
Atlanta           46        35        46          62         63        61        15          33%
Boston            166       156       119         138        165       175        9           5%
Caribbean         77        68        72          59         47        31        -46         -60%
Chicago           120       142       150         148        170       173       53          44%
Dallas            46        44        41          48         59        50         4           9%
Denver            29        27        25          31         34        35         6          21%
Detroit           91        103       116         111        124       135       44          48%
El Paso           33        35        32          31         45        37         4          12%
Headquarters       4        11        13           7         10        18        14          350%
Houston           111       98        88          82         74        63        -48         -43%
Los Angeles       68        89        75          71         82        85        17          25%
Miami             263       215       194         168        146       112       -151        -57%
New Jersey        166       143       112         87         87        79        -87         -52%
New Orleans       48        42        47          49         55        62        14          29%
New York          406       363       368         375        332       311       -95         -23%
Philadelphia      163       167       120         107        117       100       -63         -39%
Phoenix           40        37        32          35         42        41         1           3%
San Diego         61        51        56          48         74        85        24          39%
San Francisco     56        52        47          46         40        33        -23         -41%
Seattle           68        58        48          66         67        77         9          13%
St. Louis         45        51        56          46         53        71        26          58%
Washington        154       141       140         138        168       187       33          21%
Total            2,261     2,128     1,997       1,953      2,054     2,021      -240        -11%




                                               – 112 – 

                                                                                                  APPENDIX VI 



                             DEA PERSONNEL UTILIZATION ON HEROIN CASES
                 Special Agent FTEs Utilized on   Task Force Officer FTEs Utilized   Intelligence Research Specialist
DEA Field
                            Heroin                          on Heroin                    FTEs Utilized on Heroin
Divisions and
                 FY      FY      #          %      FY     FY        #         %       FY      FY       #         %
Headquarters
                2005 2010 Change Change           2005   2010 Change Change          2005    2010 Change Change
Atlanta           8      14      5         64%      5     16       12      251%        2       4       1       60%
Boston           32     29       -3      -9%       13        24     11     84%        3       4        1      18%
Caribbean        11     12       2       14%       11        13     2      17%        3       2       -1      -38%
Chicago          28     33       5       19%       10        19     8      83%        3       2       -1      -39%
Dallas           4       8       4       83%       8         6      -2     -24%       1       2        1      84%
Denver           10      4       -6     -59%       2         3      1      46%        1       1        0      81%
Detroit          18     18       1       4%        7         20     14     198%       2       0       -2      -92%
El Paso          11     11       0       -4%       3         0      -2     -83%       12      9       -3      -25%
Headquarters     17     39      23      138%       0         0      0       N/A       3       1       -2      -75%
Houston          23     10      -13     -55%       5         3      -2     -41%       2       4        2      102%
Los Angeles      23     22       -2      -7%       2         9      7      339%       4       3       -1      -22%
Miami            55     30      -25     -45%       16        9      -7     -45%       1       4        3      206%
New Jersey       27     30       3       10%       15        12     -2     -16%       10      9        0       -4%
New Orleans      10     17       6       61%       12        12     0       -1%       3       6        4      124%
New York         98     76      -22     -22%       29        32     3      12%        3       4        0      12%
Philadelphia     25     24       -2      -6%       11        8      -3     -31%       1       1        0      17%
Phoenix          13      9       -3     -27%       3         2      0      -12%       2       2        1      38%
San Diego        8      10       2       32%       3         5      3      87%        0       2        2      361%
San Francisco    6      13       7      114%       1         1      0      68%        2       2        0      23%
Seattle          5      12       7      130%       1         3      2      129%       0       1        1      377%
St. Louis        8      10       3       36%       7         11     3      47%        1       2        1      127%
Washington       30     41      11       35%       12        23     11     95%        3       8        5      167%
Total           470    473       3       1%       175       233     57     33%        63     74       11      17%




                                                        – 113 – 

                                                                                        APPENDIX VI 



DEA Field                                    MARIJUANA CASES WORKED
Divisions and
Headquarters    FY 2005   FY 2006   FY 2007     FY 2008    FY 2009   FY 2010   # Change    % Change
Atlanta           280       282       258         293        303       377       97          35%
Boston            179       165       139         149        165       160       -19         -11%
Caribbean         26        25        25           36        39        32         6          23%
Chicago           207       182       210         223        230       270       63          30%
Dallas            118       119       125         140        141       126        8           7%
Denver            113       145       148         102        110       105        -8         -7%
Detroit           341       289       363         364        365       344        3           1%
El Paso           971       901       793         678        489       354       -617        -64%
Headquarters       0         0         0           0          0         0         0          N/A
Houston          1,338     1,201     1,208        950        731       675       -663        -50%
Los Angeles       270       290       263         364        339       352       82          30%
Miami             455       423       452         436        398       327       -128        -28%
New Jersey        39        28        31           22        33        34         -5         -13%
New Orleans       239       214       198         207        209       188       -51         -21%
New York          291       269       250         273        278       271       -20         -7%
Philadelphia      108       107       88           92        92        76        -32         -30%
Phoenix           734       726       665         630        918      1,011      277         38%
San Diego         367       412       442         415        410       369        2           1%
San Francisco     146       197       211         228        268       261       115         79%
Seattle           254       236       242         252        212       201       -53         -21%
St. Louis         316       294       274         283        274       330       14           4%
Washington        217       184       241         246        277       270       53          24%
Total            7,009     6,689     6,626       6,383      6,281     6,133      -876        -12%




                                               – 114 – 

                                                                                                    APPENDIX VI 



                             DEA PERSONNEL UTILIZATION ON MARIJUANA CASES
                 Special Agent FTEs Utilized on    Task Force Officer FTEs Utilized    Intelligence Research Specialist
DEA Field
                           Marijuana                        on Marijuana                  FTEs Utilized on Marijuana
Divisions and
                 FY      FY       #         %      FY      FY        #         %       FY       FY        #         %
Headquarters
                2005    2010 Change Change        2005    2010 Change Change          2005     2010     Change Change
Atlanta          16      16       0        1%       7      22        15     218%        0        2        2       794%
Boston           15     18       3       21%       7        12      5       78%        2        2        0       8%
Caribbean        2       3       1       25%       2         0      -2      -90%       0        4        3      742%
Chicago          17     23       6       37%       7        16      9       130%       0        1        1     1079%
Dallas           2       5       3      126%       5         6      1       12%        0        0        0       37%
Denver           5       9       4       91%       1         2      1       107%       5        2       -3      -55%
Detroit          38     34       -4     -11%       38       33      -5      -12%       4        8        5      132%
El Paso          42     37       -4     -10%       15       11      -3      -22%       3        3        0       3%
Headquarters     8       8       -1      -6%       0         0      0        0%        4        6        3       69%
Houston          49     63       14      28%       19       26      7       39%        1        1        0      -36%
Los Angeles      15     21       5       36%       2         8      6       298%       1        3        2      128%
Miami            38     37       -1      -2%       10       13      3       29%        1        2        1       88%
New Jersey       4       1       -2     -60%       3         1      -2      -77%       2        4        2       89%
New Orleans      10      9       -1      -7%       10        8      -2      -17%       0        0        0      -75%
New York         30     36       5       17%       14       18      5       33%        0        1        0      193%
Philadelphia     4       5       2       51%       2         4      1       48%        3        5        3       86%
Phoenix          39     55       15      38%       9        15      7       77%        2        2        0       13%
San Diego        23     21       -2      -9%       10       14      4       42%        1        2        1       72%
San Francisco    18     28       10      53%       1         1      0       -13%       0        0        0      333%
Seattle          26     23       -3     -11%       8        12      4       47%        3        3        1       25%
St. Louis        8      17       9      117%       9        15      6       67%        1        2        1      127%
Washington       11     16       5       44%       6         9      3       57%        2        2        0       -5%
Total           421     486      65      16%      184      246      63      34%        35      56       21       58%




                                                        – 115 – 

                                                                                      APPENDIX VI 




DEA Field                              HALLUCINOGENS CASES WORKED
Divisions and
Headquarters    FY 2005   FY 2006   FY 2007   FY 2008     FY 2009   FY 2010   # Change   % Change
Atlanta           53        45        49         58         42        39        -14        -26%
Boston            28        36        34         27         17        13        -15        -54%
Caribbean          7         6         3          2          0         0         -7        -100%
Chicago           60        59        57         59         71        57         -3         -5%
Dallas            46        33        32         22         30        20        -26        -57%
Denver            24        26        20         22         27        19         -5        -21%
Detroit           54        59        74         71         63        25        -29        -54%
El Paso           14         9         6          8         10        15         1          7%
Headquarters       2         3         2          3          3         2         0          0%
Houston           53        40        28         25         26        34        -19        -36%
Los Angeles       74        90        82         77         82        70         -4         -5%
Miami             169       159       125        113        112       69        -100       -59%
New Jersey        16        20        19         11          7         8         -8        -50%
New Orleans       80        73        54         58         50        38        -42        -53%
New York          135       131       79         67         57        49        -86        -64%
Philadelphia      31        23        25         20         16        15        -16        -52%
Phoenix           11         9         7         10          8         7         -4        -36%
San Diego         29        26        23         29         34        31         2          7%
San Francisco     60        53        63         49         59        58         -2        -3%
Seattle           61        47        61         50         42        48        -13        -21%
St. Louis         45        43        47         37         37        37         -8        -18%
Washington        50        49        47         38         37        37        -13        -26%
Total            1,102     1,039     937        856        830       691        -411       -37%




                                              – 116 – 

                                                                                                   APPENDIX VI 



                      DEA PERSONNEL UTILIZATION ON HALLUCINOGENS CASES
                 Special Agent FTEs Utilized on   Task Force Officer FTEs Utilized   Intelligence Research Specialist
DEA Field
                         Hallucinogens                   on Hallucinogens             FTEs Utilized on Hallucinogens
Divisions and
                 FY      FY       #         %      FY     FY        #         %       FY       FY       #         %
Headquarters
                2005    2010 Change Change        2005   2010 Change Change          2005     2010 Change Change
Atlanta           9       2       -7      -80%      6      2        -4     -73%        2        1       -1      -62%
Boston           10      1       -9     -92%       3        0      -3      -90%       1       0       -1     -100%
Caribbean        2       0       -1     -96%       0        0       0     -100%       0       0        0      -84%
Chicago          8       2       -5     -73%       4        3      -1      -24%       1       1        0      -43%
Dallas           7       1       -5     -79%       2        1      -2      -61%       2       0       -1      -94%
Denver           5       2       -2     -55%       1        2       0       30%       0       0        0      -19%
Detroit          6       3       -3     -54%       2        3       1       51%       0       1        1       N/A
El Paso          1       4       3      422%       0        1       1     1497%       4       1       -4      -87%
Headquarters     5       2       -3     -68%       0        0       0       N/A       1       0       -1      -73%
Houston          13      5       -7     -56%       0        0       0      -22%       3       1       -2      -64%
Los Angeles      28     15      -13     -46%       2        3       1       30%       3       1       -3      -77%
Miami            25      9      -16     -65%       4        1      -3      -81%       1       0       -1      -53%
New Jersey       4       0       -4     -90%       0        0       0       4%        2       1       -1      -65%
New Orleans      6       3       -2     -42%       4        5       1       26%       0       0        0      131%
New York         26     11      -15     -59%       3        2      -1      -40%       2       0       -1      -86%
Philadelphia     8       1       -7     -86%       0        0       0      -12%       0       0        0      31%
Phoenix          2       7       5      182%       0        1       1     1515%       1       1        0      -29%
San Diego        5       6       2       33%       3        1      -2      -61%       2       3        1      72%
San Francisco    17     10       -7     -41%       2        1      -1      -71%       0       0        0       N/A
Seattle          3       4       1       26%       1        1       0       31%       0       1        0      155%
St. Louis        4       1       -3     -69%       4        1      -3      -74%       0       0        0      58%
Washington       3       7       4      124%       2        3       1       73%       0       2        1      366%
Total           194     98      -96     -50%       44       30     -14     -32%       26      13      -12     -47%




                                                       – 117 – 

                                                                                                                        APPENDIX VII


                                                DIVERTED DRUG THREATS
        Appendix VII contains OIG analysis of DEA domestic field divisions’ and headquarters’ casework and resource
utilization data for the DEA’s top diverted drug threat areas – oxycodone, hydrocodone, Schedule II narcotics, all
other pharmaceuticals, and steroids. We display the number of diverted drug cases the DEA worked as well as
personnel utilization for special agents, task force officers, and intelligence research specialists working on these
drug threats during our review period, as well as the number and percentage changes.77
DEA Field Divisions                                               OXYCODONE CASES WORKED
and Headquarters        FY 2005      FY 2006        FY 2007       FY 2008    FY 2009     FY 2010                # Change       % Change
      Atlanta              18           36             38            47         56          72                     54           300%
      Boston               50           63             70            92        127         182                     132          264%
    Caribbean               0            0              1             1          2           7                      7             N/A
     Chicago               11           13             16            21         28          27                     16           145%
      Dallas                2            3              4             7         11           9                      7           350%
      Denver               24           31             27            36         24          47                     23            96%
      Detroit              45           53             79           100        121         154                     109          242%
      El Paso               1            4              2             2          9          21                     20           2000%
  Headquarters              0            0              0             0          0           0                      0             N/A
     Houston                4            5              1             1          2          11                      7           175%
   Los Angeles             20           22             38            47         46          52                     32           160%
       Miami               33           40             43            44         95         193                     160          485%
   New Jersey               4            5              9            25         39          33                     29           725%
   New Orleans              6            3              6            10         12          14                      8           133%
    New York                9           15             21            25         31          64                     55           611%
   Philadelphia            23           32             21            34         34          40                     17            74%
     Phoenix               13           13             15            16         29          31                     18           138%
    San Diego               1            5              6            18         34          32                      31          3100%
  San Francisco             3            2              7            12         12          10                      7           233%
      Seattle              21           31             45            36         51         109                      88          419%
     St. Louis             45           49             34            33         33          27                     -18           -40%
   Washington              50           46             41            40         42          53                      3             6%
       Total              383          471            524           647        838        1,188                    805          210%




        77
           The sum of the individual numbers for each fiscal year may be greater or less than the totals shown due to rounding. In addition,
the percent changes shown are based on the actual changes of the numbers before rounding.
                                                                 – 118 –
                                                                                                     APPENDIX VII 



                               DEA PERSONNEL UTILIZATION ON OXYCODONE CASES
                  Special Agent FTEs Utilized on    Task Force Officer FTEs Utilized on   Intelligence Research Specialist
DEA Field
                            Oxycodone                           Oxycodone                   FTEs Utilized on Oxycodone
Divisions and
                 FY      FY       #          %        FY     FY       #           %        FY       FY      #        %
Headquarters
                2005   2010 Change         Change   2005 2010 Change          Change      2005    2010 Change Change
Atlanta         0.11    3.56     3.45      3120%     0.00   3.35     3.35       N/A       0.00     2.15    2.15     N/A
Boston          6.94    19.90    12.96    187%      3.10    10.94   7.84      253%        1.15    3.35    2.20     191%
Caribbean       0.02    0.91     0.89    3860%      0.00    2.14    2.14       N/A        0.00    0.00    0.00      N/A
Chicago         0.05    0.62     0.57    1085%      0.02    0.28    0.27      1746%       0.04    0.90    0.86    1977%
Dallas          0.00    1.64     1.64    35545%     0.00    0.98    0.98       N/A        0.00    0.99    0.99      N/A
Denver          0.01    8.12     8.12    117338%    0.15    3.15    3.00      1955%       0.00    1.54    1.54      N/A
Detroit         0.88    9.85     8.97    1023%      0.52    8.06    7.54      1455%       0.36    1.80    1.44     395%
El Paso         0.27    3.52     3.25    1211%      0.00    2.02    2.02       N/A        0.10    1.41    1.31    1369%
Headquarters    0.04    2.10     2.06    5095%      0.00    0.00    0.00       N/A        0.04    0.46    0.42    1110%
Houston         0.01    0.70     0.69    7489%      0.00    0.42    0.42       N/A        0.00    0.00    0.00      N/A
Los Angeles     2.56    9.13     6.57     257%      0.00    1.49    1.49       N/A        0.60    2.91    2.31     388%
Miami           1.45    32.50    31.06   2145%      0.00    15.60   15.60    490031%      0.65    5.60    4.96     768%
New Jersey      0.04    2.90     2.86    7641%      0.00    0.00    0.00       N/A        0.00    1.10    1.10      N/A
New Orleans     0.10    2.19     2.08    1996%      0.18    0.93    0.76      432%        0.00    0.20    0.20      N/A
New York        2.14    9.76     7.62     356%      0.00    4.55    4.55       N/A        0.00    2.87    2.87      N/A
Philadelphia    0.00    3.14     3.14    136174%    0.00    1.26    1.26       N/A        0.00    0.40    0.40      N/A
Phoenix         0.40    2.21     1.81     458%      0.00    2.57    2.57       N/A        0.00    0.72    0.72      N/A
San Diego       0.00    6.38     6.38      N/A      0.00    1.08    1.08       N/A        0.00    0.46    0.46      N/A
San Francisco   0.01    2.34     2.33    25282%     0.00    0.01    0.01       N/A        0.00    0.34    0.34      N/A
Seattle         0.13    7.35     7.22    5616%      0.01    3.54    3.53     31649%       0.01    1.14    1.13    9487%
St. Louis       1.11    2.38     1.27     114%      0.55    0.58    0.03        5%        0.07    0.91    0.84    1129%
Washington      3.25     5.30    2.05      63%      1.02    2.20    1.19      117%        1.28    1.22    -0.06     -5%
Total           19.52   136.5   116.99    599%      5.54    65.1    59.62     1076%       4.30   30.49   26.19     609%




                                                        – 119 – 

                                                                                      APPENDIX VII 



DEA Field                              HYDROCODONE CASES WORKED
Divisions and
Headquarters    FY 2005   FY 2006   FY 2007   FY 2008     FY 2009   FY 2010   # Change   % Change

Atlanta            9        19        24         26         33        36        27         300%
Boston             8         7        10         10          9         7         -1        -13%
Caribbean          2         0         0          0          0         0         -2       -100%
Chicago           19        33        42         46         46        41        22         116%
Dallas            28        34        40         39         37        31         3         11%
Denver            36        41        37         36         35        36         0         0%
Detroit           22        27        37         34         22        17         -5        -23%
El Paso            6        12        13         11         15        33        27         450%
Headquarters       0         0         0          0          0         0         0         N/A
Houston           90        93        71         90         112       138       48         53%
Los Angeles       11        35        37         41         35        31        20         182%
Miami             46        50        60         54         51        40         -6        -13%
New Jersey         3         3         7          8          7         3         0         0%
New Orleans        6        12        36         52         83        59        53         883%
New York          17        37        39         38         28        18         1         6%
Philadelphia      15        21        16         27         21        18         3         20%
Phoenix            7        23        26         26         17         9         2         29%
San Diego          5        13        14         26         45        28        23         460%
San Francisco      0         2         7          9         12        13        13         N/A
Seattle           23        35        20         18         15        20         -3        -13%
St. Louis         69        86        83         64         62        41        -28        -41%
Washington        17        23        18         17         24        22         5         29%
Total            439       606       637         672       709       641        202        46%




                                              – 120 – 

                                                                                                  APPENDIX VII 



                         DEA PERSONNEL UTILIZATION ON HYDROCODONE CASES
                 Special Agent FTEs Utilized on    Task Force Officer FTEs Utilized    Intelligence Research Specialist
DEA Field
                          Hydrocodone                     on Hydrocodone                 FTEs Utilized on Hydrocodone
Divisions and
                 FY     FY      #          %       FY      FY       #         %         FY      FY        #        %
Headquarters
                2005 2010 Change         Change   2005 2010 Change         Change     2005     2010 Change      Change
Atlanta         0.09   1.16    1.07      1170%    0.05    0.26     0.21     381%      0.00     0.88     0.88      N/A
Boston          0.12   0.07   -0.05     -41%      0.20    0.05    -0.15     -75%      0.00    0.00    0.00       N/A
Caribbean       0.00   0.05    0.05      N/A      0.00    0.00    0.00       N/A      0.00    0.00    0.00       N/A
Chicago         0.15   1.88    1.73     1166%     0.37    1.26    0.90      244%      0.00    0.21    0.21       N/A
Dallas          0.06   1.66    1.60     2640%     0.02    0.27    0.24     1022%      0.00    1.58    1.58       N/A
Denver          0.01   0.20    0.19     1825%     0.23    0.87    0.64      282%      0.00    0.02    0.02       N/A
Detroit         0.25   0.29    0.04      17%      0.02    0.15    0.13      812%      0.13    0.01    -0.12     -91%
El Paso         0.02   0.73    0.71     4119%     0.01    0.18    0.16     1293%      0.00    0.79    0.79     79952%
Headquarters    0.35   0.12   -0.23     -66%      0.00    0.00    0.00       N/A      0.16    0.72    0.56      341%
Houston         1.05   3.02    1.96     186%      0.48    1.68    1.20      249%      0.00    1.08    1.08       N/A
Los Angeles     0.37   1.28    0.91     245%      0.00    0.84    0.84    52614%      0.06    1.01    0.95     1653%
Miami           0.40   1.21    0.81     206%      0.01    0.31    0.30     2006%      0.11    0.61    0.49      434%
New Jersey      0.01   0.22    0.21     2241%     0.00    0.00    0.00       N/A      0.00    0.27    0.27       N/A
New Orleans     0.00   2.72    2.72    78560%     0.06    1.55    1.48     2351%      0.00    0.33    0.33       N/A
New York        0.23   0.33    0.10      42%      0.00    0.02    0.02       N/A      0.33    0.18    -0.15     -45%
Philadelphia    0.11   0.25    0.14     128%      0.02    0.08    0.06      267%      0.01    0.04    0.03      241%
Phoenix         0.13   0.37    0.24     193%      0.00    0.03    0.03       N/A      0.02    0.01    -0.01     -40%
San Diego       0.00   1.29    1.29      N/A      0.00    0.02    0.02       N/A      0.00    0.17    0.17       N/A
San Francisco   0.00   0.04    0.04      N/A      0.00    0.00    0.00       N/A      0.00    0.03    0.03       N/A
Seattle         0.01   1.84    1.83    14411%     0.00    0.57    0.57       N/A      0.00    0.06    0.06       N/A
St. Louis       0.15   1.02    0.87     596%      0.91    0.67    -0.23     -26%      0.01    0.40    0.39     6563%
Washington      0.03   0.28    0.25     736%      0.01    0.10    0.09      823%      0.00    0.16    0.16       N/A
Total           3.54   20.0   16.49     465%      2.40   8.90     6.50      271%      0.83    8.55    7.72      929%




                                                      – 121 – 

                                                                                         APPENDIX VII 



DEA Field                 SCHEDULE II PHARMACEUTICAL NARCOTICS CASES WORKED
Divisions and
Headquarters    FY 2005   FY 2006   FY 2007   FY 2008     FY 2009   FY 2010   # Change      % Change

Atlanta           35        38        43        46          54        56        21            60%
Boston            60        51        45        49          42        47        -13           -22%
Caribbean         11        11         9         8           8        11         0            0%
Chicago           14        18        16        15          20        16         2            14%
Dallas             4         6        11        11           9        14        10            250%
Denver            29        23        15        12          11        24         -5           -17%
Detroit           47        34        43        49          44        40         -7           -15%
El Paso            6         8         4         5           6         7         1            17%
Headquarters       0         0         0         0           0         0         0            N/A
Houston            7         2         7        10          12        12         5            71%
Los Angeles       14        15        19        24          26        18         4            29%
Miami             59        60        49        57          57        44        -15           -25%
New Jersey        30        27        33        36          22        22         -8           -27%
New Orleans       57        50        45        52          26        52         -5           -9%
New York          20        16        14        20          27        26         6            30%
Philadelphia      37        33        32        53          60        32         -5           -14%
Phoenix           19        19        23        22          40        37        18            95%
San Diego         16        13        16        15           6         8         -8           -50%
San Francisco     13        14        11        12          15        14         1            8%
Seattle           12        28        25        26          23        13         1            8%
St. Louis         21        20        26        32          29        33        12            57%
Washington        17        25        27        36          42        43        26            153%
Total            528       511       513       590         579       569        41            8%




                                              – 122 – 

                                                                                                       APPENDIX VII 




            DEA PERSONNEL UTILIZATION ON SCHEDULE II PHARMACEUTICAL NARCOTICS CASES
                 Special Agent FTEs Utilized on   Task Force Officer FTEs Utilized on    Intelligence Research Specialist
DEA Field         Schedule II Pharmaceutical          Schedule II Pharmaceutical           FTEs Utilized on Schedule II
Divisions and              Narcotics                           Narcotics                     Pharmaceutical Narcotics
Headquarters     FY     FY       #         %        FY      FY        #         %         FY      FY       #        %
                2005 2010 Change         Change   2005    2010     Change    Change     2005     2010 Change     Change
Atlanta         0.26   4.40     4.14     1614%     0.17    2.12     1.95     1166%      0.00     1.11    1.11      N/A
Boston           2.12   0.59   -1.53    -72%      1.43      0.35     -1.08    -75%      0.18    0.17     -0.01     -6%
Caribbean        0.14   3.75   3.61    2523%      0.09      6.18     6.09    7133%      0.56    1.21     0.65     117%
Chicago          0.18   0.76   0.58     326%      0.00      0.12     0.12    7553%      0.03    0.15     0.12     419%
Dallas           0.01   1.14   1.14    21953%     0.01      0.52     0.51    8816%      0.00    0.71     0.71      N/A
Denver           0.44   1.36   0.92     206%      0.23      0.49     0.26    112%       0.00    0.37     0.37    18505%
Detroit          0.46   4.91   4.45     967%      1.09      5.62     4.53    417%       0.21    1.26     1.05     510%
El Paso          0.07   0.83   0.76    1094%      0.03      0.04     0.02     59%       0.00    0.18     0.18      N/A
Headquarters     0.10   0.17   0.06      59%      0.00      0.00     0.00     N/A       0.17    0.39     0.22     126%
Houston          0.11   0.11   0.00      0%       0.00      0.10     0.10    9497%      0.00    0.08     0.08      N/A
Los Angeles      0.08   2.61   2.53    3279%      0.01      2.86     2.85    33633%     0.01    0.38     0.37    6240%
Miami            1.57   7.08   5.51     352%      0.15      1.38     1.23    809%       0.00    0.29     0.29      N/A
New Jersey       0.77   3.30   2.53     327%      1.25      0.01     -1.25   -100%      0.09    1.28     1.19    1263%
New Orleans      2.58   2.18   -0.40    -16%      2.11      1.59     -0.52    -25%      0.36    0.52     0.16     45%
New York         0.95   0.48   -0.48    -50%      0.04      0.22     0.17    396%       0.00    1.47     1.47      N/A
Philadelphia     0.31   1.45   1.15     372%      0.05      1.58     1.54    3218%      0.05    0.66     0.61    1143%
Phoenix          0.70   4.19   3.48     497%      0.00      1.76     1.76     N/A       0.00    0.83     0.83    41957%
San Diego        0.28   0.27   -0.01     -2%      0.00      0.00     0.00     N/A       0.01    0.05     0.04     408%
San Francisco    0.07   1.87   1.80    2515%      0.00      0.04     0.04     N/A       0.00    0.51     0.51      N/A
Seattle          0.11   0.12   0.01      10%      0.07      0.01     -0.06    -83%      0.00    0.02     0.02      N/A
St. Louis        0.30   0.67   0.37     126%      0.29      0.71     0.42    148%       0.03    0.13     0.10     311%
Washington       3.71   2.95   -0.76    -20%      0.79      1.72     0.92    116%       0.00    0.66     0.66      N/A
Total            15.3   45.1   29.87    195%      7.80     27.42     19.62   252%       1.71    12.4     10.74    628%




                                                         – 123 – 

                                                                                          APPENDIX VII 




DEA Field        ALL OTHER PHARMACEUTICAL CONTROLLED SUBSTANCES CASES WORKED
Divisions and
Headquarters    FY 2005   FY 2006   FY 2007   FY 2008      FY 2009   FY 2010   # Change    % Change

Atlanta            8         6        15        15           22        17         9          113%
Boston             7         6         6         7            7         7         0           0%
Caribbean          7         7         5         2            2         2         -5         -71%
Chicago           10        10        10        11            9        10         0           0%
Dallas            10        13        18        17           14        12         2          20%
Denver            20        21        19        15            7         8        -12         -60%
Detroit           9         11        12         8            7        10         1          11%
El Paso            2         0         0         2            6         8         6          300%
Headquarters      0         0         0          0           0         0          0           N/A
Houston           36        20        12        13           13        17        -19         -53%
Los Angeles       14        18        19        13           11        10         -4         -29%
Miami             12        22        26        29           24        23        11          92%
New Jersey        11        9         16        15           13        10         -1          -9%
New Orleans       10        9         8          9           19        24        14          140%
New York          12        16        13        10           13        17         5          42%
Philadelphia       7        16        22        19           25        16         9          129%
Phoenix            5        10         8         7            4         3         -2         -40%
San Diego         13         8        10        12           10        13         0           0%
San Francisco      8        10        11        15           17        17         9          113%
Seattle            4         4         8        11           11        11         7          175%
St. Louis         14        13        13        11           15        18         4          29%
Washington        11        15        16        13           15        13         2          18%
Total            230       244       267       254          264       266        36          16%




                                               – 124 – 

                                                                                                      APPENDIX VII 



                                DEA PERSONNEL UTILIZATION ON
                ALL OTHER PHARMACEUTICAL CONTROLLED SUBSTANCES NARCOTIC CASES
                                                                                           Intelligence Research Specialist
                Special Agent FTEs Utilized on All   Task Force Officer FTEs Utilized on
                                                                                              FTEs Utilized on All Other
DEA Field       Other Pharmaceutical Controlled          All Other Pharmaceutical
                                                                                              Pharmaceutical Controlled
Divisions and              Substances                      Controlled Substances
                                                                                                      Substances
Headquarters
                 FY      FY       #         %         FY      FY       #         %          FY      FY      #         %
                2005    2010    Change    Change     2005    2010    Change    Change      2005 2010 Change         Change
Atlanta         0.02    0.58     0.56     2837%      0.00    0.38     0.38      N/A        0.00    0.01    0.01       N/A
Boston           0.60    0.96     0.36      60%       0.17    0.00    -0.17     -100%      0.00   0.66     0.66    22121%
Caribbean        0.08    0.20     0.12     153%       0.26    0.07    -0.19     -72%       0.00   0.40     0.40      N/A
Chicago          0.13    0.32     0.19     144%       0.00    0.00    0.00       N/A       0.00   1.25     1.25      N/A
Dallas           5.22    0.00    -5.22    -100%       3.17    0.01    -3.16     -100%      1.82   0.28    -1.53     -84%
Denver           0.62    0.01    -0.61     -98%       0.90    0.17    -0.74     -81%       0.01   0.00    -0.01    -100%
Detroit          0.06    0.10     0.04      67%       0.04    0.03    -0.01     -33%       0.00   0.10     0.10      N/A
El Paso          0.02    0.22     0.20    1291%       0.00    0.03    0.03       N/A       0.00   0.16     0.16      N/A
Headquarters     1.12    1.29     0.17     15%        0.00    0.00    0.00       N/A       2.49   0.95    -1.54     -62%
Houston          0.28    0.65     0.37     133%       0.05    0.09    0.04       89%       0.00   0.17    0.17       N/A
Los Angeles      1.83    2.29     0.47      25%       0.08    0.15    0.07       94%       0.45   1.08     0.63     138%
Miami            0.91    0.24    -0.68     -74%       0.15    0.49    0.34      233%       0.04   0.05     0.01     29%
New Jersey       0.05    0.26     0.22     475%       0.00    0.00    0.00      -100%      0.05   0.04    -0.01     -16%
New Orleans      0.05    0.96     0.90    1741%       0.00    0.99    0.99     92930%      0.02   0.12     0.10     399%
New York         2.16    1.83    -0.33     -15%       1.57    0.18    -1.39     -89%       0.88   1.08     0.20     23%
Philadelphia     3.77    2.13    -1.64     -43%       1.19    0.43    -0.76     -64%       1.06   0.87    -0.18     -17%
Phoenix          0.21    0.00    -0.20     -99%       0.00    0.00    0.00       N/A       0.00   0.00     0.00      N/A
San Diego        0.25    0.84     0.59     237%       0.11    0.02    -0.09     -79%       0.00   0.64     0.64      N/A
San Francisco    0.36    3.58     3.22     895%       0.00    0.02    0.02       N/A       0.00   0.14     0.14      N/A
Seattle          0.10    0.15     0.04      44%       0.00    0.02    0.02     2104%       0.19   0.01    -0.18     -93%
St. Louis        0.06    0.18     0.12     222%       0.15    0.12    -0.03     -20%       0.00   0.01     0.01     592%
Washington       0.08    0.42     0.34     418%       0.13    0.11    -0.02     -19%       0.00   0.02     0.01     731%
Total           17.98   17.22    -0.75      -4%      7.98    3.32     -4.66     -58%       7.01   8.06     1.05     15%




                                                         – 125 – 

                                                                                        APPENDIX VII 



DEA Field                           STEROID (PHARMACEUTICAL) CASES WORKED
Divisions and
Headquarters    FY 2005   FY 2006    FY 2007   FY 2008      FY 2009   FY 2010   # Change    % Change

Atlanta            4         6          7         5            6         7         3           75%
Boston            12        10         11        13           15        12         0           0%
Caribbean          3         4          2         2            2         1         -2         -67%
Chicago            5         9          9         8            7         7         2           40%
Dallas             5         6          7        12           12        10         5          100%
Denver             4         4          7         8            4         4         0           0%
Detroit           12         9         10         5            8         7         -5         -42%
El Paso            2         2          1         1            0         1         -1         -50%
Headquarters       0         0          0         0            0         0         0           N/A
Houston           15        15         15         9            6         7         -8         -53%
Los Angeles        2         4         14        13            9        10         8          400%
Miami              8         8          6         8           13         8         0           0%
New Jersey         0         1          1         5            4         4         4           N/A
New Orleans        4         6          1         6            7         4         0           0%
New York           6         7         17        11            7         7         1           17%
Philadelphia       3         2          4         6            2         4         1           33%
Phoenix            6         5          7         6            7         7         1           17%
San Diego         16        21         20        17            5         8         -8         -50%
San Francisco     10         7          6         7            4         6         -4         -40%
Seattle            6        10          7         6            7         8         2           33%
St. Louis          5         4          5         3            2         3         -2         -40%
Washington         4         3          4         5            5         3         -1         -25%
Total            132       143        161       156          132       128         -4          -3%




                                                – 126 – 

                                                                                                       APPENDIX VII 



                  DEA PERSONNEL UTILIZATION ON STEROID (PHARMACEUTICAL) CASES
                                                                                         Intelligence Research Specialist
                 Special Agent FTEs Utilized on   Task Force Officer FTEs Utilized on
DEA Field                                                                                    FTEs Utilized on Steroids
                   Steroids (Pharmaceutical)          Steroids (Pharmaceutical)
Divisions and                                                                                    (Pharmaceutical)
Headquarters     FY      FY        #        %      FY         FY         #        %      FY        FY        #         %
                2005    2010    Change   Change   2005       2010     Change   Change   2005     2010     Change Change
Atlanta         0.15    0.04     -0.11    -76%    0.95       0.14      -0.81    -85%    0.00      0.01     0.01      N/A
Boston          0.79    2.14     1.35     172%     0.16      1.96      1.79    1102%    0.00    0.29       0.29    N/A
Caribbean       0.24    0.02    -0.22     -92%     0.02      0.00     -0.02    -100%    N/A      N/A       N/A     N/A
Chicago         0.65    1.42     0.77     117%     0.39      0.78      0.39     98%     0.01    0.33       0.33   5486%
Dallas          0.06    0.22     0.17     287%     0.08      0.01     -0.07    -92%     0.00    0.00       0.00    N/A
Denver          0.12    0.00    -0.12    -100%     0.01      0.00     -0.01    -83%     0.01    0.00      -0.01   -100%
Detroit         0.65    0.42    -0.24     -36%     0.20      0.64      0.44    221%     0.12    0.01      -0.12   -95%
El Paso         0.01    0.63     0.62    4473%     0.13      0.00     -0.13    -100%    0.00    0.43       0.43    N/A
Headquarters    0.46    0.35    -0.11     -24%     0.00      0.00      0.00     N/A     1.94    0.38      -1.56   -81%
Houston         1.29    2.43     1.14     88%      0.00      0.00      0.00    -100%    0.05    0.02      -0.03   -55%
Los Angeles     0.05    0.67     0.62    1260%     0.02      0.00     -0.02    -100%    0.00    0.18       0.18    N/A
Miami           0.69    2.75     2.06     298%     0.16      1.26      1.10    666%     0.00    0.13       0.13    N/A
New Jersey      0.00    0.02     0.02      0%      0.00      0.00      0.00     N/A     0.00    0.00       0.00    N/A
New Orleans     0.73    0.08    -0.64     -89%     0.05      0.05     -0.01    -16%     0.04    0.00      -0.04   -100%
New York        1.10    1.51     0.41     38%      1.01      0.03     -0.98    -97%     0.00    0.19       0.19    N/A
Philadelphia    0.02    1.95     1.93    7953%     0.36      0.50      0.14     40%     0.01    0.30       0.30   5009%
Phoenix         0.92    0.61    -0.30     -33%     0.01      0.27      0.26    2016%    0.00    0.05       0.04   1470%
San Diego       4.96    0.04    -4.91     -99%     0.68      0.01     -0.66    -98%     2.78    0.03      -2.74   -99%
San Francisco   0.71    0.73     0.02      3%      0.08      0.03     -0.06    -66%     0.00    0.09       0.09    N/A
Seattle         0.20    0.32     0.11     56%      0.01      0.00     -0.01    -100%    0.00    0.01       0.00    29%
St. Louis       0.59    0.11    -0.48     -81%     0.43      0.03     -0.41    -94%     0.00    0.01       0.00    85%
Washington      0.37    0.16    -0.21     -57%     0.07      0.38      0.31    419%     0.00    0.13       0.13    N/A
Total           14.76   16.63    1.87     13%      4.85      6.08      1.23     25%     4.96    2.59      -2.37   -48%




                                                          – 127 – 

                                                                                  APPENDIX VIII 



DRUG ENFORCEMENT ADMINISTRATION RESPONSE 

           TO THE DRAFT REPORT 


                                                 U. S. Department of Justice
                                                 Drug Enforcement Administration




www.dea.gov                                      Washington, D.C. 20537



                                                   OCT 11 2011
MEMORANDUM
TO:           Raymond J. Beaudet
              Assistant Inspector General for Audit
              Office of the Inspector   neral

FROM:         Kevin M. FoleyYj ::1f,V1,",-~Q
              Deputy Chief I s      r
              Office of Inspections

SUBJECT:      DEA's Response to the OIG's Draft Report: Audit of the Drug Enforcement
              Administration's Personnel Resource Management and Casework

    The Drug Enforcement Administration (DEA) has reviewed the Department of Justice
(DOJ), Office of the Inspector General's (OIG) Draft Audit Report, entitled: Audit ofthe Drug
 Enforcement Administration 's Personnel Resource Management and Casework. DEA
acknowledges OIG's efforts in conducting a review to evaluate how the DEA manages its
personnel resources to effectively support its mission. DEA is committed to being an
international organization having a global presence with a single·mission dedicated to drug law
enforcement. DEA focuses on the vision to disrupt and dismantle the major drug trafficking
supply organizations and their networks, especially the poly-drug trafficking sources of supply
who dominate global drug markets.

    The OIG report contains six recommendations for DEA action. DEA has grouped these
recommendations into three categories: 1) recommendations that DEA believes are excessive to
our needs; 2) recommendations for action that DEA was aJready in the process of implementing
before the OIG review began; and 3) a recommendation that reflects a misunderstanding on the
part of the OIG staff of the drug trafficking industry and how best to manage its resources and
operations.

     The OIG concluded in this report that DEA senior managers should adopt a drug focused
approach. DEA senior officials stated numerous times that detailed anaJysis by drug type is not
beneficial to DEA since many Drug Trafficking Organizations (DTOs) are poly-drug and DEA's
entire approach is organization based, not drug based. DEA's strategic shift from investigations
focused by drug type to investigations of DTOs posing the most significant threat has been
embraced by all involved in the war on drugs. DEA's strategy to disrupt and dismantle the most
significant domestic and international drug trafficking and money laundering organizations is




                                         – 128 – 

                                                                             APPENDIX VIII 



Raymond 1. Beaudet, Assistant Inspector General for Audit                               Page 2

clearly outlined in DEA's FY 2009 - FY 2014 Strategic Plan, which includes the DEA
Administrator's Vision. DEA"s budget is fully aligned with its Strategic Plan and breaks out
resources by DEA's four Strategic Focus Areas: International Enforcement, Domestic
Enforcement, State and Local Assistance, and Diversion Control. DEA's annual perfonnance
report assesses DEA's perfonnance based on the number of Priority Target Organizations (PTO)
disrupted and dismantled. In no document is DEA held accountable for the number of cases or
work hours associated with specific drug types. DEA's Strategic Plan was approved by the
Department of Justice, the Office of Management and Budget (OMB), and the Office of National
Drug Control Policy. Finally, DEA's Strategy is in line with the President's National Drug
Control Strategy and DOl's FY 2007 - FY 2012 Strategic Plan.

Clarifications on Specific Report Language

   •   Page xii, Paragraph 3, First Sentence: The OIG states: "We found inconsistencies
       when comparing Ihe DEA 's PTO data based on the invesJigalive target identified in the
       G-DEP code from the CAST and WRS systems to the PTOdatafrom the PTARRS
       system. "

       During numerous meetings with the OIG, DEA repeatedly explained that these minor
       inconsistencies between the PTARRS system and the CASTIWRS systems exist, not
       because the systems lack a relational link, rather the two data systems were developed
       independently, for independent purposes. DEA also explained that PTARRS and
       CASTIWRS data discrepancies are reconciled monthly. Lastly, the OIG was infonned
       by DEA that an integrated data platfonn is being developed to support the relational
       linkage of data from PT ARRS, WRS, and other data systems.

   •   Page xiii, Paragraph 2, Last Sentence: The OIG states: "This makes it diJIicultfor the
       DEA to analyze PTO work hour and case data because the data are maintained in more
       than one system. ..

       DEA believes this statement is misleading. Although analyzing data maintained in two
       different systems requires multiple steps, DEA would not categorize multiple steps as
       difficult. In fact, DEA routinely merges data from multiple databases using Microsoft
       Access to answer questions from program managers, senior executive, and external
       offices, such as OMB, and Congress. For example, DEA is able to pull PTO data from
       PTARRS and merge it with drug seizure data from DEA's System to Retrieve
       Infonnation from Drug Evidence (STRIDE) based on case numbers.

   •   Poge 45, Paragraph 1, Last Three Sentences: The OIG states: "In addition, the DEA 's
       use of special agents on diverted drug cases increasedfrom FY 2005 to FY 2010, while
       its use ofdiversion investigators decreased during the same time period. DEA officials
       explained that they do not routinely review casework and resource utilization data
       associated with the DEA 's drug threats. However, senior DEA officials stated that this
       type ofinformation would be useful in identifYing drug trends and assessing resources
       used on specific lypeS ofdrug investigations. "




                                       – 129 – 

                                                                                 APPENDIX VIII 


Raymond 1. Beaudet, Assistant Inspector General for Audit                                  Page 3

       DEA routinely reviews casework and reports case actions during regularly scheduled
       meetings and through the Significant Enforcement Activity Report system. This is one
       way of detennining if DEA has resources appropriately placed. As stated previously.
       DEA investigates DTOs. DEA can and does monitor drug distribution to detennine
       potential threats through the use of Automation of Reports and Consolidated Orders
       System. The analysis of Full Time Equivalent work hours to detennine drug threats is a
       flawed method that does not paint an accurate picture due to the poly-drug nature of
       many organizations.
                                         -
 EA Response to the Recommendations

 ecommendations That Are In Excess of DEA's Needs

   The OIG makes the following three recommendations that DEA believes are in excess of the
 eeds of the agency. Each of them would be resource intensive to implement and be oflimited
ifany value to DEA.

   Recommendation 1: Consider conducting an organization-wide, comprehensive,
   strategic examination of its domestic field division personnel resources to ensure that
   its resources are adequately aligned to address ongoing and emerging drug threats.

   DEA does DOt concur with this recommendation. DEA certainly agrees that it should
   regularly and thoroughly assess how its resources are being used to ensure they are focused
   on the most important existing and emerging drug trafficking threats facing our nation.
   However, DEA does not concur with the OIG that a new, stand-alone review of DEA 's
   domestic personnel is warranted or necessary. DEA has a number of comprehensive on­
   going processes in place that routinely examine the placement of DEA personnel resources
   and make adjustments as the drug threat shifts. DEA's field and headquarters (HQ) elements
   rely heavily on intelligence and statistics to make these assessments, ensuring that DEA's
   scarce resources are located where they will have the greatest impact on DTOs impacting the
   United States.

   These assessments and adjustments occur in three separate but complimentary ways: I)
   Special Agents in Charge (SAC) make adjustments to the placement of their current staffing
   configurations in the field; 2) the DEA's Chief of Operations assigns new Special Agents as
   they graduate from Basic Agent Training to those locations in greatest need of additional
   resources; and 3) DEA senior management, including the Administrator, undertake a
   thorough review of the most pressing needs whenever DEA receives Congressional
   authorization to hire additional Special Agents. Each of these assessments is further
   discussed in detail below.

   First, each of DEA 's 21 SACs continually assess the placement of their personnel resources
   to ensure they are focused on the most prevalent organizational threats in hislher Area of
   Responsibility (AOR). The SACs frequently shift personnel to or from enforcement groups
   and task forces to address changing threats and the overall priorities of each field division.
   The SACs are aware of the drug trafficking trends in their AORs and are in the best position
   to align resources with those threats. The resource shifts initiated by the SACs are




                                             – 130 – 

                                                                                 APPENDIX VIII 





Raymond J. Beaudet, Assistant Inspector General for Audit                                  Page 4

   coordinated with DEA's Operations Division, Intelligence Division, and Financial
   Management Division to ensure that the SACs resource decisions are in sync with overall
   DEA priorities. In FY 2010, there were 185 such reallocations in DEA personnel, affecting
   562 positions. These personnel changes included internal realignments, transfers of
   positions between groups and offices, and reclassifying positions to fulfill new requirements.

   In addition, DEA routinely leverages multiple resources allowing the agency to maximize its
   effectiveness and use its limited resources in an efficient manner. For example, DEA works
   shoulder-to-shoulder with its local, state, federal and foreign partners on a daily basis. This
   daily interaction provides real-time sharing of infonnation and the ability to readily identify
   significant threats, and acts as a "force multiplier" in efforts to attack these threats.
   Additionally, DEA and other agencies combine their intelligence gathering capabilities
   through fonnal environments such as DEA's Special Operations Division (SOD), the
   Organized Crime Drug Enforcement Task Forces (OCDETF) Fusion Center, the EI Paso
   Intelligence Center and other federal resources in a unified effort to focus resources towards
   the greatest threats. This process has proven to be both efficient and effective.

   Second, DEA's Chief of Operations allocates new Special Agents graduating from Basic
   Agent Training classes based on a variety of factors to ensure the agency's most pressing
   needs are met. The Chief of Operations reviews the extent of each division's staffing
   shortages, surveys the SACs for special needs (i.e. , Spanish speakers. prior law enforcement
   experience, etc.). and factors in the latest intelligence and enforcement trends when
   considering where to assign the new Special Agents.

   Third, when DEA receives new Special Agent positions from Congress, it considers a wide
   variety of perfonnance and workload data to detennine where these positions should be
   placed. The type of performance and workload data examined depends in part on any
   directives DEA may have received from Congress when it approved the new positions. For
   example, when DEA received new positions for the Southwest Border, a complex analysis
   was completed of PTO linked to Mexican Consolidated Priority Organization Targets
   (CPOT) by domestic field division. PTOs not linked to CPOTs with a nexus to Mexico, and
   Mexican CPOT-related asset seizures.

   The OIG incorrectly implies that DEA does not assess ongoing and emerging threats to
   ensure that resources are properly allocated. In fact DTOs adapt rapidly to their environment
   that DEA must respond immediately to these shifts with its own temporary and pennanent
   movement of resources. A working example is the extremely successful resource shift DEA
   implemented to address the growing problem of phannaceutical diversion. This shift in
   resources was accomplished through a combined realignment of existing positions and the
   allocation of new positions approved by Congress.

   The OIG did not take into account DEA's continual assessment and realignment of its
   resources to address the most prevalent organizational threats impacting the United States.




                                           – 131 – 

                                                                                     APPENDIX VIII 


Raymond J. Beaudet, Assistant Inspector General for Audit                                 Page 5

   Recommendation 2: Contact the FBI to learn about its risk-based resource management
   methodology and determine if such an approach would be beneficial to the DEA.

   DEA concurs with this recommendation. As recommended by the OIG, DEA contacted
   the FBI to learn about its risk-based resource management system and has detennined that
   replicating at DEA would not be beneficial. The FBI has a wide array of responsibilities
   grouped into several core operational areas (e.g. , counterterrorism, counter intelligence,
   Weapons of Mass Destruction (WMD), Cyber crime, criminal matters, etc.), an elaborate
   risk-based system helps senior FBI managers ensure that the appropriate percentage of agent
   work hours are devoted to their various operational responsibilities. For example, in one
   field division the operational priority may be cyber crime rather than WMD, while in another
   field division counterterrorism might be a greater threat than general criminal matters.

   The implementation of the FBI system was very labor and resource intensive, and
   maintaining it is likewise resource intensive. While such an investment may be reasonable
   for the FBI because it manages a wide variety of investigations, it is not necessary for a
   single mission agency such as DEA, and may even be wasteful. As was explained to the
   OIG auditors on several occasions, DEA already has several mechanisms in place to monitor
   how our investigative and analytical resources are being utilized to ensure they are properly
   focused on our single mission of disrupting and dismantling DTOs. DEA does not target
   specific drugs in our investigations; DEA targets organizations, most of which traffic several
   types of drugs simultaneously. It is important for oEA to ensure that our resources are
   focused on targeting organizations and our existing systems and procedures enable us to
   accomplish this task.

   Recommendation 4: Develop a more detailed method for analyzing its PTO workforce
   statistics and include that data in its quarterly reports.

   DEA does not concur with this recommendation. oEA already has a detailed method for
   analyzing and reporting PTO data on a quarterly basis. DEA believes the OIG failed to fully
   understand the richness of the oEA data and the thorough analysis conducted by multiple
   offices within OEA. Analyzed data is provided to the SACs quarterly and used to assess
   field division perfonnance. These quarterly reports include the following infonnation:

   •   PTOs disrupted and dismantled by field division (CPOT-linked I not CPOT-linked);
   •   OCoETF PTOs disrupted and dismantled by field division;
   •   RPOT PTOs active, disrupted, and dismantled by field division;
   •   PTO investigations involving methamphetamine, gangs, and terrorism ;
   •   Work hours for core series employees broken down by PTO vs. non-PTO, OCDETF vs.
       non-OCDETF, and Fee Fundable vs. non-Fee Fundable;
   •   Cases initiated;
   •   Title Ills;
   •   Asset Seizures.

   These are the key statistics oEA monitors to ensure that oEA's workforce is focused on the
   priority mission of disrupting and dismantling major oTOs.




                                                – 132 – 

                                                                                      APPENDIX VIII 


Raymond J. Beaudet, Assistant Inspector General for Audit                                  Page 6


   DEA also prepares quarterly fact sheets for the Administrator that analyze PTO linkages
   based on a CPOT's base of operations. For example. DEA determines the number ofCPOTs
   operating in Mexico and how many active PTO investigations are linked to those "Mexican"
   CPOTs. DEA analyzes where these linked PTOs are located by domestic field division. For
   example, DEA is aware ofPTOs initiated by the Chicago Field Division which are linked to
   Mexican CPOTs.

   Efforts to disrupt and dismantle PTOs often require a concerted effort on ·the part of multiple
   domestic (and foreign-based) DEA offices. Therefore, DEA analyzes the work hours
   contributed by multiple DEA offices to assess an organization's geographic reach. DTOs
   have no geographic boundaries. They can, and often do, operate in several different regions
   of the country and the world all at the same time. Any effort to precisely identify the
   geographical location of major DTOs is bound to mislead and could result in misguided
   application of resources if we attempted to chase their shadows. Simply looking at PTO data
   based on their HQ regional section assignment, as was done by the OIG or for that matter
   focusing on any artificial geographical breakdown, may be interesting but is of little value in
   determining how to make the best use of limited resources.

   As stated above, DEA already closely examines data across all domestic divisions and can
   create numerous specialized reports as needed. However, the data elements DEA routinely
   incorporates in its quarterly reports allow the SACs to focus on the most important aspects of
   their enforcement efforts, namely, the disruption and dismantlement of PTOs.

OIG Recommendations That DEA Was Already Implementing Before the Review Began

   Recommendation 3: Evaluate the Intelligence Division's reporting enhancements and
   determine what changes are necessary to ensure that the Intelligence Division is getting
   the information it needs to effectively manage its programs and resources.

   DEA concurs with this recommendation. As discussed during the exit conference and in
   numerous meetings with OIG, DEA is currently addressing actions to enhance reporting
   requirements not only for the Intelligence Division, but for DEA agency-wide. In a 2008
   response to a previous DIG report on the Diversion Control Fee Account. DEA indicated that
   it was in process of developing a new work hours reporting system in order to provide DEA
   with a more accurate means of capturing employee work hours and cost related information.
   This same action would also satisfy this recommendation. Specifically, DEA is
   implementing Kronos' WebTA application as its enterprise time and attendance system,
   which will serve to collect both official payroll data and work hour data by activity. This
   WebT A application will replace DEA's legacy Work Hour Reporting System (WRS) and
   current time and attendance system (STARWeblNFC Application). The agency-wide
   deployment of the WebTA application is scheduled to occur in 2012.

   In support of the development and agency-wide deployment of WebT A, the existing
   Intelligence Biweekly Activity Report, DEA Form 421 . was modified to expand existing
   work hour reporting categories, which will allow for more refined reporting of work hours.
   For example. the expanded work hour reporting categories will capture the level of effort




                                                – 133 – 

                                                                                                   APPENDIX VIII 


----DRa~ymO=o~n~drJr.~sea~u~dr.e"I.~A"s~S"ls~Um~Ir.lns~pe~crtlo~,~G
                                                                 ~e~n~e=
                                                                       m"17fo""~A~u~dr.;'I--------------------""
                                                                                                              Page7


          associated with DEA's Domestic Monitoring Program. Further. the Intelligence Division
          will establish a working group of Intelligence Managers (HQ and Field) to further refine the
          work hour categories.

          Recommendation 5: Ensure tbat it develops and implements a new information system
          that collects and stores consistent PTO information on one platform.

          DEA concurs with the ultimate objective oftbis recommendation. DEA believes that the
          Priority Target Activity Resource and Reporting System (PTARRS) contains sufficient data
          to manage the Priority Targeting Program and therefore a "new infonnation system" is not
          needed. However, we agree that PTARRS data can be better integrated with other DEA case
          data and we are in the process of doing so. With improvements in technology, DEA efforts
          are underway to develop a system designed to store all case related information, including
          PTO data, on a single platform. Specifically, DEA has already implemented the Concorde
          Data Store as the central repository for all DEA case applications. This centralized data store
          will include a centralized reporting module which will provide consistent data. In addition,
          DEA's new enterprise time and attendance system (Kronos' WebTA) will be integrated with
          the Concorde envirorunent, thereby providing more consistent performance data by case,
          activity, and employee. As discussed during the exit conference, PT ARRS will be integrated
          with the Concorde envirorunent in 2012 and WebTA will be implemented agency-wide in
          2012.

      OIG Recommendation That Misunderstands the Nature of Drug Trafficking
      Organizations

          Recommendation 6: Establish a mechanism to routinely look at the level of effort
          upended on specific illicit and diverted pharmaceutical drug threats.

          DEA does Dot concur with tbis recommendation. Much of the orG report focuses on
          DEA's level of effort against various types of drugs. DEA understands that anaJyzing drug
          enforcement data by drug type may at fi rst seem reasonable, however, DEA went to great
          lengths to explain to the OIG that most modem DTOs traffic with several types of drugs at
          once (e.g., cocaine, marijuana and heroin) and therefore an excessive focus on drug-specific
          data was not particularly useful in determining where and how to deploy personnel
          resources.

          Prior to 1995. DEA organized its oversight ofits domestic field divisions by drug type with
          desks for cocaine, heroin, cannabis, and dangerous drugs in both the Operations and
          Intelligence Divisions. In the 1990s, Colombian cocaine manufacturers began using
          Mexican DTOs to move their product into the United States. This led to intensified
          networking of trafficking groups and continued diversification of transportation routes. For
          example, well-established cocaine routes were increasingly being used to smuggle heroin,
          and vice versa. In 1995, DEA changed its oversight structure to a geographic focus to
          monitor and support investigations by region to address the proliferation of organizations
          trafficking in multiple drug types. That same year DEA's SOD was established to facilitate
          coordination across geographic regions. Since fiscal year (Fy) 2000, 80 percent of the DEA
          Special Agent work hours reported for seizure-yielding cases were devoted to cases




                                                      – 134 – 

                                                                              APPENDIX VIII 



Raymond J. Beaudet, Assistant Inspector General for Audit                                Page 8

   involving the seizure of drugs in multiple categories.

   In 2002, DEA's Operations Division further refined the geographic structure into what is
   currently the Global Enforcement Division with the following regional sections: Europe,
   Asia, Mid and Far East Section, Latin America and Caribbean Section, Mexico and Central
   America Section, and Regional and Local Impact Section. These sections are
   administratively defined assignments designed to facilitate case coordination and/or fiscal
   management of on-going enforcement activities, with the view that drug trafficking networks
   span the globe and are not confined to a single region. DEA enforcement behavior in the
   past decade has reflected this increasingly poly-drug reality.

   In addition to changes in trafficking trends, DEA' s enforcement strategy began shifting in
   FY 2001 to focus on disrupting and dismantling the most prolific and violent OTOs that
   threaten the health and well-being of the United States - DEA's Priority Targets. The PTO
   program was implemented in April 2001 to identify, target. investigate, and disrupt or
   dismantle those international, national, regional , and local impact drug trafficking and/or
   money laundering organizations having a significant impact on drug availability within the
   United States. In FY 2002, OCDETF member agencies, including DEA, followed-up with
   the development of the first Attorney General 's CPOT List, otherwise known as the "most
   wanted" drug traffickers list. CPOTs represent the command and control elements of major
   international DTOs and/or money laundering enterprises that significantly impact the United
   States drug supply. As DEA intensified its focus on the "most wanted," its cases took on an
   increasingly poly-drug complexion.

   DEA's strategic focus has produced significant results which reflect positively on DEA's
   efforts toward denying illicit revenue to OTOs. In FY 2005, OEA established the revenue
   denied figure , which represents the value of drug and assets seizures. From FY 2005 to FY
   2009, DEA's target for revenue denied was $\0 billion and DEA denied drug traffickers
   $12.9 billion during that period. In FY 2010, DEA denied drug traffickers $2.989 billion.
   Further, over the last several years DEA has exceeded its targets for the disruption and
   dismantlement of PTOs linked to CPOT and DEA is on pace to once again exceed this goal
   in FY 2011.

   DEA believes, considering the poly-drug nature of DE A's most complex targets, the
   unanimous agreement on DEA's strategic approach, and the enforcement successes
   epitomized by exceeding its goals for revenue-denied, the OIG has not made a compelling
   argument for this recommendation.

    DEA remains committed to combating global drug traffickers, drug related terrorism, and
other transnational crimes by disrupting and dismantling major drug trafficking supply
organizations and will work to address process improvements. Documentation detailing DEA's
efforts to implement concurred recommendations noted in this report will be provided to tbe
OIG on a quarterly basis, until the corrective actions have been completed. If you have any
questions or concerns regarding DEA's response to the OIG Audit Report recommendations,
please contact the Audit Liaison Team at (202) 307-8200.




                                       – 135 – 

                                                              APPENDIX IX 



           OFFICE OF THE INSPECTOR GENERAL 

          ANALYSIS AND SUMMARY OF ACTIONS

      NECESSARY TO RESOLVE AND CLOSE THE REPORT


      The OIG provided a draft of this audit report to the DEA. The DEA’s
response is incorporated in Appendix VIII of this final report. The following
provides the OIG analysis of the response and summary of actions necessary
to resolve and close the report.

Analysis of DEA’s Response

       In response to our audit report, the DEA concurred with three of our
six recommendations. In addition, the DEA provided comments that were
not related directly to our recommendations. Moreover, the DEA’s response
stated that it grouped our recommendations into three categories:
(1) recommendations that the DEA believes are excessive to its needs,
(2) recommendations for action that the DEA states was already in the
process of implementing before the OIG review began, and (3) a
recommendation that reflects a misunderstanding on the part of the OIG
staff of the drug trafficking industry and how best to manage the DEA’s
resources and operations. As we discuss in more detail below, we do not
agree with specific statements in the DEA’s response and with the DEA’s
categorization of our recommendations. Before discussing the DEA’s specific
responses to each of our recommendations, we provide the following reply to
statements not related to specific recommendations.

       In its response, the DEA stated that the OIG report concludes that DEA
senior managers should adopt a drug-focused approach. This statement is
inaccurate. The OIG’s report does not state that the DEA should adopt a
drug-focused approach. Instead, as explained to the DEA, the OIG analyzed
and reported on the DEA’s resource utilization and casework data by drug
type for two primary reasons. The first primary reason was because the
DEA requires field divisions to submit to DEA headquarters the top drug
threats in their Areas of Responsibility. For example, one field division may
identify its top three illicit drug threats (in order) as: (1) cocaine,
(2) methamphetamine, and (3) marijuana. We believe analyses, similar to
those we present in our report, of the DEA’s resource utilization and
casework data by drug type are an essential complement to the DEA’s drug-
focused threat analyses.

      The second primary reason the OIG analyzed and reported on the
DEA’s resource utilization and casework data by drug type was our belief
that this data can be informative to the Department, Congress, and the


                                  – 136 – 

                                                                 APPENDIX IX


public. For example, this data shows that the DEA expended 50 percent of
its non-diversion investigative personnel resources on investigations where
cocaine was identified as the primary drug and 15 percent on investigations
where methamphetamine was identified as the primary drug. These are
terms and measurements that can be useful in discourse both within and
outside the Department.

       Further, we believe that the DEA could improve its oversight
capabilities by routinely reviewing readily available resource utilization and
casework data by drug area in conjunction with the field divisions’
identification of their top drug threats. In managing and evaluating its
performance, it is appropriate and valuable for the DEA to match the
proactive, intelligence-based threat analyses of the drugs most significantly
affecting different locales to the actual effort the DEA expends on addressing
these threats. We also believe that the addition of this type of analysis will
enhance the use of existing DEA data and is not an overall change in how
the DEA operates. Lastly, we do not believe that making this information
available to DEA supervisors and managers or that their efforts to review it
in concert with other statistical data constitute a conclusion or directive by
which the DEA must adopt a drug-focused approach to combating drug
trafficking. We discuss this further in response to Recommendation
Number 6.

        The DEA also provided “Clarifications on Specific Report Language” in
its response to our draft report. These clarifications were previously
provided to the OIG at the audit close-out meeting and were taken into
consideration before issuance of the draft report. In the DEA’s first
clarification bullet, the DEA stated that differences between the CAST and
WRS data and PTARRS data exist because the systems were developed
independently, not because the systems lack a relational link. The OIG’s
statement that the systems lack a relational interface (or link) was based
upon statements written by the DEA in its budget submissions, and the DEA
does not dispute that the systems are not linked. In addition, the DEA’s
response states that the PTARRS and CAST/WRS data discrepancies are
reconciled monthly and that the DEA is developing an integrated data
platform to support the relational linkage of data. The OIG’s draft report
incorporated information about the DEA’s manual reconciliation process, the
DEA’s establishment of a new information system, and the DEA’s significant
reduction in the number of data inconsistencies. Therefore, it is unclear why
the DEA included this clarification in its response.

      In the second clarification bullet, the DEA stated that it believes that it
is misleading for the OIG to state that analyzing PTO work hour and case
data is difficult because the data are maintained in more than one system.


                                    – 137 – 

                                                                APPENDIX IX 



The DEA stated that it routinely merges data from multiple databases to
answer questions from senior executive offices, Congress, and others. DEA
officials told us this same thing during the audit. However, when we asked
for such merged data for details on DEA efforts expended on different
categories of PTOs, DEA officials informed us that the manual process of
extracting and merging the data would be time-intensive and burdensome to
the DEA and strongly encouraged us to revise our request. We believe the
DEA’s response to our data request supports our conclusion that having data
located in multiple systems makes it difficult to analyze.

      In the final clarification bullet, the DEA expressed concerns over the
OIG language regarding the DEA’s lack of a routine review of casework and
resource utilization data associated with its drug threats. Specifically, the
DEA stated that analyzing work hours to determine drug threats is a flawed
method. This illustrates the DEA’s misunderstanding of this portion of the
OIG draft report in association with the audit objectives. The purpose of this
audit was not to assess the DEA’s identification of its drug threats but to
examine the DEA’s management of personnel resources used to address the
DEA’s identified drug threats. The OIG’s draft report does not state that the
DEA should be identifying its drug threats based upon an analysis of work
hours expended. Instead, the OIG’s draft report suggests that there is
benefit to the DEA in analyzing and reviewing its readily available data to
ensure its personnel resources are addressing priority drug threats, a
concept that certain senior DEA officials believed would be useful. We
provide additional clarification on the OIG’s basis for this type of analysis in
response to Recommendation Number 6.

Summary of Actions Necessary to Resolve and Close the Report

1.	   Unresolved. The DEA does not concur with our recommendation to
      consider conducting an organization-wide, comprehensive, strategic
      examination of its domestic field division personnel resources to
      ensure that its resources are adequately aligned to address ongoing
      and emerging drug threats. Despite the DEA’s unwillingness to accept
      this recommendation, we believe that the DEA can greatly benefit from
      assessing its domestic field division personnel resources.

      The DEA stated in its response that it should regularly and thoroughly
      ensure that the DEA is using its resources to address the most
      important existing and emerging drug trafficking threats. However,
      the DEA does not believe that a new, stand-alone review of its
      domestic personnel resources is necessary because it has a number of
      comprehensive ongoing processes in place.



                                    – 138 – 

                                                          APPENDIX IX 




The DEA did not address the foundation of the OIG’s recommendation
because its response does not address the underlying issue that the
DEA has not performed an overall assessment of its resources since
2002. The ongoing processes identified by the DEA only examine the
placement of new personnel resources and the alignment of positions
within each field division. These processes for new positions do not
address the OIG’s recommendation that the DEA should assess its
current resource distribution to determine if the reallocation of existing
personnel resources among field divisions is necessary.

As the OIG describes in the report, we found that the DEA conducts
rightsizing efforts for its foreign field divisions on a continual basis,
which results in proposed enhancements and reductions of staffing
levels throughout its foreign offices. However, this is not done for its
domestic field divisions. The DEA’s domestic field divisions comprised
over 93 percent of investigative and intelligence personnel resources in
FY 2010. During our review, DEA officials frequently informed the OIG
that the DEA has limited resources and funding. Given these concerns
and current fiscal stress, we believe it is prudent for the DEA to assess
the overall staffing levels of its domestic field divisions to ensure that
its field divisions are staffed appropriately to address all drug threats
in the most efficient manner.

We believe that the DEA’s unwillingness to even consider a
comprehensive examination of its domestic field division personnel
resources conveys the DEA’s resistance to enhance its management of
personnel resources and is even contradictory to DEA statements in its
strategic plans. Specifically, the DEA’s Strategic Plans for FYs 2003
through 2008 and FYs 2009 through 2014 included objectives for the
DEA’s disruption and dismantlement of domestic PTOs. The DEA
identified various actions to accomplish these objectives and one such
action is to “develop a plan for the reallocation of resources between
regions to address shifting or emerging drug threats.” This action
corresponds with the OIG recommending that the DEA conduct an
overall assessment of its domestic field division personnel to identify
any needed reallocations. Therefore, by including it in its Strategic
Plans, the DEA certainly believes that there is value to such an effort
and it seems unreasonable for the DEA not to concur with the OIG’s
recommendation to consider conducting an assessment of its resource
allocation. Moreover, based upon this we believe that the DEA
inappropriately categorized this recommendation as being in excess of
the DEA’s needs.



                              – 139 – 

                                                              APPENDIX IX


      Therefore, this recommendation is unresolved. This recommendation
      can be resolved when the DEA either: (1) agrees to consider
      conducting an organization-wide, comprehensive, strategic
      examination of its domestic field division personnel resources to
      ensure that its resources are adequately aligned to address ongoing
      and emerging drug threats, or (2) suggests an alternative way to
      examine its domestic field division personnel resources for
      accomplishing the course of action described in its strategic plan,
      which is to develop a plan for reallocating resources between regions
      to address shifting or emerging drug threats.

2.	   Resolved. The DEA concurred with our recommendation to contact
      the FBI to learn about its risk-based resource management
      methodology and determine if such an approach would be beneficial to
      the DEA. The DEA stated in its response that it contacted the FBI to
      learn about its risk-based resource management system and
      determined that replicating it at the DEA would not be beneficial. In
      its response, the DEA explained that it is not necessary and may even
      be wasteful for a single mission agency, such as the DEA, to invest in a
      risk-based system similar to the FBI’s because the DEA already has
      several mechanisms in place to monitor how investigative and
      analytical resources are being utilized. In addition, the DEA stated
      that its investigations do not target specific drugs, but instead target
      organizations, most of which traffic several types of drugs
      simultaneously.

      After considering the DEA’s response, we do not believe the proposed
      actions adequately address our recommendation. The OIG contacted
      the FBI’s Resource Planning Office, which is the office responsible for
      administering the FBI’s risk-based management system. A senior FBI
      official from the Resource Planning Office stated that the risk-based
      methodology used by the FBI’s violent gangs section could be
      transferable to the DEA and believed that the DEA may find value from
      using a similar risk-based management system.

      We believe that it is short-sighted for the DEA to dismiss the
      usefulness of the FBI’s risk-based system because the DEA is a single-
      mission agency. Although the FBI handles a variety of investigative
      priority areas, the FBI conducts an independent risk-based assessment
      within each of its investigative programs, some of which have
      single-focused operations, such as the violent gangs program. Similar
      to the DEA focusing its investigative efforts on drug trafficking
      investigations, the FBI’s violent gangs program focuses on eliminating
      violent gangs that pose the greatest threat to the United States. The


                                   – 140 – 

                                                               APPENDIX IX 



      FBI sees value in applying its risk-based approach to allocate
      resources for this single-mission program. Therefore, we do not
      believe that this recommendation warrants a categorization of being in
      excess of the DEA’s needs.

      At the audit close-out meeting, DEA officials objected to the OIG’s
      suggestion to meet with the FBI because these officials believed such a
      suggestion amounted to pitting two DOJ components against one
      another. This illustrates the DEA’s resistance to consider improving its
      current operational procedures even though it may benefit from
      adopting portions of an already developed, more sophisticated system.
      We believe that suggesting that the DEA contact the FBI represents an
      important function of the OIG, namely identifying a best practice
      within DOJ and encouraging its use by other components, thus
      promoting efficiency and possibly achieving economies of scale.

      Therefore, this recommendation can be closed when the DEA provides
      further details of its meeting with the FBI regarding the risk-based
      management system, including the names of the FBI personnel with
      whom DEA officials spoke and additional evidence justifying the DEA’s
      determination that implementing a similar methodology would not be
      beneficial.

3.	   Resolved. The DEA concurred with our recommendation to evaluate
      the Intelligence Division’s reporting enhancements and determine what
      changes are necessary to ensure that the Intelligence Division is
      getting the information it needs to effectively manage its programs
      and resources. The DEA stated in its response that it is currently
      addressing actions to enhance reporting requirements through its
      implementation of the WebTA application as its enterprise time and
      attendance system. The DEA explained that as part of the WebTA
      deployment, the Intelligence Biweekly Activity Report was modified to
      expand existing work hour reporting categories, which will allow for
      more refined reporting of work hours. Further, the DEA stated that
      the Intelligence Division will establish a working group of Intelligence
      Managers to further refine the work hour categories. According to the
      DEA, the agency-wide deployment of the WebTA application is
      scheduled to occur in 2012.

      The DEA categorized this recommendation as an action that it was
      already implementing before the review began in April 2010. In
      July 2010, the OIG met with Intelligence Division officials who voiced
      their concerns about the lack of specificity in the intelligence
      personnel’s work hour reporting. These officials provided us with


                                   – 141 – 

                                                                APPENDIX IX 



      documentation on proposed changes to the DEA’s time reporting
      activities of intelligence personnel that was submitted to the Office of
      Resource Management in April 2006. When the OIG met with DEA
      officials in October 2010, we discussed the Intelligence Division’s
      concern with the lack of specificity for intelligence personnel work hour
      reporting. The officials at this meeting did not inform us that the DEA
      was implementing a new system that would expand existing work hour
      reporting categories. In March 2011, DEA officials informed us that
      the agency was planning to implement the WebTA system DEA-wide
      and that it was being piloted in certain field offices. However, as of
      January 2011 the DEA Intelligence Division was not aware of any
      related ongoing actions to improve the reporting for intelligence
      analysts and the DEA did not provide any details on changes it was
      making related to our finding on intelligence analyst time reporting.
      Given that this system was being piloted, it would seem logical that
      the Intelligence Division would have been aware of these efforts during
      our January 2011 meeting.

      While the DEA may in fact have been working to implement WebTA
      prior to the start of our audit, it appears clear that the Intelligence
      Division’s needs, as laid out in 2006, were not yet being addressed.
      As a result, we believe that it is important to ensure that these needs
      are considered as the DEA moves forward with WebTA.

      This recommendation can be closed when the DEA provides
      documentation of the WebTA’s deployment and the implementation of
      the modified Intelligence Biweekly Activity Report that includes refined
      work hour categories. In addition, please provide evidence that the
      revised work hour categories sufficiently meet the Intelligence
      Division’s needs for effectively managing its programs and resources.

4.	   Unresolved. The DEA does not concur with our recommendation to
      develop a more detailed method for analyzing its PTO workforce
      statistics and include that data in its quarterly reports. However, we
      believe that the DEA did not acknowledge the underlying issue behind
      this recommendation and believe that examining PTO workforce
      statistics in a more detailed manner would be of value to the DEA.

      In its response, the DEA stated that it already has a detailed method
      for analyzing and reporting PTO data on a quarterly basis. The DEA
      stated that the OIG did not understand the richness of the DEA data
      and the thorough analysis conducted by multiple offices within the
      DEA. The DEA explained in its response that it uses quarterly reports
      that include various sets of data about PTOs, as well as case initiations


                                   – 142 – 

                                                          APPENDIX IX 



and Title III investigations. The DEA stated that these are the key
statistics the DEA monitors to ensure that its workforce is focused on
the priority mission of disrupting and dismantling major drug
trafficking organizations.

During the audit the OIG reviewed the DEA’s quarterly reports and
found that although they do have all of the measurements that the
DEA detailed in its response, these reports lacked detail regarding
resources utilized against specific types of PTOs that the DEA
investigates. We believe that as a result the DEA exhibits included in
these quarterly reports provide a rudimentary picture of special
agents’ and task force officers’ investigative efforts on PTOs.
Specifically, these reports identified that through the 2nd Quarter of
FY 2010, DEA special agents and task force officers spent 76 percent
of their time on PTO investigations and 24 percent of their time on
non-PTO investigations. We believe that only looking at work hour
data as PTO or non-PTO related is not as valuable as regularly looking
at those statistics with more detail. The DEA is only able to say that
76 percent of its workforce is dedicated to PTOs. Without regularly
reviewing what that 76 percent is comprised of, the DEA implies that
76 percent of its work is of the highest priority and that all work within
that large category is equal.

During interviews with DEA officials, OIG auditors asked if DEA officials
could identify more specific categories for the PTOs that consumed
76 percent of the DEA’s special agents’ and task force officers’ time.
DEA officials informed the OIG that the DEA has the capability to
perform an ad hoc query between PTARRS and WRS to extract work
hours linked to specific PTO types, such as Mexican PTOs. These DEA
officials also stated that the DEA runs these types of queries when
non-DEA entities, including DOJ and Congress, request work hour and
casework statistics for specific activities, such as the DEA’s efforts
along the Southwest Border. These officials stated that it does not
take a considerable amount of time to run these queries because the
data merger was a fairly automated process.

In an attempt to determine the effort the DEA expended on different
types of PTOs the DEA investigated and to present more detailed
analysis in our audit report, the OIG requested the following
information:

   	 PTO work hours associated with Mexican, Columbian, African,
      Asian, and American drug trafficking organizations;



                              – 143 – 

                                                        APPENDIX IX 



     PTO work hours linked to Consolidated Priority Organization
      Targets for each of the aforementioned drug trafficking
      organizations; and
     PTO work hours associated with the Southwest Border.

Although DEA officials previously informed us that the DEA runs these
types of queries for ad hoc requests and that gathering this
information should be relatively easy, we were later informed that it
would consume a considerable amount of time and resources to obtain
and provide this information to the OIG and we were strongly
encouraged to revise our request. DEA officials provided the OIG with
an alternative option, which entailed providing the OIG with PTO work
hour data by the DEA’s Operations Division geographic sections, such
as the Mexico and Central America Section and the Regional and Local
Impact Section. The OIG agreed to this approach because it provided
more detail than the data we previously received from the DEA and,
according to the DEA, would not be an onerous task for the agency.

The OIG presented its PTO analysis by DEA Operations Division
geographic section to DEA officials on several occasions and there
were different opinions on the usefulness of the information presented.
Some high-ranking Operations Division and Intelligence Division
officials stated that the PTO data by regional section was useful to
identify investigative trends and better assess resource utilization.
Other senior DEA officials from the Financial Management Division and
the Office of Operations Management stated that there was no value in
aggregating the data because the details of cases cannot be revealed
in that manner. In its response, the DEA explained that drug
trafficking organizations have no geographic boundaries and operate in
several different regions of the country and the world all at the same
time. The DEA asserted that any effort to precisely identify the
geographical location of major drug trafficking organizations is bound
to mislead and could result in the misguided application of resources.
The DEA also stated that simply looking at PTO data based on
headquarters regional section assignment or focusing on any artificial
geographic breakdown may be interesting but is of little value in
determining how to best use resources.

However, according to its own argument in response to
Recommendation Number 6, the DEA stated that in 1995 the agency
changed its oversight structure into operational sections with a
geographic focus. This reorganization was designed to facilitate the
management of enforcement activities to address the proliferation of
global organizations trafficking multiple drug types. It would seem


                            – 144 – 

                                                         APPENDIX IX 



apparent that the DEA would want to conduct a more granular
examination of personnel resource utilization and casework on PTOs to
coincide with the restructuring of its investigative focus to a regional
perspective. The OIG believes that the DEA’s data can be used to a
greater extent than the DEA’s current methodology of simply
identifying PTO and non-PTO work hours and cases. It is the OIG’s
assessment that the DEA could improve its oversight capabilities if it
analyzed its data at a more granular level because this would better
allow the DEA to identify trends in personnel resources used on
different types of PTOs that field divisions are investigating. As
explained in the report, we are not suggesting that the DEA needs to
analyze its data in the exact format that the OIG exhibits in this
report. We believe that DEA officials are best positioned to establish
the categories that can be used by the DEA to analyze its PTO data at
a more detailed level.

Although the DEA categorizes this recommendation as being in excess
of its needs, we believe that this categorization is contradictory to the
development of the DEA’s tracking of Southwest Border statistics.
Specifically, DEA officials informed the OIG at the close-out audit
meeting that they were tracking Southwest Border statistics and were
uncertain why the OIG would state that this information was difficult to
obtain. Upon further inquiry, we determined that the DEA did not
have this data available until the 2nd quarter of 2011. Moreover,
although the DEA was aware of the OIG’s original request for
Southwest Border statistics, the DEA did not inform the OIG that it
started gathering this information regularly.

We contacted the DEA official that compiles this data for the DEA, and
we learned that the statistics gathered were merely an approximation
of Southwest Border activity. Specifically, the DEA’s methodology is to
extract all PTO work hours for the DEA’s Los Angeles, Phoenix,
San Diego, Houston, and El Paso field divisions and classify them as
Southwest Border-related. However, these divisions do not spend
100 percent of their PTO work hours on the Southwest Border. In
addition, the methodology used to gather these statistics does not
include other field divisions’ Southwest Border contributions. For
example, the DEA did not include Chicago and Atlanta field division
data in its methodology even though these field divisions received
Southwest Border-specific resources in FY 2010.

We believe that the DOJ’s recent interest in receiving Southwest
Border statistics supports our position that the DEA should seek to
analyze its workforce data in a more in-depth and specific manner.


                             – 145 – 

                                                               APPENDIX IX


      Moreover, if the DEA implemented the OIG’s recommendation it could
      execute an accurate methodology for analyzing its data to compile
      Southwest Border statistics.

      Therefore, this recommendation is unresolved. This recommendation
      can be resolved when the DEA either: (1) agrees to develop a more
      detailed method for analyzing its PTO workforce statistics and include
      that data in its quarterly reports, or (2) suggests an alternative way to
      provide DEA management and other requesting entities, including DOJ
      and Congress, with a more informative perspective and accurate
      depiction of field divisions’ use of personnel resources to combat PTOs.

5.	   Resolved. The DEA concurred with our recommendation to ensure
      that it develops and implements a new information system that
      collects and stores consistent PTO information on one platform. In its
      response, the DEA stated that it agrees that PTARRS data can be
      better integrated with other DEA case data and that it is in the process
      of developing the Concorde Data Store, which is designed to store all
      case-related information, including PTO data, on a single platform.
      The DEA explained that the Concorde Data Store will include a
      centralized reporting module that will provide consistent data. In
      addition, the DEA stated that WebTA will be tightly integrated with the
      Concorde Data Store, which should provide more consistent
      performance data by case, activity, and employee. The DEA further
      stated that PTARRS will be integrated with the Concorde Data Store
      environment in 2012 and that WebTA will be implemented agency-
      wide in 2012.

      The DEA categorized this recommendation as one that it was already
      implementing before the OIG review began. We acknowledge that the
      DEA informed us about its development of the Concorde Data Store
      during the audit and planned to implement it in 2012. Nevertheless,
      the DEA had not fully implemented the Concorde Data System by the
      time the OIG concluded its review. Because the implementation of
      new information systems, in general, have a strong tendency to be
      delayed and sometimes terminated, we believe that it is prudent to
      include this recommendation to ensure that the DEA collects and
      stores consistent PTO information.

      This recommendation can be closed when the DEA provides evidence
      of the Concorde Data Store’s implementation, as well as
      documentation that all PTO data is stored within the Concorde Data
      Store. In addition, please provide evidence that WebTA is integrated



                                   – 146 – 

                                                                 APPENDIX IX


      with the Concorde Data Store and documentation that this integration
      results in more consistent performance data.

6.	   Unresolved. The DEA does not concur with our recommendation to
      establish a mechanism to routinely look at the level of effort expended
      on specific illicit and diverted pharmaceutical drug threats. However,
      we believe that the DEA did not recognize the underlying issue behind
      this recommendation and believe that the DEA would enhance its
      oversight of field offices by routinely analyzing their level of effort on
      combating drug threats.

      In its response, the DEA stated that most modern drug trafficking
      organizations traffic in several types of drugs at once, such as cocaine,
      marijuana, and heroin. Therefore, the DEA stated that an excessive
      focus on drug-specific data was not particularly useful in determining
      where and how to deploy personnel resources. (Emphasis added.)

      Moreover, the DEA believed it was necessary to categorize this
      recommendation as one that reflects the OIG’s misunderstanding of
      the nature of drug trafficking organizations. We believe that this
      categorization is incorrect and provide the following explanation for
      why the OIG included this recommendation in its report.

      The OIG understands that the DEA’s strategy shifted from drug-centric
      to focusing on drug trafficking organizations and does not believe that
      the DEA should adopt a drug-focused approach and change its
      strategic structure to include a focus on drugs. Moreover, the OIG
      does not question the DEA’s strategic objectives or believe that the
      DEA should implement our recommendation in an “excessive” manner.
      The OIG report states that the centerpiece of the DEA’s Strategic Plan
      for FY 2009 through FY 2014 is the PTO program, in which the DEA
      assesses targets and links the most significant drug, money
      laundering, and narco-terrorism-related organizations to disrupt and
      dismantle them. Nowhere in our report do we suggest that the DEA
      stray from this approach.

      The OIG report acknowledges the DEA’s position that the DEA’s
      operations are focused on drug trafficking organizations, not specific
      drug threats, and the DEA’s perception that the drug analysis
      presented in this report would be of no value in the DEA’s
      management of personnel resources. However, we believe the DEA
      continues to misunderstand our basis for examining personnel
      resource utilization and casework data by drug type and our reasoning
      for including the recommendation in the report. The OIG is not


                                    – 147 – 

                                                         APPENDIX IX 



recommending that the DEA analyze its data by drug type to
determine its drug threats or where to allocate resources. Instead, the
purpose of the OIG’s recommendation is to ensure DEA management
is aware of and is assessing the field divisions’ use of personnel
resources to combat established drug threats.

As explained in the report, the DEA requires its field divisions to
identify in the Field Management Plans (FMP) the top drug threats
affecting the jurisdictions. FMPs are developed by each field division
to convey jurisdictional priorities and are used by DEA headquarters to
assess field division performance. The purpose of this audit was not to
assess the DEA’s process for identifying its drug threats but to
examine the DEA’s management of personnel resources to address the
DEA’s identified drug threats. However, because the DEA does not
routinely evaluate cases and work hours by drug type, it is failing to
hold the field division managers accountable for their division’s
performance on drug priorities identified in the FMPs. We believe that
there is corresponding value in and need for the DEA to monitor its
field divisions’ performance in combating the drug threats that are
required to be articulated in the FMPs.

In May 2011 the DEA Administrator testified before Congress on the
prescription drug epidemic. Included in this congressional testimony
was a depiction of the DEA’s level of effort by drug type, similar to the
analysis presented in our report. During the audit close-out meeting,
DEA officials stated that the OIG should not assume that the data used
in the congressional testimony is always useful or common practice for
the DEA. However, we believe the DEA’s use of analysis by drug type
in this instance illustrates that the DEA does see some value in this
type of analysis. This coincides with senior DEA officials’ statements
during the audit that a drug specific analysis would be useful.

Therefore, this recommendation is unresolved. This recommendation
can be resolved when the DEA either: (1) agrees to establish a
mechanism to routinely look at the level of effort expended on specific
illicit and diverted pharmaceutical drug threats, or (2) suggests an
alternative way to be aware of and hold field offices accountable for
their investigative efforts on their identified drug threats.




                             – 148 – 

